                         UNITED STATES DEPARTMENT OF AGRICULTURE
                                     OFFICE OF INSPECTOR GENERAL
                                           Washington D.C. 20250



                                                                                   September 29, 1997


REPORT FOR THE SECRETARY ON CIVIL RIGHTS ISSUES - PHASE II


FROM:           Roger C. Viadero
                Inspector General

SUBJECT:        Minority Participation in Farm Service Agency's
                Farm Loan Programs, Evaluation Report No. 50801-3-Hq


On December 9, 1996, you informed me of your concern about the effectiveness of the Department's
work with socially disadvantaged and minority farmers and ranchers. You asked me and my staff to
review the Department's efforts in responding to complaints of discrimination, to assess minority
participation in the Farm Service Agency's (FSA) farm loan programs, and to determine if FSA offices
provide sufficient technical assistance to minority farmers and process their loan applications and
servicing requests in the same manner as for nonminorities. On February 27, 1997, we issued our
Phase I report which gave you the initial results of our review of the Department's complaint
resolution process. The purpose of this report is to provide you with the results of our Phase II
review.

SUMMARY:

The Department needs to take additional actions to reduce the backlog of civil rights discrimination
complaints. We reported in February that FSA had a backlog of 241 discrimination complaints, and
that the Department itself had a backlog of 530 complaints. In August 1997, we were informed by
the Department's Office of Civil Rights (OCR) that only 32 of the 241 FSA complaints have been
closed, and that the Department's total number of open complaints is now 984. Although OCR has
currently contracted with private firms to investigate certain complaints and is in the process of hiring
its own complaint investigators, we still believe additional efforts are needed by ad hoc teams, under
the direction and control of OCR, to help address the backlog.

In an effort to assess minority participation in FSA's loan programs, we compared FSA's direct loan
portfolio and census data but were unable to make any meaningful comparisons. General Population
Census data does not identify the portion of the population engaged in farming, and while
Agricultural Census data shows the number of farms and land in farms for minorities, it does not
show the number of individuals engaged in farming. Further, the FSA portfolio may contain
borrowers who are still indebted to FSA but are no longer
REPORT FOR THE SECRETARY ON CIVIL RIGHTS ISSUES - PHASE II                                           2


farming. However, we did compare loan applications from minority and nonminority farmers for the
sites we visited. We found that 22 percent of the applications were from minority farmers and that
60 percent of these were approved, compared to 66 percent of those from nonminorities.

Although we found some disparities in FSA's lending and servicing rules and practices as applied in
particular locations, we did not find that these disparities were the result of systemic discriminatory
practices. We found however that FSA's relations with the minority community could generally be
improved through more technical assistance, more effective outreach efforts, upgrading the status of
its minority advisors, and increasing the diversity of its local workforce.

We are recommending that immediate action be taken to reduce the backlog of complaints and to
correct the deficiencies noted in our report.
                              EXECUTIVE SUMMARY

                        REPORT TO THE SECRETARY
                      ON MINORITY PARTICIPATION IN
                         FARM SERVICE AGENCY'S
                      FARM LOAN PROGRAMS - PHASE II
                     EVALUATION REPORT NO. 50801-3-Hq



                                                We have completed the second phase of our
              PURPOSE                           review of the Farm Service Agency's (FSA)
                                                work with minority farmers and socially
                                                disadvantaged persons. For the first phase we
                                                concentrated on the Department's civil rights
                  complaint system.

                  For this phase, we continued our review of the Department's complaint system
                  and its effectiveness in resolving program complaints. We also reviewed loan
                  activities in 11 States to determine whether (1) participation by minorities in
                  FSA's direct farm loan programs correlates to the total general population and
                  the farm population, (2) FSA provides sufficient technical assistance to help
                  minority farmers apply for and receive program benefits, and (3) FSA
                  processes minority farm loan applications and services minority accounts in
                  the same manner as for nonminorities.

                                              The Department's backlog of unresolved civil
         RESULTS IN BRIEF                     rights program complaints has increased from
                                              530 in January 1997 to 984 as of August 1997.
                                              In FSA alone, the backlog increased from 241
                                              to 474. Although an ad hoc team was formed in
               April 1997, with the goal of eliminating the backlog by June 1997, the Office
               of Civil Rights (OCR) found that the complaints had never been properly
               investigated. As a result, the ad hoc team was disbanded without
               accomplishing its goal. OCR is currently taking steps to hire complaint
               investigators and to have investigations performed through contracts with
               private firms. We still believe additional efforts are needed by ad hoc teams,
               under the direction and control of OCR, to help address the backlog of
               complaints. Further, we think the task of performing preliminary inquiries on
               FSA complaints should be performed by adequately trained OCR




USDA/OIG-A/50801-3-Hq                                                                           i
                 investigators, who can be more objective and independent than FSA
                 employees in performing the task.

                 Regarding minority participation in FSA's farm loan programs, we were
                 unable to make meaningful comparisons between population statistics and
                 minority participation. This occurred because the information collected from
                 the General Population Census and the Agricultural Census was limited in its
                 application to FSA farm loan data. (See the General Comments section of this
                 report for additional information.) For purposes of this review we did
                 compare the applications received and approved from minority and
                 nonminority farmers in our sample. We found that, during FY 1996, 1,416
                 applications for direct loans were received by the loan service centers that
                 serviced the 33 targeted counties in the 11 States in our sample. Of the 1,416
                 applications, 317 (22 percent) were from minority applicants and 1,099 (78
                 percent) were from nonminority applicants. Of the 317 minority applications,
                 190 (60 percent) were approved, compared to 729 nonminority applications
                 (66 percent).

                 It is important to note that we did not find systemic discriminatory practices.
                 However, we did find situations in particular locations involving loan-making,
                 loan-servicing, foreclosure actions, and employee conduct which may have
                 adversely affected individual minorities. These individual cases will be
                 provided to OCR under separate cover for review and action as appropriate.

                 We found that FSA's relations with the minority community could generally
                 be improved through better targeting of its outreach efforts, upgrading the
                 status of its minority advisors, and increasing its workforce diversity at the
                 local level. None of the field offices we visited used other than traditional
                 means to reach out to minority farmers; most either relied completely on grant
                 fund recipients (i.e., 1890 Land Grant colleges) to promote their programs for
                 them, or were satisfied with the status quo and awaited guidance from
                 headquarters. County officials told us that outreach has been a pointless
                 exercise in recent years because funding for loans has been unavailable.
                 However, we found that during FY's 1992 through 1996, $557 million in
                 available loan funds nationwide were allowed to expire and were never
                 obligated. (Most of these funds, about $542 million, were available in FY's
                 1992 and 1993.)


                 We also noted a need for greater technical assistance during the loan-making
                 and loan-servicing processes. One of the greatest frustrations to applicants
                 is the extent of the information needed to complete the multiple documents for



USDA/OIG-A/50801-3-Hq                                                                         ii
                    financial assistance. Total Statewide data for the 11 States reviewed shows
                    that applications from minority and nonminority farmers took about the same
                    number of days on average to process from receipt to loan closing (87 days
                    for minorities and 85 days for nonminorities). However, in certain locations,
                    we noted it took minorities longer than nonminorities to complete an
                    approved application (from receipt to complete status). At certain locations,
                    we also noted disparities in the number of multiple servicing decisions
                    provided to nonminority farmers compared to the number provided to
                    minority farmers. In these locations, the percent of accounts that were
                    delinquent was higher for minorities then for nonminorities. More effort is
                    needed by FSA to review any disparities noted in its loan-making and loan-
                    servicing data. Such review is needed to determine the reasons for such
                    disparities and to take any corrective actions needed. We believe greater
                    technical assistance by FSA during the loan-making and loan-servicing
                    processes could help applicants with the processing requirements.

                    Concerning FSA's fund allocating decisions, the agency needs a recordkeeping
                    system to account for its unspent direct operating loan funds which are
                    redistributed to States from a national reserve account. FSA's current practice
                    of "pooling" and redistributing its unspent direct operating loan funds does
                    not always follow the normal "first-come, first-served" procedure. We also
                    believe that socially disadvantaged applicant (SDA) direct operating loan
                    funds should be "pooled" along with non-SDA funds that are sent to the
                    national reserve account for redistribution. Pooling of SDA funds, however,
                    will require a legislative change.

                                              We are recommending that the Secretary seek
      KEY RECOMMENDATIONS                     changes to legislation that will allow FSA to
                                              "pool" SDA direct operating loan funds and
                                              reallocate the funds to States instead of
                                              allowing them to expire.        We are also
               recommending that the Secretary (1) convene ad hoc teams to help address
               the backlog of civil rights complaints in the Department and (2) revoke the
               delegation of authority that granted FSA responsibility to conduct preliminary
               inquiries and return this authority to OCR.

                    Concerning FSA actions, we are recommending the Secretary direct FSA to:
                    (1) provide greater technical assistance to farmers for the entire application
                    process and throughout loan-servicing, (2) establish a recordkeeping system
                    to account for loan funds redistributed to States from its national reserve
                    account, and (3) establish effective methods of outreach and develop uniform
                    standards and benchmarks by which to evaluate outreach performance.



USDA/OIG-A/50801-3-Hq                                                                            iii
TABLE OF CONTENTS




EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i




INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . 1

        BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . 1

        OBJECTIVES . . . . . . . . . . . . . . . . . . . . . . . . 1

        SCOPE       . . . . . . . . . . . . . . . . . . . . . . . . . . 2

        METHODOLOGY            . . . . . . . . . . . . . . . . . . . . . . . 5




FINDINGS AND RECOMMENDATIONS                                  . . . . . . . . . . . . . . 8

I.      BACKLOG OF CIVIL RIGHTS COMPLAINTS HAS
        GROWN: INDEPENDENT REVIEWERS ARE NEEDED
        TO DETERMINE IF DISCRIMINATION EXISTS . . . . . . . . . . 8

        ADDITIONAL ACTIONS NEEDED TO REDUCE THE
        BACKLOG OF CIVIL RIGHTS COMPLAINTS . . . . . . . . . . . . 9

        Recommendation No. 1a                   . . . . . . . . . . . . . . . . .                            11

        Recommendation No. 1b                   . . . . . . . . . . . . . . . . .                            11




USDA/OIG-A/50801-3-Hq                                                                                         iv
TABLE OF CONTENTS


      FSA LACKS INDEPENDENCE AND OBJECTIVITY IN
      THE CIVIL RIGHTS INVESTIGATION PROCESS . . . . . . . . .      12

      Recommendation No. 2 . . . . . . . . . . . . . . . . . .      15

II.   FSA'S PROGRAM OF MINORITY COMMUNITY RELATIONS
      NEEDS IMPROVEMENT . . . . . . . . . . . . . . . . . . .       16

      OUTREACH EFFORTS NEED TO BE BETTER TARGETED     . . . . . .   16

      Recommendation No. 3 . . . . . . . . . . . . . . . . . .      20

      MINORITY ADVISORS WERE UNCLEAR OF THEIR ROLES     . . . . .   21

      Recommendation No. 4a   . . . . . . . . . . . . . . . . .     22

      Recommendation No. 4b   . . . . . . . . . . . . . . . . .     23

      NONDIVERSITY OF OFFICE STAFFS CONCERNS MINORITY APPLICANTS23

      Recommendation No. 5 . . . . . . . . . . . . . . . . . .      24

III. GREATER TECHNICAL ASSISTANCE NEEDED IN
     LOAN-MAKING AND LOAN-SERVICING . . . . . . . . . . . . .       25

      APPLICATION REQUIREMENTS FRUSTRATE BORROWERS . . . . . .      25

      Recommendation No. 6a   . . . . . . . . . . . . . . . . .     29

      Recommendation No. 6b   . . . . . . . . . . . . . . . . .     29

      Recommendation No. 6c   . . . . . . . . . . . . . . . . .     29




USDA/OIG-A/50801-3-Hq                                                v
TABLE OF CONTENTS


     GREATER TECHNICAL ASSISTANCE NEEDED WHEN
     SERVICING DELINQUENT ACCOUNTS . . . . . . . . . . . . .      29

     Recommendation No. 7a    . . . . . . . . . . . . . . . . .   32

     Recommendation No. 7b    . . . . . . . . . . . . . . . . .   33

     Recommendation No. 7c    . . . . . . . . . . . . . . . . .   33

     FSA'S METHOD OF REDISTRIBUTING FUNDS
     NEEDS IMPROVEMENT . . . . . . . . . . . . . . . . . . .      33

     Recommendation No. 8a    . . . . . . . . . . . . . . . . .   37

     Recommendation No. 8b    . . . . . . . . . . . . . . . . .   38

     Recommendation No. 8c    . . . . . . . . . . . . . . . . .   38




GENERAL COMMENTS        . . . . . . . . . . . . . . . . . . . .   39




ORGANIZATION AND FUNCTIONS OF FSA           . . . . . . . . . .   43




USDA/OIG-A/50801-3-Hq                                             vi
TABLE OF CONTENTS



EXHIBITS

     A - SECRETARY'S REQUEST FOR REVIEW . . . . . . . . . . .    48

     B - SITES VISITED   . . . . . . . . . . . . . . . . . . .   50

     C - RACIAL MAKEUP OF COUNTY OFFICE EMPLOYEES AND
         AG CREDIT STAFF . . . . . . . . . . . . . . . . . .     54

     D - FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS
      . . . . . . . . . . . . . . . . . . . . . . . . . . . .    56

     E - 1951-S SERVICING ACTIONS IN THE COUNTIES REVIEWED   .   72

     F - DEMOGRAPHICS OF SITES VISITED   . . . . . . . . . . .   78

     G - FSA'S LOAN PORTFOLIO OF SITES VISITED   . . . . . . .   89



OIG'S CORE CIVIL RIGHTS AUDIT TEAM




USDA/OIG-A/50801-3-Hq                                            vii
                             INTRODUCTION

                                              On December 9, 1996, the Secretary of
          BACKGROUND                          Agriculture asked the Inspector General to
                                              review the Farm Service Agency (FSA) delivery
                                              of its farm loan programs to socially
                                              disadvantaged persons and minority farmers as
              well as its civil rights complaints system (see exhibit A). In response to the
              Secretary's request, the Office of Inspector General (OIG) decided to conduct
              the review in two phases. Phase I was the evaluation of the Department's civil
              rights complaint system. We issued the Phase I report on February 27, 1997.
              We reported that the program discrimination complaint process at FSA lacked
              integrity, direction, and accountability and recommended that the Secretary
              convene an ad hoc team and assign to it the control of the complaint system
              within the Department. This report covers Phase II.

                 The Department of Agriculture's (USDA) civil rights functions recently have
                 undergone major restructuring. Secretary's Memorandum 1010-4, dated May
                 16, 1997, gave the Assistant Secretary for Administration the full authority for
                 the performance and oversight of all civil rights functions within the
                 Department. The Assistant Secretary for Administration has the authority to
                 delegate civil rights functions to agency heads, as appropriate, and to rate the
                 agency heads on their performance of civil rights functions.

                 The Director, Office of Civil Rights (OCR), under the Assistant Secretary for
                 Administration, is responsible for the performance of all civil rights functions
                 assigned to the Assistant Secretary. The Director has full responsibility for
                 the investigation, adjudication, and resolution of complaints of discrimination.

                                            We continued our review of the Department's
           OBJECTIVES                       complaint system and its effectiveness in
                                            resolving program complaints.        We also
                                            reviewed loan activities in 11 States to
                                            determine whether (1) participation by
               minorities in FSA's farm loan programs correlates to the total general
               population and farm population, (2) FSA provides sufficient technical
               assistance to help minority farmers apply for and receive program benefits,
               and (3) FSA processes minority farm loan applications and services minority
               accounts in the same manner as for nonminorities.



USDA/OIG-A/50801-3-Hq                                                                          1
                                             We judgmentally selected 11 States and 33
             SCOPE                           counties (3 counties per State). The 11 States
                                             were selected for review based on the high
                                             concentration of minority-owned and operated
                                             farms, as reported in the Agriculture Census
              Data of 1992, the most recent data available. We also selected the States with
              large numbers of discrimination complaints. Of the 241 discrimination
              complaints identified in our Phase I report (February 1997), 128 (78 for farm
              loan programs) were filed in the 11 selected States. The counties were
              selected based on one or more of the following criteria:

               ! The number of minority borrowers for the county as reported by the FSA
                 was low compared to the number of minority farms reported by the
                 Agriculture Census Data of 1992;

               ! The delinquency rate for minority borrowers was disproportionately high
                 compared to the delinquency rate for nonminority borrowers;

               ! Direct loan application activity for minority loan applicants was high;

               ! Members of the county office committees were largely nonminorities; and

               ! Employees at the county offices were largely nonminorities.

               We refer to the selected counties as "targeted" counties. FSA loan-making
               and servicing activities were performed at the loan service centers, which may
               not be located in the same county as the targeted county. FSA loan service
               centers usually service more than one county. For this review, the field work
               was performed at the loan service center, and we concentrated our coverage
               on the targeted county. However, to obtain a representative sample of loan
               activity by the service center, we expanded our review coverage to include
               counties that were serviced by the same loan service center as the targeted
               county. Additionally, we obtained FSA farm loan data for all counties in the
               11 States visited and used this data in our review of loan-applications and
               loan-servicing decisions.

               The review was performed at the FSA National office in Washington, D.C.,
               the 11 State offices, and 33 FSA loan service centers. (See exhibit B for a list
               of the States, loan service counties, and targeted counties reviewed during this
               evaluation.) The field work was performed between January 1997 and
               August 1997.




USDA/OIG-A/50801-3-Hq                                                                        2
                          In FY 1996, Congress appropriated about $653 million to FSA for direct farm
                          ownership and operating loans. The 11 selected States received allocations
                          of about $225 million for direct farm ownership and operating loans and
                          obligated about $208 million as shown in the table below.

                                                                   FY 1996
                          State                          Allocations (thousands)        Obligations (thousands)
                          Alabama                        $ 7,137                        $ 4,689
                          Arkansas                        17,103                         12,945
                          California                      22,589                         25,685
                          Georgia                         11,320                         12,249
                          Louisiana                       17,961                         15,444

                          Mississippi                     22,558                         20,586

                          North Carolina                  11,340                         12,901

                          Oklahoma                        22,170                         22,836

                          South Carolina                   8,885                          6,954

                          Texas                           77,894                         68,093

                          Virginia                         6,116                          5,556

                          Totals                         $225,073                       $207,938


                          Where obligations exceeded allocations, FSA State offices obtained additional
                          allocations from reserve funds from the National office or pooled funds from
                          other States.

                          Review coverage emphasized direct loan funds rather than guaranteed loans
                          because FSA officials have greater authority over direct loans; they oversee
                          the loan-making process, have approval authority, and provide loan-servicing.
                          The review included 346 loan applicants and 202 loan-servicing actions.

                          For each targeted county, we judgmentally selected for review up to five
                          minority and five nonminority borrowers who either received a loan in 1996,
                          received a FmHA1 1951-S servicing decision in 1996, received a debt
                          settlement, filed a civil rights complaint, were delinquent, or were awaiting a


    1
     Prior to departmental reorganization in 1994, the Farmers Home Administration (FmHA) administered the farm loan
programs that are currently handled by FSA.



USDA/OIG-A/50801-3-Hq                                                                                             3
              foreclosure action. Also, we selected for review up to 3 minority and 3
              nonminority FY 1996 loan applications (up to 18) which were approved,
              rejected, or withdrawn. We selected the sample based on the race of the
              borrower or applicant. We focused on loan activity for FY 1996 but reviewed
              activity in earlier and later years if 1996 files did not provide enough data to
              analyze.

              For our review, we identified borrowers and loan-servicing decisions from
              FSA's 540 reports (FmHA Report Code 540, Status Report of Farmer
              Program Accounts) and loan applicants from FSA's APPL data base or FSA's
              loan application management cards.

              We obtained the General Population Census of 1990 and the Agricultural
              Census of 1992 in an effort to assess participation by minorities in FSA direct
              loan programs in comparison to nonminority participation. However, we
              found this data had limited utility for comparison purposes. The General
              Population Census shows the racial makeup of the entire population but not
              of the farming population and the Agricultural Census data shows the number
              of farms (earning at least $1,000 in sales) and land in the farms but not the
              number of farmers who operate those farms. In contrast, FSA's direct loan
              portfolio and application data base show the number of borrowers. Therefore,
              we were unable to draw any valid conclusions when comparing the 1990 and
              1992 census data to minority participation in FSA's direct loan programs. We
              also reviewed FSA's loan portfolio as of February 1997, and direct loan
              applications for fiscal year 1996.

              The Agricultural Census of 1992 was categorized by farms and race and did
              not include gender. For consistency, our presentation of the Agricultural and
              General Population Census data as well as the FSA loan portfolio and
              application data is by race. The data collected is discussed in the General
              Comments section of this report. We did not assess the reliability of the 1990
              and 1992 census data nor the FSA loan reporting data collected.

              This review was conducted in accordance with the Quality Standards for
              Inspections issued by the President's Council on Integrity and Efficiency.
              Accordingly, the review included such tests of program and accounting
              records as were considered necessary to meet the review objectives.

                                            To accomplish our objectives and support our
         METHODOLOGY                        findings, we performed the following steps and
                                            procedures:




USDA/OIG-A/50801-3-Hq                                                                       4
               ! At the National office, through FSA's Primary Loan Accounting System
                 (PLAS), we obtained data on FSA's direct loan programs (farm
                 ownership, operating, and emergency loans) as of February 1997, which
                 we sorted by racial categories of African-American, Native American,
                 Asian-American, and Hispanic. The data on the direct loan program
                 included the number of borrowers, number of loans, the outstanding
                 principal and interest, number of delinquent borrowers, number of
                 delinquent loans, and the delinquent outstanding principal and interest.
                 The data was used to determine participation and delinquency rates by
                 race. We obtained FY 1996 direct loan application data from FSA's
                 APPL data base to determine the average processing times for processing
                 loans. We obtained financial data for FY's 1992 through 1996 for direct
                 loan programs on appropriations, allocations, obligations, and funds
                 expired.

               ! At the National office, we interviewed FSA officials to determine the
                 method of allocating direct loan program funds to the States, and the
                 controls in place to ensure that direct loan reserve funds and direct loan
                 pooled funds were used or re-allocated to the States in accordance with
                 laws and regulations. We also interviewed National office officials to
                 obtain regulations, notices, and directives and guidance to the States for
                 direct loan-making and loan-servicing.

               ! At OCR, we interviewed officials to determine the new procedures for
                 processing and resolving discrimination complaints. We obtained data on
                 the number of outstanding discrimination complaints and their status.

               ! At the National office of the Natural Resources Conservation Service, we
                 obtained the Agriculture Census Data of 1992 and General Population
                 Census Data of 1990.

               ! At the Office of the General Counsel (OGC), we interviewed regional
                 counsels to determine OGC's role or involvement in the civil rights
                 complaint process.

               ! At the State offices, we reviewed the controls and oversight on loan-
                 making, loan-servicing, outreach, allocation of direct loan program funds
                 to loan service centers, and the order in which loan applications were
                 funded. We interviewed the State Civil Rights Coordinator (SCRC) to
                 determine the procedures for processing discrimination complaints, the
                 process for performing preliminary inquiries of discrimination complaints,
                 the methods of outreach used to increase minority participation in the



USDA/OIG-A/50801-3-Hq                                                                    5
                                 direct loan programs, and the county office committee election process.
                                 We also reviewed any supplemental regulations, notices, directives or
                                 guidance issued by the State offices to the county offices which pertained
                                 to loan-making, loan-servicing, debt settlement, and outreach.

                            ! At the State offices, we reviewed loan-servicing actions approved by the
                              State office. We also reviewed debt settlement decisions of adjustment,
                              compromise, cancellation, and charge-off approved by the 11 State
                              offices. We reviewed the decisions to determine if decisions that required
                              future collection action for minority borrowers were disproportionate to
                              nonminority borrowers.

                            ! At the State offices, loan service centers, and county offices we
                              interviewed FSA (Ag Credit officials)2 and county office employees to
                              determine if they witnessed any unfair treatment of minority farmers or
                              employees. We also determined the racial makeup of the FSA staff at the
                              locations we reviewed.

                            ! At the loan service centers, we reviewed the FSA's 540 report. The 540
                              report contains the name of each borrower, the date of loan, the type of
                              the loan, the number of loans, outstanding principal and interest, date and
                              type of servicing actions, and the status of the loan(s). We reviewed the
                              540 reports to determine the number of borrowers who received loan-
                              servicing. We obtained information from the APPL data base or from
                              direct loan management cards (two of the 33 selected loan service centers
                              did not enter information into the APPL but used management cards to
                              track applications) to determine the number of applications for direct
                              loans in FY 1996. The APPL data base and the management cards
                              contained data on applications approved, rejected, or withdrawn by race.


                            ! At the loan service centers, we reviewed each sampled borrower's case file
                              and analyzed the data to determine whether minorities, in comparison to
                              nonminorities, received smaller loan amounts than requested, had
                              numerous "subject to" provisions, received higher interest rates or shorter
                              repayment periods, and endured longer delays in the processing of their
                              loan applications. For those borrowers who received loan-servicing, we
                              analyzed the data to determine whether minorities, in comparison to


     2
      FSA has two components: county office staffs, which administer programs that were formerly carried out by the
Agricultural Stabilization and Conservation Service, and agricultural credit staffs, which administer the farm loan programs
that were formerly carried out by the Farmers Home Administration.



USDA/OIG-A/50801-3-Hq                                                                                                     6
                  nonminorities, had their applications for loan-servicing rejected; were not
                  offered mediation, loan preservation servicing, or debt settlement; or
                  experienced long delays in the processing of their servicing requests.

               ! At the loan service centers and county offices, we interviewed the county
                 office committee's minority advisors to determine their role on the county
                 committee and their efforts to increase participation by minorities in FSA
                 direct loan programs. We interviewed direct loan borrowers and
                 individuals who do not participate in the direct loan programs to solicit
                 comments about the county office outreach efforts and the treatment they
                 received when and if they requested technical assistance from an FSA or
                 county office employee.

               ! We consulted the following report while conducting our review and
                 preparing this report:

                  Civil Rights at the United States Department of Agriculture, dated
                  February 1997, by USDA's Civil Rights Action Team.




USDA/OIG-A/50801-3-Hq                                                                      7
               FINDINGS AND RECOMMENDATIONS


 I.   BACKLOG OF CIVIL RIGHTS COMPLAINTS HAS GROWN: INDEPENDENT
      REVIEWERS ARE NEEDED TO DETERMINE IF DISCRIMINATION EXISTS



               For the first phase of our review, performed in January and February 1997, we
               determined the status of complaints brought against the FSA by minority
               farmers who believed they were discriminated against when applying for farm
               loans or loan servicing. The Secretary requested the review to address the
               concerns of minority farmers who charged that FSA failed to respond to their
               complaints of discrimination. From our review, we determined that FSA had
               an outstanding backlog of 241 unresolved civil rights complaints and a civil
               rights complaint system that was poorly prepared to handle the backlog. We
               were informed by OCR that, as of August 1997, the backlog of FSA
               complaints has increased to 474. Further, the ad hoc team convened by the
               Secretary was unable to dispose of the backlog because it was determined that
               the complaints had never been properly investigated and more information
               was needed to determine if discrimination had or had not occurred.

               Currently, OCR has assumed control of the backlog and FSA conducts
               preliminary inquiries at the direction of OCR. OCR determines if an
               investigation is necessary based on the results of the preliminary inquiry
               conducted by FSA. In our opinion, the FSA employees who have been
               assigned the task of conducting preliminary inquiries during the complaint
               investigations have not been properly trained to carry out these sensitive
               duties. Moreover, the employees are not independent or objective in
               appearance. As State civil rights coordinators, they are under the direction of
               FSA State executive directors as well as FSA National office officials, and are
               generally too closely allied to the agency whose public image could suffer as
               a result of their investigations.

               We are recommending that OCR conduct the preliminary inquiries since they
               are in a better position than FSA to investigate civil rights complaints. We are
               also emphasizing that ad hoc teams need to be held to the task of processing
               the outstanding complaint cases until the backlog is significantly reduced.




USDA/OIG-A/50801-3-Hq                                                                        8
                                            The backlog of FSA program discrimination
 ADDITIONAL ACTIONS NEEDED TO               complaints has increased since our February
 REDUCE THE BACKLOG OF CIVIL                1997   report. In February, we identified 241
      RIGHTS COMPLAINTS                     open discrimination complaints for FSA. As of
                                            August 1997, there were 474 reported FSA
                                            discrimination complaints, an increase of 97
                                            percent. The newly formed OCR has taken
         FINDING NO. 1
                                            steps to reconcile the complaints and determine
                                            their status. However, the backlog continues to
              grow, and only 32 of the 241 cases (13 percent) have reportedly been closed.

                   In our February report, we recommended that an ad hoc team of agency
                   program specialists be assembled to take control of the backlog of complaints
                   and be held to the task for at least 60 days. The team charged with this task
                   was assembled in April 1997, with the goal of eliminating the backlog by June
                   1997. The team found that the files were in disarray, as we had reported, and
                   were missing important information. Also, a high level OCR official pointed
                   out that the complaints had never been properly investigated. The official
                   concluded that without a proper investigation in each case, his office could
                   not determine conclusively whether discrimination did or did not exist. Thus,
                   the June 1997 deadline was deemed unreasonable, and the ad hoc team was
                   disbanded without accomplishing its goal.

                   After the team was disbanded, OCR assumed control of the backlog. OCR
                   compiled a list of outstanding complaints and reconciled the list with records
                   maintained by the agencies. OCR is drafting regulations and procedures to
                   process complaints and has advertised positions for program complaint
                   investigators. In the meantime, OCR has entered into contracts with two
                   private firms to conduct investigations of high-priority program complaints.
                   OCR has identified over 100 complaints that fall into this category.

                   We had also recommended that a letter be signed by the Secretary and sent to
                   all complainants whose cases were still open, assuring the complainants that
                   action would be taken. The letter was to include an assigned case file number
                   and the name and phone number of a responsible person who knew the
                   general status of the case. This has not been done. We have since received
                   three hotline complaints from persons with outstanding civil rights complaints
                   who were unaware of the status of their cases.

                   We also recommended that the Department determine the number of
                   outstanding program complaints and develop a data base which details all
                   necessary information about the complaint. As of August 1997, OCR was in



USDA/OIG-A/50801-3-Hq                                                                          9
               the process of creating a data base to record all complaints in the Department
               and track their status. The data base will have the capability to include all the
               data we recommended be tracked.

              Our February report identified 241 open discrimination complaints for FSA.
              OCR reported that 32 of the 241 complaints have been closed. The
              Department found discrimination did not occur in 15 of the cases. Nine
              complaints were withdrawn by the complainants. The Department paid
              benefits previously denied in five cases. Three complainants received
              compensatory damages as a result of discrimination findings.

              OCR also informed us that 37 of the 289 complaints noted in our February
              report for other Departmental agencies have been closed. Of the 37
              complaints, OCR reports that discrimination was found in one case, a
              conciliation agreement was reached in another case, and no discrimination was
              found in 13 cases. For the remaining 22 cases, OCR closed 9 with a claim
              either not granted or nor pursued by the claimants, and closed the other 13 for
              various reasons such as no jurisdiction, etc.

              Our February report also recommended that the ad hoc team process
              complaints still at the agency level. This would primarily involve the team in
              performing preliminary inquiries and preparing cases for the final analysis to
              determine if the complainants had been discriminated against. We reported
              that 64 of the 241 complaints needed a preliminary inquiry. Only 17 of these
              64 preliminary inquiries have been performed (27 percent), and only 7 of the
              64 complaints have been closed (11 percent) as of August 1997.

              While OCR has been preparing its data base, 233 cases have been added to
              FSA's backlog, an increase of 97 percent. An OCR official stated that most
              of the increase occurred because complaints that had previously been held at
              the State and county level were being forwarded to OCR. We found increases
              in the number of complaints in other agencies as well. For USDA as a whole,
              the number of discrimination complaints has increased by nearly 86 percent
              from January 1997 to August 1997.




USDA/OIG-A/50801-3-Hq                                                                       10
                                                                                           Number of                             Number of
                                                                                           Complaints,                          Complaints,                              Percent
                                                                                          January 1997                          August 1997                           Increase (+),
                                          Agency                                           (Per OIG)*                            (Per OCR)                           or decrease (-)
                 Farm Service Agency                                                                241                                  474                                   + 97
                 Rural Development                                                                  253                                  303                                   + 20
                 Food and Consumer Services                                                           14                                  95                                  + 579
                 Other Agencies                                                                       22                                 112                                  + 409
                 Total                                                                              530                                  984                                   + 86

               * We reported a total number of 530 complaints as of January 1997 in our Phase I report. As part of the Phase I report, we developed our own data base of FSA complaints and determined that
               there were 241 open FSA complaints as of January 1997. We did not attempt to verify the other numbers presented in the table above.




              While the current structure of OCR may be capable of ensuring that a backlog
              does not appear in the future, we believe additional efforts are needed
              immediately to significantly reduce the backlog of complaints that currently
              exists at USDA.


     RECOMMENDATION NO. 1a



              Immediately send a letter signed by the Secretary or his designee to all
              complainants whose cases are still open, assuring the complainants that action
              will be taken. The letter should include an assigned case file number and the
              name and phone number of a responsible person who knows the general status
              of the case.


     RECOMMENDATION NO. 1b



              Convene ad hoc teams (composed of adequately trained and experienced
              Department personnel directed by OCR) to process and significantly reduce
              the backlog of outstanding discrimination complaints. The preliminary
              inquiries should be performed by the teams in accordance with established
              procedure and be sufficiently detailed to draw conclusions and make
              recommendations to OCR for action.




USDA/OIG-A/50801-3-Hq                                                                                                                                                                              11
                                              FSA State civil rights coordinators (SCRC) and
   FSA LACKS INDEPENDENCE AND                 those delegated to investigate civil rights
     OBJECTIVITY IN THE CIVIL                 complaints generally were too closely allied to
  RIGHTS INVESTIGATION PROCESS                the agency and were not properly prepared to
                                              perform those investigations. Also, FSA had
                                              not provided SCRC's with the appropriate
                                              amount of training.
          FINDING NO. 2
                                               One of the primary responsibilities of the SCRC
               is to investigate complaints of discrimination within FSA. Complaints that
               reach the Department are forwarded to FSA's Civil Rights and Small Business
               Utilization Staff, which requests the SCRC in the appropriate State to conduct
               a preliminary inquiry. The SCRC interviews the complainant and gathers the
               facts surrounding the allegation. The report of preliminary inquiry includes
               a statement of the allegation, the facts relating to the complainant's situation,
               the facts relating to those who are similarly situated to the complainant, and
               an identification by relevant protected group of the complainant, of those
               whose decisions led to the complaint, and of those who are similarly situated.
               Although not required to make a determination of discrimination, SCRC's are
               nevertheless obligated to maintain their objectivity and independence when
               gathering the facts and reporting them to Civil Rights and Small Business
               Utilization Staff.

               Lack of Objectivity and Independence

               Because SCRC's are FSA employees who have been given the added task of
               investigating civil rights complaints, their position lacks objectivity and
               independence in appearance. SCRC's are under the direction of the State
               executive director and, to a less definable extent, of FSA's National office
               officials. In one State, State office officials had to be briefed before a
               preliminary inquiry report was submitted to the National office. Locations at
               which the designated SCRC's were employed varied. In some cases, State
               office employees were designated SCRC's; in other cases, county office
               employees were; and in still others, district directors were.

               The SCRC (district director) in one State told us he did not work on civil
               rights cases involving complaints within his own jurisdiction. If such a
               complaint should arise, he said, the State would assign another district
               director to perform the preliminary inquiry. We concluded that despite such
               arrangements, the SCRC is too closely allied professionally with the agency
               and agency personnel whose public image would suffer if any investigation
               were to prove discrimination had occurred. Under such conditions, FSA's



USDA/OIG-A/50801-3-Hq                                                                       12
                            clients would be justified in raising doubts about the appearance of
                            nonobjectivity in the investigations. We believe that the preliminary inquiry
                            should be conducted by someone who is completely independent of FSA.

                            In addition, SCRC's do not perform civil rights functions on a full-time basis.
                            We found that non-SCRC duties for several SCRC's accounted for about 95
                            percent of their workload. In one State, the SCRC estimated that he spends
                            only about 5 percent of his time on civil rights issues. He further estimated
                            that before the "listening sessions"3 began, he spent less than 1 percent of his
                            time on civil rights issues. The SCRC in another State said that a full-time
                            person is needed to assume the responsibilities associated with the SCRC
                            position. He stated that performing the role of SCRC and having other job
                            responsibilities make the job nearly impossible and that he often has to work
                            on his own time to be efficient. We believe that this lack of focus could lead
                            to inadequate preliminary inquiries and delays in the civil rights complaint
                            process.

                            OCR has begun to put together a staff which will include a cadre of
                            investigators. Investigators within this office should have the independence
                            necessary to ensure that their work is objective. In addition, they should be
                            assigned to their positions full-time, thus allowing them the opportunity to
                            become knowledgeable in the programs and regulations of the agencies
                            against which complaints may be brought.

                            Inadequate Training

                            Because the preliminary inquiry is the basis for civil rights findings and
                            recommendations, it is very important that it be accurate and complete. The
                            "how-to's" of conducting a preliminary inquiry are equally important. The
                            FSA National office gave a 1-week training session in September 1996 to all
                            personnel appointed to the newly established position of SCRC. Only 4 hours
                            of the session were allotted to the subject of conducting a preliminary inquiry.
                            Many SCRC's stated they did not feel this was enough. For 7 of the 11 States
                            we visited, the SCRC's stated they believed they had not received the training
                            they needed to adequately conduct a preliminary inquiry. In 2 of the 11
                            States, some of the officials who performed the preliminary inquiry had been
                            delegated this responsibility and had not received any formal training.




   3
     The Department's Civil Rights Action Team held 12 civil rights "listening sessions" during which minority farmers voiced
their concerns about the treatment they received from FSA.



USDA/OIG-A/50801-3-Hq                                                                                                    13
               The SCRC in one State stated he felt the training he received was sufficient,
               but we found he had not performed a preliminary inquiry himself. He had
               delegated this responsibility to at least five other FSA officials, not all of
               whom had attended the National office's civil rights training. According to the
               SCRC, these officials had the right attitude, and the State executive director
               recommended them.

               We reviewed the preliminary inquiries prepared by officials in this State. We
               found one preliminary inquiry that had been returned because it was poorly
               prepared. It had been completed in January 1997 by the administrative officer
               and the Ag Credit specialist and was returned in March 1997. The staff in
               Civil Rights and Small Business Utilization Staff wrote: "We have received
               your correspondence concerning the above-named complainant. Please be
               advised, this is not an adequate Preliminary Inquiry (PI) report. We are
               attaching a copy of the PI request dated March 8, 1996, which details the
               minimum information needed." The National office stated that it had no
               problem with someone other than the SCRC doing the preliminary inquiry, but
               that the "SCRC has received training in conducting and preparing PI's and
               should be utilized for that purpose whenever possible." The submission of an
               inadequate preliminary inquiry had delayed the processing of the complaint.

               In conclusion, we believe that SCRC's should continue to perform civil rights
               functions, but that they should function in the capacity of liaison with the
               OCR. SCRC's should help OCR mediate and conciliate civil rights
               complaints, but they should no longer conduct the preliminary inquiry for
               program complaints. The SCRC should continue to prepare, develop, and
               implement equal employment opportunity programs, including special
               emphasis and workforce diversity. In this capacity, the SCRC should serve
               as a focal point for equal employment opportunity issues. In addition, the
               SCRC should take control of outreach development, implementation, and
               monitoring for the State. We believe the actual conducting of the preliminary
               inquiry should be the responsibility of the OCR.




USDA/OIG-A/50801-3-Hq                                                                     14
     RECOMMENDATION NO. 2



               Revoke the delegation of authority that granted FSA responsibility to conduct
               preliminary inquiries of program discrimination complaints, return this
               authority to OCR on a permanent basis, and ensure that the OCR staff is
               adequately trained to perform the preliminary inquiries.




USDA/OIG-A/50801-3-Hq                                                                   15
 II. FSA'S PROGRAM OF MINORITY COMMUNITY RELATIONS NEEDS
     IMPROVEMENT


                   FSA could improve its program of minority community relations by engaging
                   in more effective outreach efforts, upgrading the status of its minority
                   advisors, and by increasing the diversity of its local workforce.
                   Ag Credit officials believe they are doing all they need to do in terms of
                   outreach, or at least all they are required to do in addition to what is already
                   being done by grant recipients who provide technical assistance to minority
                   borrowers. However, we found that outreach efforts were not effectively
                   targeted nor consistently implemented.

                   Minority advisors to the county office committee, who are supposed to keep
                   the committee apprised of minority concerns, are not as effective as they
                   could be in the minority farming communities because they are either not well
                   known or their roles are not well understood. We believe the status of
                   minority advisors should be upgraded. Further, improvement in workforce
                   diversity at the local level would have a beneficial impact on FSA relations
                   with the minority farming community.

                   Title 7 USC Sec. 2279 (a)(1) states that the Secretary of Agriculture shall
                   provide outreach and technical assistance to encourage socially disadvantaged
                   farmers to own and operate farms and to participate in agricultural programs.
                   The minority advisor to the county office committee is responsible for
                   increasing participation in FSA activities, including elections by eligible voters,
                   to ensure that minority group problems and viewpoints are considered in FSA
                   actions.

                                       Outreach efforts in the 11 States reviewed were
  OUTREACH EFFORTS NEED TO BE          not effectively targeted nor consistently
       BETTER TARGETED                 implemented. FSA officials relied on traditional
                                       outreach methods and had not considered
                                       evaluating these methods as a means of
                                       measuring their effectiveness in reaching
                                       minority farmers.        Some FSA officials
         FINDING NO. 3
                                       questioned the merits of further outreach
                                       efforts, citing a lack of available loan funds.
              However, we found that during FY's 1992 through 1996, $557 million in




USDA/OIG-A/50801-3-Hq                                                                             16
               direct loan funds had been available but had not been used. (The bulk of these
               funds, $542 million, had been available in FY's 1992 and 1993.)

               We found that in the States visited, FSA offices did not sufficiently target
               minority farmers in their outreach efforts and only employed what had become
               the traditional methods of meeting outreach requirements. These methods
               included publishing articles in newsletters and local newspapers; making
               announcements through local radio and television stations; attending public
               meetings, fairs, or other farm-related events; and working with other
               agricultural agencies to organize public meetings. We found that local Ag
               Credit officials rarely made personal calls on farmers to introduce themselves
               and discuss FSA farm loan programs.

               A district director in one State emphasized that outreach efforts must be
               ongoing and reach as deeply as possible into the community. His experience
               with outreach activities had led him to conclude that targeted efforts such as
               one-on-one meetings with farmers would have the most impact. Echoing this
               sentiment, a minority farmer in the same State said that "USDA folks must
               visit the farmers and gain their trust."

               Further, we noted that in one county which has a relatively high number of
               non-English speaking farmers, no media ads or informational materials were
               prepared in Spanish, the language spoken by over half the people in the
               county.

               Ten of the eleven States we reviewed, which had grant agreements with local
               colleges to provide technical assistance to minorities, as provided for under
               section 2501 of the FACT Act of 1990, had come to rely to some extent on
               the "2501 Program" to provide outreach. Two States formulated no outreach
               initiatives of their own beyond the grantees' efforts. Eight of the States
               continued to use the traditional methods regardless of their success. The
               remaining State had a grant agreement with a community-based organization
               that provided only technical assistance.

               FSA National officials and State Ag Credit officials expressed concern about
               the practicality of continuing to perform outreach efforts when loan funds
               were scarce or not available. We could not substantiate the claim that funds
               were scarce or unavailable. We found that about $539 million in direct non
               socially disadvantaged applicant (SDA) operating loan funds expired during
               FY's 1992 through 1996 ($529 million was unspent in FY's 1992 and 1993)
               which should have been available for loans and redistributed to other States
               as needed. In addition, during this same period, another $18 million in direct



USDA/OIG-A/50801-3-Hq                                                                    17
               SDA operating loan funds was available for loans in certain States. However,
               current legislation prevents SDA operating loan funds from being pooled to
               other States. (See Finding No. 8.)

               We also noted that the FSA National office has not instituted a performance
               appraisal system to uniformly measure the adequacy of outreach efforts.

               According to their position descriptions, district directors are responsible for
               ensuring that Ag Credit officials conduct outreach efforts, and for evaluating
               their performance. We found that the performance evaluation elements and
               standards were being applied inconsistently among the States and bore no
               precise relation to outreach efforts. The standards varied within States, were
               usually vague, and generally did not include any requirements to quantify
               outreach efforts or determine if they were sufficiently targeted. We found
               situations where district directors rated Ag Credit managers "Fully
               Successful" or "Exceeds Fully Successful," even though a review of FSA files
               and interviews with minority farmers revealed that no outreach activities had
               been conducted.

               One important aspect of outreach involves raising minority farmers' awareness
               of and interest in the county office committee election process. We obtained
               statistics for the county office committee election outreach efforts conducted
               by the 33 targeted counties in the 11 States we visited. These efforts were
               made in response to FSA Notice AO-1124, which required county offices to
               contact local minority groups to encourage minority participation in the
               December 1996 elections. Statistics for the 33 targeted counties we visited
               revealed that the county office outreach efforts, in general, were minimal.

               As a result of the 1996 elections, only 3 of the 33 targeted counties in our
               sample had elected a minority member to their county office committees.
               Minorities made up approximately 3 percent of the voting membership of
               county office committees in the 33 counties we reviewed. The following
               depicts the racial composition of the 33 county office committees.




USDA/OIG-A/50801-3-Hq                                                                      18
         STATES AND     1997 COC     STATES AND    1997 COC
         TARGETED       MEMBERSHIP   TARGET        MEMBERSHIP
         COUNTIES       (RACE)       COUNTIES      (RACE)

                        NONM. MIN.                 NONM. MIN.
         ALABAMA                     N. CAROLINA

         Geneva          3     0     Columbus       3      0
         Madison         3     0     Duplin         3      0
         Montgomery      3     0     Granville      3      0


         ARKANSAS                    OKLAHOMA

         Lee             3     0     Cherokee       3      2
         Phillips        3     0     Choctaw        3      0
         Poinsett        3     0     Grady          3      0


         CALIFORNIA                  S. CAROLINA

         Fresno          2     1     Anderson       3      0
         Riverside       3     0     Clarendon      3      0
         San Joaquin     3     0     Orangeburg     3      0


         GEORGIA                     TEXAS

         Brooks          3     0     Guadalupe      3      0
         Tattnall        3     0     Hidalgo        3      0
         Worth           3     0     Nacogdoches    3      0


         LOUISIANA                   VIRGINIA

         Caddo           3     0     Franklin       3      0
         Richland        3     0     Halifax        3      0
         St. Landry      3     0     Mecklenburg    3      0


         MISSISSIPPI

         Hinds           3     0
         Marshall        3     0
         Winston         3     0     Totals        98      3




USDA/OIG-A/50801-3-Hq                                           19
               On a nationwide basis, the county office committee election results showed
               a modest increase in minority membership in county office committees, from
               1.8 percent in 1996 to 2.4 percent in 1997.


                                                      1997 COC             1996 COC
                             RACE                    MEMBERSHIP           MEMBERSHIP


                WHITE                                7,957 (97.6%)         8,225 (98.2%)
                AFRICAN-AMERICAN                       37 ( 0.5%)           20 ( 0.2%)
                HISPANIC                               65 ( 0.8%)           57 ( 0.7%)
                ASIAN-AMERICAN                         21 ( 0.3%)           19 ( 0.2%)
                NATIVE AMERICAN                        68 ( 0.8%)           57 (0.7%)

                TOTAL                                8,148                 8,378


               We concluded that traditional outreach methods have not been effective in
               increasing minority awareness of FSA farm loan programs or of the county
               office committee election process.


     RECOMMENDATION NO. 3



               Develop and implement effective methods of outreach, and establish uniform
               standards and benchmarks by which to evaluate outreach performance.

               In establishing this system, the following outreach methods should be
               considered:

               ! Staff should visit minority farms as a means of introducing staff members,
                 inviting the farmers to visit their offices, and determining and documenting
                 the reasons why these farmers have not applied for farm program loans.
                 Of particular importance would be information about why the farmers,
                 who would qualify for direct farm program loans, are not participating.
                 These visits should occur well in advance of the typical loan-making
                 season to ensure that adequate time is available to assist borrowers in
                 successfully completing their applications and receiving their loans in time
                 for planting season.




USDA/OIG-A/50801-3-Hq                                                                      20
               ! Staff should develop close and ongoing working relationships with
                 individuals considered to be leaders within local minority communities as
                 a means of maintaining a continuous link with the minority farming
                 community.

               In addition, the following employee benchmarks or performance measures
               should be considered:

               ! The timeliness and adequacy of information maintained about minority
                 farmers who operate within a service center's jurisdiction but who do not
                 participate in farm loan programs.

               ! The number of minority farmers visited based on documentation prepared
                 by the staff who made the visits.

               ! The number of working relationships developed with those who have
                 close ties with the local minority community and the frequency of
                 meetings held with the contacts; and written records of progress being
                 made toward ensuring that a continuous communication link is maintained
                 with the minority farming community.

               ! The number of direct loans made to minority farmers in relationship to the
                 number of minorities who are operating farms within the respective
                 service center jurisdictions and who are deemed eligible to participate in
                 farm loan programs.


                                            Minority advisors rarely initiate efforts to visit
    MINORITY ADVISORS WERE                  and inform their minority constituents about
    UNCLEAR OF THEIR ROLES                  farm loan programs. Furthermore, minority
                                            advisors for nearly all of the counties we
                                            reviewed did not effectively represent the
                                            interests of the minority community.
          FINDING NO. 4
                                             FSA Handbook 16-AO, Revision 2,
               Amendment 1, dated May 9, 1996, requires county office committees to
               recommend appointing a minority advisor in counties that have eligible
               minority voters of 5 percent or more but do not have minority representation
               on the committee. The main duty of the minority advisor is to increase
               awareness within the minority community of FSA activities and to ensure that
               minority concerns are understood by the county office committee. Minority
               advisors attend county office committee meetings, including executive



USDA/OIG-A/50801-3-Hq                                                                     21
               sessions, and participate in all deliberations, but have no vote. Minority
               advisors we spoke to believed they would be more effective if they were
               voting members of the county office committee.

               In response to our inquiries about minority advisors, some members of the
               minority farming community could not identify their minority advisor and
               were unaware of the minority advisor's role. Those who were familiar with
               their minority advisors said that the advisors do not initiate efforts to visit
               members of the minority farming community and inform them about farm loan
               programs. We noted that the minority advisor in one county we reviewed
               attended only one of 16 county office committee meetings from January 1996
               to April 1997 because he was busy with other activities.

               A State committee minority advisor and members of the minority farming
               community that we interviewed generally believed that minority advisors
               should not be appointed but be directly elected from within their respective
               minority communities and become full county office committee members with
               voting rights. They believed that, most immediately, the advisors should be
               given training about their responsibilities.

               In its recent report, Civil Rights at the United States Department of
               Agriculture, the Civil Rights Action Team recommended that the Secretary
               "include in the legislative package to Congress amendments to the 1935 Soil
               Conservation and Domestic Allotment Act to add two voting members to
               COC's that are appointed to represent members of groups who are otherwise
               underrepresented on the elected COC. Selection of the two members should
               be based upon recommendations from underrepresented groups in the county
               to the State executive director and the State committee." Legislation
               (HR2185) was introduced into Congress on July 17, 1997, to give the
               Secretary the authority to appoint two members to the county office
               committee based on recommendations made by the underrepresented groups.


     RECOMMENDATION NO. 4a



               Appoint minority advisors to the county office committees based on
               recommendations from the underrepresented groups in the county.




USDA/OIG-A/50801-3-Hq                                                                     22
     RECOMMENDATION NO. 4b



                Provide training so that minority advisors are aware of their responsibilities
                to inform minority individuals and farmers about FSA programs and activities.



                                             We found that the lack of diversity in the FSA
    NONDIVERSITY OF COUNTY                   county offices in relation to the communities
    OFFICE STAFFS CONCERNS                   they serve is a sensitive issue with potential
     MINORITY APPLICANTS                     minority applicants for FSA farm loans.

                                            At the county level, FSA consists of employees
                                            who staff the county offices as well as
                                            employees who staff the Ag Credit teams
          FINDING NO. 5
                                            directly associated with processing farm
                                            program loans. We compiled data on race and
               title for employees in county offices and on the Ag Credit staffs in the 33
               targeted counties.

                We found that 307 county office and Ag Credit employees staffed the 33
                targeted counties. Of the 307 employees, 249 (81 percent) were
                nonminorities and 58 (19 percent) belong to a minority group. However, 25
                of the 33 counties employed no more than 2 minority employees and 6
                counties had no minority employees. (See exhibit C.)

                We also looked at the racial makeup of the county executive directors and Ag
                Credit managers who have the primary decision-making responsibility at the
                county level. Positions for both directors and credit managers exist in most
                of the 33 targeted county offices, but we found only 1 minority county
                executive director and only 3 minority Ag Credit managers for the targeted
                offices. Of the 307 employees who serve the 33 targeted county offices, 62
                are in management positions and only 4 (6 percent) of these positions are
                filled by minorities.

                A minority borrower in one State told us that he believed that low
                participation by black farmers was due to problems in the past when they
                could not get loans from the county office. He further stated that "things




USDA/OIG-A/50801-3-Hq                                                                     23
               were starting to change, and that now that there was a black Ag Credit
               manager, more black farmers might feel comfortable coming into the office."

               A minority farmer in another State who was reluctant to enter the county
               office stated that his fear of rejection by the county office staff had led him to
               abandon other chances of expanding his operation. He said that he had an
               opportunity to buy a tobacco allotment but that he "had to let it go" because
               he did not want to deal with the county supervisor. He also said his daughter,
               who had an active interest in farming and may have qualified for a youth loan,
               "never would have dreamed" about going into the county office to ask for
               assistance.



     RECOMMENDATION NO. 5



               Work to increase the number of minority employees in FSA county offices
               where minority groups are underrepresented.




USDA/OIG-A/50801-3-Hq                                                                        24
 III.   GREATER TECHNICAL ASSISTANCE NEEDED IN LOAN-MAKING AND
        LOAN-SERVICING


                    We noted a need for greater technical assistance during the loan-making and
                    loan-servicing processes. Both minority and nonminority loan applicants have
                    generally found the application process arduous. In the 11 States reviewed,
                    total Statewide data shows that applications from minority and nonminority
                    farmers took about the same number of days on average to process from
                    receipt to loan closing. However, in certain locations, we noted that the
                    applications of minority applicants took more days to complete (from receipt
                    to complete status) than applications of nonminority applicants. Additionally,
                    we found a disproportionate number of nonminority borrowers received two
                    or more multiple servicing decisions whereas a disproportionate number of
                    minority borrowers received no more than one of these decisions. These
                    decisions generally place borrowers in a more favorable position to overcome
                    their financial hardships and to continue their farming operations. We also
                    noted that the internal FSA review processes in the 11 States visited had no
                    procedures in place to detect or address disparate treatment of minorities.


                                               Both minority and nonminority applicants
   APPLICATION REQUIREMENTS                    questioned the length of time it takes to process
     FRUSTRATE BORROWERS                       loan applications. Some of these applicants also
                                               informed us they were not given the technical
                                               assistance needed to complete their applications
                                               and obtain funds in time to plant their crops and
          FINDING NO. 6
                                               achieve optimum production. Total Statewide
                                               data for the 11 States reviewed shows that
               applications from minority and nonminority farmers took about the same
               number of days on average to process from receipt to loan closing (87 days
               for minorities and 85 days for nonminorities). However, in certain locations,
               we noted that it took minorities longer than nonminorities to complete an
               approved application (from receipt to complete status). Because an
               applicant's requests for loan funds cannot be processed until a completed
               application is submitted, a delay in completing the application places the
               applicant lower on the list of expectant borrowers and could, if funds run out,
               leave the applicant unfunded until the next fiscal year. We concluded that
               actions are needed to reduce the length of time it takes for farmers to
               complete their applications.




USDA/OIG-A/50801-3-Hq                                                                         25
               Concerning loan approval, we also found that county office committees
               rejected two minority applicants and one nonminority applicant on the basis
               of their credit histories although the county office committees review should
               have been limited to a determination as to the applicants' ability to operate a
               farm.

               FSA Instruction 1910.4(b) provides that the county supervisor (now Ag
               Credit manager) will provide assistance as necessary to help applicants
               complete their applications.

               Lengthy Application Processing

              Although the total average number of days to process an application from
              receipt to loan closing was similar for minorities and nonminorities in the 11
              States reviewed, we did note some disparities in the number of days it took
              minorities and nonminorities to complete an approved application in certain
              locations.

              The application package used by farmers to apply for FSA benefits consists
              of a formidable array of forms, documents, and statements, and requires an
              extensive commitment of time in assembling information. A completed
              application consists of (1) completed Form FmHA 410-1, "Application for
              FmHA Services"; (2) a brief narrative of farming experience; (3) verification
              of inability to obtain credit elsewhere; (4) a five-year financial and production
              history; (5) a brief description of the farming operation; (6) verification of off-
              farm income; (7) projected production, income and expenses, and a loan
              repayment plan; and (8) a legal description of the farm and other real estate
              property, and (if applicable) a copy of any lease, contract, option or
              agreement, etc.

              We accessed FSA's APPL data base to obtain the average processing days
              Statewide for all approved applicants in the 11 States visited. The data
              obtained is summarized as follows.




USDA/OIG-A/50801-3-Hq                                                                        26
                                                 State-Wide Averages
                                     of Days to Complete (Approved) Applications
                                            Source: FSA's APPL Data Base
                                                                     Race*
                                                 African-         Native          Asian-
                        State         White      American        American        American        Hispanic
                Alabama                 25           26             N/A             N/A            N/A
                Arkansas                17           27             N/A             N/A            N/A
                California              53          N/A              25              35             83
                Georgia                 21           24              48             N/A            N/A

                Louisiana               22           21             N/A             N/A             47
                Mississippi             45           50             N/A             N/A            N/A

                North Carolina          27           40              62             N/A            N/A

                Oklahoma                45           10              33             N/A            N/A

                South Carolina          40           56             N/A             N/A            N/A

                Texas                   26           57              25              36             23

                Virginia                48           48             N/A             N/A            N/A

               * We only listed averages when there were three or more approved applications. Cases in which
               there were less than three are listed as not applicable (N/A). During our review, we noted that
               data in the data base was not complete in some locations.

               As presented above, there were some disparities noted in the number of days
               it took minorities and nonminorities to complete an approved application
               (from receipt to complete status). For further details on the number of
               approved, rejected, and withdrawn applications, see exhibit D.

               We interviewed over 300 loan applicants and borrowers (minority and
               nonminorities). We were told by 113 of the interviewees that the application
               process could be improved. Specifically, applicants believed the process took
               too long and thought the process was cumbersome because of the amount of
               paper work required. The applicants felt more technical assistance was
               needed to help them complete their loan applications. Some commented that
               they made several trips to the offices only to be told that additional
               information was needed.




USDA/OIG-A/50801-3-Hq                                                                                     27
                        In all 11 States, FSA officials relied on technical assistance made available to
                        minority farmers through the "2501 Program,"4, some to a greater degree than
                        others. Several Ag Credit officials commented that applicants who received
                        help from the 2501 Program representatives generally submitted completed
                        applications with all the necessary information which shortened their
                        processing time.

                        Eligibility Determinations

                        In 3 of 11 States reviewed, county office committee members review and
                        evaluate loan applicants' credit history, past record of debt repayment and
                        reliability. In these three States, Ag Credit officials give the county office
                        committees the complete application package, including a credit report, so the
                        committee may make a determination of eligibility, including creditworthiness.
                        The county office committee in one county rejected two minority applicants
                        on the basis of their credit histories. The committee in another county
                        rejected a nonminority applicant on the basis of the applicant's farming
                        experience and credit history.

                        Ag Credit officials in the three States said that since the county office
                        committee is charged with the responsibility of determining eligibility, it
                        should be presented with information, including credit reports, that cover all
                        eligibility factors. However, National office guidance5 provided for Ag Credit
                        officials, not the county office committees, to be involved in determining
                        creditworthiness and reviewing credit reports.

                        We concluded that allowing the members of the county office committee, who
                        live and farm in the same communities as the applicants, to make decisions
                        involving credit issues infringes upon the privacy of the applicants and is not
                        necessary to determine whether an applicant has sufficient training or farming
                        experience to operate a farm.




       4
      The "2501 Program" is a grant program of technical assistance authorized by section 2501 of the Food,
Agriculture, Conservation, and Trade Act of 1990.

   5
    FmHA AN Number 3148 dated April 10, 1995.



USDA/OIG-A/50801-3-Hq                                                                                  28
     RECOMMENDATION NO. 6a



               Establish pre-application interviews with prospective applicants to determine
               the nature of their request and help identify information needed to complete
               the application process.


     RECOMMENDATION NO. 6b



               Establish an assistance program that includes provisions for one-on-one
               attention between the loan officer and the farmer, and for farm visits, if
               necessary, to help farmers prepare information needed to complete application
               packages.


     RECOMMENDATION NO. 6c



               Discontinue county office committee involvement in determining
               creditworthiness of farm applicants.

                                            In the 33 loan service centers visited, a
       GREATER TECHNICAL                    disproportionate number of nonminority
    ASSISTANCE NEEDED WHEN                  borrowers received two or more loan-servicing
     SERVICING DELINQUENT                   decisions, and a disproportionate number of
      BORROWER ACCOUNTS                     minority borrowers received no more than one
                                            of these decisions. These decisions generally
                                            place borrowers in a more favorable position to
                                            overcome their financial hardships and continue
          FINDING NO. 7
                                            their farming operations.

               The Agricultural Credit Act of 1987 required FSA to restructure delinquent
               farm program loans to the maximum extent possible to avoid losses and allow
               borrowers to continue their operations. The Act required FSA to modify the
               amounts, rates, and terms of delinquent loans, using any combination of



USDA/OIG-A/50801-3-Hq                                                                   29
               primary loan-servicing, including consolidation, rescheduling, reamortization,
               reduction of interest rates, deferrals, and debt writedown. These provisions
               were further modified by the Food, Agriculture, Conservation, and Trade Act
               of 1990, and the Federal Agriculture Improvement and Reform Act of 1996.

               For the 33 loan service centers in the 11 States visited, a total of 526 of the
               5,465 borrowers listed on the FmHA Report Code 540, Status Report of
               Farmer Program Accounts, received two or more FmHA Instruction 1951-S
               Primary Loan Service Programs (PLSP) loan-servicing decisions during the
               period January 1, 1989, to March 3, 1997. The status of the 5,465 borrower
               accounts, as of March 3, 1997, for the 33 loan service centers reviewed was
               as follows:



                 Status of Accounts          Total     Nonminority           Minority
              180 Days or More                673          522 (11%)            151 (17%)
              Delinquent
              Less Than 180 Days              748          591 (13%)            157 (17%)
              Delinquent
              May Require Attention           555          447 (10%)            108 (12%)
              On or Ahead of Schedule        3,489       2,992 (66%)            497 (54%)
              Totals                         5,465      4,552 (100%)           913 (100%)

               As indicated above, 66 percent of the universe of nonminority borrower
               accounts were on or ahead of schedule, and the remaining 34 percent were
               delinquent. In contrast, only 54 percent of the universe of minority borrower
               accounts were on or ahead of schedule, and 46 percent were delinquent.

               The 526 multiple loan-servicing decisions previously mentioned included loan
               rescheduling, loan consolidation, restructuring, and debt writedown.
               Nonminority borrowers received 449 (85 percent) of the multiple decisions,
               and minority borrowers received 77 (15 percent) of them. (See Exhibit E.)
               What this shows is that nonminorities, who had 34 percent of their accounts
               in the delinquent or may require attention categories, received 85 percent of
               the PLSP multiple servicing decisions while minorities, with 46 percent of
               their accounts in these categories, received only 15 percent of the PLSP
               multiple decisions.




USDA/OIG-A/50801-3-Hq                                                                     30
               Another issue noted was the lack of followup with borrowers who did not
               respond to notices concerning availability of PLSP servicing. We found that
               borrowers were generally notified of the availability of loan service programs.
               However, in the absence of specific requirements to follow up, the Ag Credit
               staff did not actively recontact those borrowers who either did not respond or
               did not actively seek loan-servicing. We found that certain minority
               borrowers who did not actively seek loan-servicing based their lack of
               response on negative experiences with FSA during the early stages of the
               implementation of PLSP.

               Presented below are examples of disparities in the number of multiple loan-
               servicing decisions given to nonminority and minority borrowers in two
               States.

               ! In the first State, we reviewed three loan service centers in which there
                 were 301 nonminority borrowers and 33 minority borrowers.
                 Nonminority borrowers received 70 (96 percent) of the 73 multiple
                 servicing decisions while minority borrowers received only 3 (4 percent)
                 of them. As an apparent parallel to this disparity, only 36 percent of the
                 nonminority accounts were in the Over 180 Days Delinquent and May
                 Require Attention categories, whereas 51 percent of the minority accounts
                 were in these two categories.

               ! In the second State, we reviewed three loan service centers in which there
                 were 364 nonminority borrowers and 95 minority borrowers.
                 Nonminority borrowers received 38 (84 percent) of the 45 multiple
                 servicing decisions while minority borrowers received only 7 (16 percent)
                 of the multiple servicing decisions. As an apparent parallel to this
                 disparity, only 15 percent of the nonminority accounts were in the Over
                 180 Days Delinquent and May Require Attention categories, whereas 27
                 percent of the minority accounts were in these two categories.

               In the second State, we also noted that two nonminority borrowers in one
               county did not respond to notifications of availability of PLSP within the 60-
               day timeframe required by FmHA Instruction 1951-S. However, the Ag
               Credit staff did not initiate actions to accelerate these accounts, as required
               by the instructions. Instead, the Ag Credit staff rescheduled the borrowers'
               debts when they applied for new loans. As of the date of our review, each of
               the two accounts were on or ahead of schedule, and one of the two borrowers
               had received two additional servicing decisions.




USDA/OIG-A/50801-3-Hq                                                                     31
               In contrast, two minority borrowers in this county were sent notices regarding
               the availability of PLSP. As with the above-cited nonminority cases, neither
               of the two minority borrowers responded to the notifications within the 60-
               day timeframe required by FmHA Instruction 1951-S. Consequently, their
               accounts were accelerated.

               FSA needs to be aware of and analyze any disparities in FSA's PLSP loan-
               servicing decisions particularly in comparison to delinquency rates for
               minorities and nonminorities. FSA also needs to be aware of borrowers with
               limited resources who may need personal contact and greater technical
               assistance to understand what FSA can do to help alleviate financial hardship.

               We found that analyses are not periodically conducted by FSA to identify
               those States or counties where disparities may exist in the loan-making and
               loan-servicing processes. FSA has two formal review processes; one
               conducted by the National office, called the National Internal Review, and one
               conducted by State offices, called the County Operations Review.
               Additionally, district directors conduct periodic oversight visits to county
               offices. In the 11 States visited, we found that these reviews did not include
               an evaluation of civil rights issues to detect or specifically address any
               disparate treatment of minorities.


     RECOMMENDATION NO. 7a



               Establish and maintain a tracking system to monitor the servicing of farm loan
               accounts, especially in connection with delinquency rates and borrower
               responses to notification of availability of loan service programs, and to
               ensure equality in the servicing of all farm loan accounts.




USDA/OIG-A/50801-3-Hq                                                                    32
     RECOMMENDATION NO. 7b



                    Make personal contact with those borrowers who do not respond to the
                    notifications or the requests for information within the prescribed timeframes,
                    and ensure that the borrowers fully understand the significance of the
                    notifications and the requirements for acquiring loan-servicing.


     RECOMMENDATION NO. 7c



                    Incorporate a review of civil rights issues in FSA's formal National Internal
                    Reviews and County Operations Reviews, and have district directors address
                    civil rights issues when conducting periodic reviews of loan service centers
                    and county offices.


                                            Because FSA did not maintain documentation
        FSA'S METHOD OF                     for direct loans funded out of the National
   REDISTRIBUTING FUNDS NEEDS               office reserve account, we were unable to
         IMPROVEMENT                        determine if minority applicants were excluded
                                            from this source of direct loan funds. Also, we
                                            determined that from FY 1992 through FY
                                            1996, $557 million of non-SDA and SDA direct
          FINDING NO. 8
                                            operating loan funds had been available for
                                            loans but was allowed to expire. The bulk of
               these funds, $542 million, was available in FY's 1992 and 1993.

                    The National office allocates direct loan funds to the States at the beginning
                    of the fiscal year. The National office also maintains a direct loan reserve fund
                    to fund loan applications when requested by the States. Some States use up
                    their available direct loan allocations and others do not. Those States that
                    have unfunded applications or residual accounts too small to cover any single
                    loan application can request funds from the national reserve fund on a case-
                    by-case basis.




USDA/OIG-A/50801-3-Hq                                                                            33
               On the other hand, States with residual direct loan funds return those funds
               to the National office, which "pools" the money into the reserve fund and
               redistributes the funds to other States. In addition to receiving funds through
               pooling or the national reserve, States can fund loan applications, with
               National Office approval, by moving funds between themselves. The only
               exception to pooling is SDA direct operating loan funds, which by law cannot
               be pooled.

               FSA's Practice of Redistributing Funds Is Questionable

               In 9 of 11 States we reviewed, FY 1996 nationally allocated loan funds were
               maintained at State offices and not allocated to counties. Once a loan service
               center approves an application, a request to obligate funds is forwarded to the
               State office. We determined that there are times when FSA procedures may
               not be followed. State office Ag Credit officials told us that when State loan
               funds are exhausted and national reserves are used to supplement depleted
               State resources, the order in which loans are funded may not follow the rule
               of "first-in, first-processed."

               FmHA Instruction 1910.4(b), effective May 24, 1990, and still currently
               followed by FSA, states that "completed applications will be processed in the
               order of date received," or in order of first-in, first-processed.

               A State office Ag Credit official in one State stated that the obligation forms
               received on any particular day would be processed in the order of date
               received, unless the loan amount exceeded the State fund balance. If it did,
               then the next obligation request in line for funding would be processed, and
               the next, until available State funds were depleted. The State office Ag Credit
               official stated that the State could request direct loan funds from the national
               reserve to fund the loan that exceeded the State fund balance. The decision
               to request additional funding or fund the next application in line is at the
               discretion of the State office Ag Credit official.

               For instance, if an applicant is awaiting funding for a $200,000 direct
               operating loan and the redistribution from the national reserve totals only
               $100,000, then the State would fund the next loan request for $100,000 or
               less, regardless of when the loan applications were received. Another State
               office Ag Credit official explained that when State direct loan funds are
               depleted, the required "first-in, first-processed" rule was not followed to
               determine the order of funding. Instead, the State office would send the
               National office a list of unfunded loan requests and the National office would




USDA/OIG-A/50801-3-Hq                                                                      34
               determine which applications get funded. We confirmed this process with
               FSA National office officials.

               We are concerned about the redistribution method described to us because it
               may result in an unfair distribution of loan proceeds across the country and
               because the National office did not retain any documentation showing how it
               had actually distributed reserve funds. Without this documentation, we could
               not determine which borrowers received loans funded outside the normal
               channels. Specifically, we were unable to determine whether minorities were
               excluded from distributions of pooled or reserve funds.

               The FSA National office informed us that in the future they will retain the
               dollar amounts distributed from the reserve fund for the present fiscal year,
               and will retain them for a minimum of 3 fiscal years. In addition, lists of the
               names of applicants who have been funded with reserve funds will be
               maintained for the same time period. We believe supporting documentation
               is essential in all instances where loan applicants receive funding outside the
               normal channels.

               In addition to national pooling, individual States are allowed, with National
               office approval, to move funds between themselves. Ag Credit officials told
               us this is an informal process by which State Ag Credit officials can directly
               solicit unused funds from other States. If enough funds are solicited, the
               National office is contacted and requested to transfer funds between states.

               One Ag Credit official we spoke to believes this to be an effective way to
               expedite the funding of loans. However, National office Ag Credit officials
               stated they do not keep records of which loan applications are being funded
               through this funding process. Therefore, we were unable to determine
               whether or not this informal system between State Ag Credit officials resulted
               in the exclusion of minority loan applications. This informal process of
               reallocating funds should be discontinued.




USDA/OIG-A/50801-3-Hq                                                                     35
               Operating Loan Funds Expired

               By law, FSA is required to set aside a certain percentage of direct operating
               loan funds to fund operating loan requests by socially disadvantaged
               applicants, including minorities. This percentage is based on the number of
               socially disadvantaged farmers per State, as reported by the Agriculture
               Census data of 1992. The direct operating loan funds set aside are called
               SDA direct operating loan funds and specifically targeted to minority farmers.
               Each State receives an allocation based on the percentage of minority farmers
               in their State. These funds cannot be pooled or transferred to another State.


               In April 1994, the Office of the General Counsel (OGC) interpreted the
               legislation governing SDA funds (section 356(c)(2) of Public Law 87-128) to
               mean that unobligated SDA operating funds cannot be pooled or moved from
               State to State. Based on the language of the statute and its legislative history,
               OGC determined that Congress intended the funds to remain within the
               targeted State.

               Consequently, some SDA funds go unused at the end of the fiscal year and
               expire. Funds not used in the year of their appropriation are held in an
               expired account for 5 years then returned to the U.S. Treasury. These funds
               expire without the benefit of being pooled to the National office for
               redistribution to other States that have used up their funding. Since FY 1992,
               about $18 million of targeted SDA operating loan funds that expired could
               have been available for loans, absent the legislative restriction.

               In addition, FSA has allowed non-SDA direct loan funds to expire. Since FY
               1992, about $539 million in non-SDA direct loan funds have expired which
               could have been available to loan.




USDA/OIG-A/50801-3-Hq                                                                       36
               The following chart presents the non-SDA and SDA direct operating funds
               that expired for FY 1992 through FY 1996 which were available to loan.

                                                                                 Total
                                                                           Additional Funds
                    Fiscal Year           NON-SDA              SDA         Available to Loan
                      FY 96                   $8,006,767     $4,647,313         $12,654,080
                      FY 95                    1,472,198       $280,147            1,752,345
                      FY 94                     707,557         249,460             957,017
                      FY 93                 242,229,845       5,607,869         247,837,714
                      FY 92                 286,578,718       7,499,567         294,078,285
                      Totals               $538,995,085     $18,284,356        $557,279,441



              The FSA National office informed us that "It is unrealistic to expect to have
              $0 subsidy [loan funds] left at the end of the fiscal year. This is due to loan
              funds allocated to States which do not get obligated, last-minute loan
              cancellations, and subsidy remaining for initially targeted funds remaining in
              States which cannot be pooled. Conversely, the limited amount of subsidy
              remaining in fiscal years 1994 and 1995 is evidence of a concerted effort by
              the Loan Making Division to utilize as much of the available loan funds as
              possible. In fiscal years 1992 and 1993, ample subsidy funds were available
              at fiscal years' end to obligate loans for any applicant with an approved loan."

              The Department should seek legislation to allow FSA to pool unused SDA
              operating loan funds to States that have exhausted their available funds when
              there is clearly no further need to fund other SDA loans within the State that
              has residual funds. Agency officials agree that SDA direct operating loan
              funds should be pooled.


     RECOMMENDATION NO. 8a



              Seek legislation to "pool" SDA direct operating loan funds into the national
              reserve to redistribute to States with unfunded, approved direct operating loan
              applications.




USDA/OIG-A/50801-3-Hq                                                                      37
     RECOMMENDATION NO. 8b



               Develop procedures to establish a recordkeeping system to retain, document,
               and justify funding of loan applications from the national reserve.
               Additionally, this recordkeeping system should be used to document loan
               requests that go unfunded and to determine if reallocation of State allocations
               is desirable to best utilize available funds.



     RECOMMENDATION NO. 8c



               Discontinue the process of informally transferring funds between States and
               return all unused funds to the National office for redistribution as appropriate.




USDA/OIG-A/50801-3-Hq                                                                       38
                        GENERAL COMMENTS




         MINORITY PARTICIPATION IN FARM LOAN PROGRAMS



               We were asked by the Secretary of Agriculture to determine if participation
               by minorities in FSA's direct farm loan programs was proportional to the
               general population for the Nation, States, and counties. For this report, we
               reviewed the participation for the 11 States and 33 counties in our review.
               We obtained data from the 1990 General Population Census, the 1992
               Agricultural Census, FSA's loan portfolio as of February 1997, and direct
               farm loan applications for fiscal year 1996. Census and FSA portfolio data for
               the Nation, States, and counties will be provided to the Secretary under
               separate cover.

               We were unable to make direct correlations between FSA's portfolio data and
               either the General Population Census or Agricultural Census. The General
               Population Census reports the total population but does not identify that
               portion of the population engaged in the business of farming. The
               Agricultural Census shows the number of farms and land in farms for
               minorities, but it does not show the number of persons in the business of
               farming. Further, the FSA portfolio may contain borrowers who are still
               indebted to FSA but are no longer farming. Because of these limitations, we
               were unable to assess whether FSA's portfolio proportionately represents the
               minority population of the Nation, States, and counties. However, the
               following tables provide the census and FSA portfolio data for the 11 States
               in our review and exhibits D, F, and G provide further data for the States and
               counties visited.




USDA/OIG-A/50801-3-Hq                                                                    39
                                       1990 General Population Census
                                    Total           Nonminority               Minority

                   State           Number        Number       Percent   Number           Percent

             Alabama                 4,040,587    2,960,167        73     1,080,420           27

             Arkansas                2,350,725    1,933,082        82      417,643            18

             California             29,760,021   17,029,126        57    12,730,895           43

             Georgia                 6,478,216    4,543,425        70     1,934,791           30

             Louisiana               4,219,973    2,776,022        66     1,443,951           34

             Mississippi             2,573,216    1,624,198        63      949,018            37

             North Carolina          6,628,637    4,971,127        75     1,657,510           25

             Oklahoma                3,145,585    2,547,588        81      597,997            19

             South Carolina          3,486,703    2,390,056        69     1,096,647           31

             Texas                  16,986,510   10,291,680        61     6,694,830           39

             Virginia                6,187,358    4,701,650        76     1,485,708           24

             States Visited         85,857,531   55,768,121        65    30,089,410           35



                           1992 Agricultural Census (Farms)
                                    Total           Nonminority               Minority

                   State           Number        Number       Percent   Number           Percent

             Alabama                    37,905      36,349         96        1,556             4

             Arkansas                   43,937      43,116         98            821           2

             California                 77,669      68,058         88        9,611            12

             Georgia                    40,759      39,690         97        1,069             3

             Louisiana                  25,652      24,361         95        1,291             5

             Mississippi                31,998      29,462         92        2,536             8

             North Carolina             51,854      49,374         95        2,480             5

             Oklahoma                   66,937      63,652         95        3,285             5

             South Carolina             20,242      18,412         91        1,830             9

             Texas                    180,644      168,900         93       11,744             7

             Virginia                   42,222      40,840         97        1,382             3

             States Visited           619,819      582,214         94       37,605             6




USDA/OIG-A/50801-3-Hq                                                                          40
                           FSA Direct Farm Loan Portfolio (Borrowers)
                                                         Nonminority                          Minority
                                        Total
                           State       Portfolio     Portfolio         Percent        Portfolio           Percent

                Alabama                   2,041          1,799              88              242                 12

                Arkansas                  4,231          3,876              92              355                  8

                California                1,937          1,679              87              258                 13

                Georgia                   2,075          1,846              89              229                 11

                Louisiana                 2,648          2,390              90              258                 10

                Mississippi               4,912          4,054              83              858                 17

                North Carolina            2,710          2,256              83              454                 17

                Oklahoma                  5,787          5,222              90              565                 10

                South Carolina            1,508          1,211              80              297                 20

                Texas                     8,151          7,447              91              704                  9

                Virginia                  1,388          1,182              85              206                 15

                Total States Visited     37,388        32,962               88            4,426                 12




                             Delinquent FSA Direct Farm Borrowers

                                                             Nonminority                           Minority
                                         Total
                           State       Delinquent     Delinquent         Percent        Delinquent            Percent

                Alabama                        519               432             83                 87               17

                Arkansas                     1,184          1,030                87                154               13

                California                     801               688             86                113               14

                Georgia                        725               609             84                116               16

                Louisiana                    1,249          1,093                88                156               12

                Mississippi                  2,337          1,807                77                530               23

                North Carolina               1,040               801             77                239               23

                Oklahoma                     2,235          2,043                91                192               9

                South Carolina                 575               429             75                146               25

                Texas                        4,011          3,615                90                396               10

                Virginia                       503               396             79                107               21

                Total States Visited       15,179          12,943                85               2,236              15




USDA/OIG-A/50801-3-Hq                                                                                                     41
                FSA's APPL data base of loan application data presents the number of direct
                loan applications approved, rejected, and withdrawn during fiscal year 1996.
                For the 11 States visited, 7,428 applications were received, of which 4,906
                were approved, 801 were rejected, and 1,721 were withdrawn. The following
                table presents only applications that were approved in the 11 States we
                reviewed.


                     Fiscal Year 1996 Approved Direct Farm Loan Applications
                                 Total              Nonminority              Minority

                   State        Number           Number       Percent   Number          Percent

             Alabama                      136          120         88            16          12

             Arkansas                     593          514         87            79          13

             California                   217          180         83            37          17

             Georgia                      234          199         85            35          15

             Louisiana                    362          313         86            49          14

             Mississippi                  562          478         85            84          15

             North Carolina               355          300         84            55          15

             Oklahoma                     499          455         91            44           9

             South Carolina               136          108         79            28          21

             Texas                       1,629       1,449         89            180         11

             Virginia                     183          168         92            15           8

             States Visited              4,906       4,284         87            622         13




                During fiscal year 1996, 1,416 applications for direct loans were received by
                the 33 loan service centers that serviced the 33 targeted counties in our
                review. Of the 1,416 applications, 317 (22 percent) were from minority
                applicants and 1,099 (78 percent) were from nonminority applicants. Of the
                317 minority applications, 190 (60 percent) were approved and 127 (40
                percent) were rejected or withdrawn. Of the 1,099 nonminority applications,
                729 (66 percent) were approved and 370 (34 percent) were rejected or
                withdrawn. (See exhibit D.)




USDA/OIG-A/50801-3-Hq                                                                         42
                  ORGANIZATION AND FUNCTIONS OF FSA




The Consolidated Farm Service Agency was established by the Federal Crop Insurance Reform and
Department of Agriculture Reorganization Act of 1994, P.L. 103-354, enacted October 13, 1994.
The agency name was changed to the Farm Service Agency on December 15, 1995. As a result of
the reorganization, FSA incorporated programs from several agencies, including the Agricultural
Stabilization and Conservation Service, and the Farmers Home Administration (FmHA).

The Agricultural Stabilization and Conservation Service had been responsible for administering the
farm support programs, such as the deficiency payment program, the disaster payment program, and
the conservation reserve program. FmHA had been responsible for administering farm loan
programs. Under the reorganization of the agencies, the Agricultural Stabilization and Conservation
Service functions were transferred to county office personnel, who are not Federal employees, and
FmHA's functions were transferred to teams of agriculture credit (Ag Credit) managers and
technicians, who are Federal employees. The Ag Credit teams work out of loan service centers (co-
located with county office employees) and in most instances serve more than one county. Farm loan
applicants, who were accustomed to dealing with the former FmHA personnel housed in most
counties, must now travel in some instances to an adjoining county to apply for a loan.

Loan eligibility decisions lie with each of FSA's county office committees. The county office
committee generally consists of three regular and two alternate members who are elected by
producers in the county to 3-year terms. The committee is responsible for overseeing the FSA county
office operations, including the loan programs, and has a hand in shaping policies followed by the
county office. However, county office committees must rely on the county executive director to
interpret National and State procedures and apply them to county operations. Also, the county office
committees hire the county executive director, and the director hires the county office staff.

FSA Farm Loans

FSA makes or guarantees loans to help family farmers who are temporarily unable to obtain private,
commercial credit. In many cases, these are beginning farmers who have insufficient net worth to
qualify for commercial credit. In other cases, these are farmers who have suffered financial setbacks
from natural disasters, or who have limited resources with which to establish and maintain profitable
farming operations.




USDA/OIG-A/50801-3-Hq                                                                            43
Some farmers obtain their credit needs through the use of loan guarantees. Under a guaranteed loan,
a local lender makes and services the loan, and FSA guarantees it against loss up to a maximum of
95 percent. FSA (the Ag Credit manager) has the responsibility of approving all loan guarantees and
providing oversight of lenders' activities.

For those unable to qualify for a loan guarantee from a commercial lender, FSA also makes direct
loans, which are serviced by an FSA official (the Ag Credit manager). FSA supervises its direct
borrowers by making a thorough assessment of the farming operation. The agency evaluates the
adequacy of the real estate and facilities, machinery and equipment, financial and production
management, and the farmer's goal. The following types of farm loans must be fully secured and can
only be approved for those who have repayment ability.

Farm Ownership Loans

Eligible applicants may obtain a direct loan for up to $200,000, and a guaranteed loan for up to
$300,000. The maximum repayment term is 40 years. Loan funds may be used to purchase farm real
estate, to enlarge an existing farm, to construct new buildings and/or improve structures.

Farm Ownership Down Payment

Eligible beginning farmers may obtain a direct loan for up to 30 percent of the purchase price of a
family-size farm, or the farm's appraised value (maximum of $250,000), whichever is less. The
applicants must provide at least a 10-percent down payment; the interest rate is fixed at 4 percent and
it must be repaid in 10 years or less. The remaining balance may be guaranteed by FSA.

Farm Operating Loans

Eligible applicants may obtain a direct loan for up to $200,000, and a guaranteed loan for up to
$400,000. The repayment term may vary but typically will not exceed 7 years for intermediate-term
purposes. Annual operating loans are generally repaid within 12 months or when the commodities
produced are sold. The general purposes of this type of loan include normal operating expenses,
family living expenses, machinery and equipment, real estate repairs and improvements, and the
refinancing of debt.

Emergency Loss Loans

These types of loans are available only as direct loans from FSA. These loans assist farmers who
have suffered physical or production losses in areas designated disaster areas by the President, the
Secretary of Agriculture, or the FSA Administrator. For production loss loans, applicants must
demonstrate a 30-percent loss in a single farming or ranching enterprise and may receive loans up to
a maximum of 80 percent of total production losses. The maximum indebtedness is $500,000.




USDA/OIG-A/50801-3-Hq                                                                              44
Rural Youth Loans

These loans are available as direct loans only and have a maximum loan amount of $5,000. The loans
are made to individuals who are sponsored by a project advisor, such as a 4-H club. Individuals must
be at least 10 but not more than 20 years old to be eligible.

FSA Loan-Servicing

To help keep borrowers on the farm, FSA can provide certain loan-servicing benefits (available
through Primary Loan Servicing Programs (PLSP)) to borrowers whose accounts are delinquent due
to circumstances beyond their control:

! Re-amortization, restructuring and/or deferral of loans,

! rescheduling at the limited resource (lower interest) rate,

! acceptance of conservation easements on environmentally sensitive land in exchange for a
  writedown of debt, or

! writedown of the debt to its current market value.

If none of these options result in a feasible farming operation, borrowers are offered the opportunity
to purchase their debt at its current market value. If this is not possible, FSA may exercise other
options:

! FSA may offer debt settlement based on the borrower's inability to pay the debt, or

! in some cases, where a successful operation cannot be developed, FSA may work with the
  borrower to help him or her retain the homestead and up to 10 acres of land.

Farms that come into FSA ownership are sold at market value, with a preference to beginning farmers
and ranchers.

Socially Disadvantaged Applicants (SDA) and Outreach

It is the current FSA policy to seek participation by minority and "socially disadvantaged" farmers
in the farm loan programs. FSA defines a socially disadvantaged applicant (SDA) as an applicant who
has been subjected to racial, ethnic, or gender prejudice because of his or her identity as a member
of a group, without regard to his or her individual qualities.

FSA makes and guarantees loans to minority applicants to buy and operate family-size farms and
ranches. Funds specifically for these loans are reserved each year.



USDA/OIG-A/50801-3-Hq                                                                             45
FSA' loan service centers and county offices perform outreach activities (public announcements,
meetings, etc.) in order to broaden awareness in the minority community of the availability of FSA
loans to all farmers. FSA offices in counties with a sizable minority population also retain a minority
advisor to keep the county committee informed of the concerns of the minority farmers. Grantees,
usually 1890 land grant colleges, provide technical assistance to minority farmers under the authority
of section 2501 of the Food, Agriculture, Conservation and Trade Act (FACT) of 1990. These "2501
Program" technicians collect the farmer's financial papers and perform year-end analyses to prepare
the farmer to complete the FSA documents needed to apply for a loan. The technicians also offer
advice on farm husbandry and methods of improving efficiency.

Outreach has been a required activity of farm loan programs since it was instituted by the former
FmHA. Minority advisors have been added to the county office committees as a result of concerns
about the lack of minority representation on committees that have historically held to the same
ethnicity as the majority farm populations that elect them. The "2501 Program," originally
administered by the former FmHA, was placed by the Secretary under the control of the Natural
Resources and Conservation Service in 1996.

Enforcement of Civil Rights Protection in Farm Loan Programs

Two key pieces of legislation prohibit discrimination against minorities: the Civil Rights Act of 1964,
and the Equal Credit Opportunity Act.

Civil Rights Act of 1964

On July 2, 1964, Congress enacted the Civil Rights Act of 1964, the most comprehensive piece of
civil rights legislation since Reconstruction. One provision of the Civil Rights Act offers protection
to numerous individuals excluded from participation in, denied the benefits of, or otherwise subjected
to discrimination under federally funded programs or activities. That provision, Title VI of the Civil
Rights Act, provides that: No person in the United States shall, on the ground of race, color, or
national origin, be excluded from participation in, be denied the benefits of, or be subjected to
discrimination under any program or activity receiving Federal financial assistance. To implement
the Title VI enforcement, Congress vested the President with the authority to approve all rules,
regulations, and orders issued by Federal agencies. The President has delegated his Title VI
coordination functions to the Attorney General in a series of Executive orders.

Title VI remains the broadest instrument available to eliminate racial and ethnic discrimination. Title
VI applies to approximately 27 Federal agencies administering more than 1,000 programs and
distributing annually an estimated $900 billion in Federal financial assistance.

Equal Credit Opportunity Act




USDA/OIG-A/50801-3-Hq                                                                              46
The Equal Credit Opportunity Act, as amended, prohibits discrimination in credit based on sex,
marital status, race, color, religion, national origin, age (provided the applicant has the capacity to
contract), because all or part of the applicant's income is derived from public assistance of any kind,
or because the applicant has, in good faith, exercised any right under the Consumer Credit Protection
Act.

Enforcement of these laws in their application to FSA's farm loan programs is the joint responsibility
of the Department of Agriculture and the Department of Justice.




USDA/OIG-A/50801-3-Hq                                                                              47
EXHIBIT A - SECRETARY'S REQUEST FOR REVIEW




USDA/OIG-A/50801-3-Hq                        48
EXHIBIT A - SECRETARY'S REQUEST FOR REVIEW




USDA/OIG-A/50801-3-Hq                        49
EXHIBIT B - SITES VISITED
                                        County Where Service Center is   Counties Serviced by
        State           Target County
                                                 Located                   Servicing Center

                                                                             Geneva
                                                                              Henry
                          Geneva                  Geneva                     Houston
                                                                             Barbour
                                                                              Dale

                                                                             Madison
                                                                            Limestone
                         Madison                  Jackson
                                                                             Jackson
      Alabama
                                                                            Marshall

                                                                           Montgomery
                                                                             Elmore
                                                                             Macon
                        Montgomery                Elmore                     Bullock
                                                                               Lee
                                                                             Russell
                                                                            Chambers

                                                                             Poinsett
                                                                            Crittenden
                         Poinsett                 Poinsett
                                                                            Mississippi
                                                                             Jackson

     Arkansas             Phillips                Phillips                    Phillips

                                                                               Cross
                                                                                Lee
                            Lee                    Cross
                                                                            Woodruff
                                                                            St. Francis

                                                                            Riverside
                                                                            Imperial
                         Riverside               Riverside
                                                                           San Diego
                                                                         San Bernardino

                                                                              Fresno
                          Fresno                  Fresno
                                                                              Madera

     California                                                           San Joaquin
                                                                           Alameda
                                                                          Contra Costa
                                                                          Sacramento
                        San Joaquin            San Joaquin                  Amador
                                                                           Calaveras
                                                                           El Dorado
                                                                             Placer
                                                                            Nevada




USDA/OIG-A/50801-3-Hq                                                                    Page 50
EXHIBIT B - SITES VISITED
                                        County Where Service Center is   Counties Serviced by
       State            Target County
                                                 Located                   Servicing Center

                                                                             Tattnall
                                                                              Bryan
                                                                             Bullock
                                                                             Candler
                                                                             Chatham
                                                                            Effingham
                                                                             Emanuel
                         Tattnall                 Bullock
                                                                              Evans
                                                                             Jenkins
                                                                              Liberty
                                                                               Long
                                                                            McIntosh
                                                                             Screven
                                                                             Toombs

                                                                              Worth
      Georgia
                                                                              Baker
                                                                             Calhoun
                                                                              Clay
                                                                            Dougherty
                          Worth                   Terrell                     Early
                                                                               Lee
                                                                            Quitman
                                                                            Randolph
                                                                             Terrell
                                                                               Tift

                                                                             Brooks
                                                                             Colquitt
                          Brooks                  Colquitt                    Cook
                                                                             Mitchell
                                                                             Thomas

                        St. Landry              St. Landry                  St. Landry

                         Richland                Richland                    Richland
     Louisiana
                                                                             Caddo
                          Caddo                    Caddo                     Bossier
                                                                             Webster




USDA/OIG-A/50801-3-Hq                                                                   Page 51
EXHIBIT B - SITES VISITED
                                        County Where Service Center is   Counties Serviced by
         State          Target County
                                                 Located                   Servicing Center

                                                                              Hinds
                                                                             Warren
                           Hinds                  Warren
                                                                             Sharkey
                                                                            Issaquena

     Mississippi                                                             Marshall
                         Marshall                 Panola                      Panola
                                                                               Tate

                                                                             Winston
                         Winston                 Noxubee
                                                                             Noxubee

                                                                             Granville
                                                                             Chatham
                                                                               Wake
                         Granville                 Wake                       Harnett
                                                                             Johnston
                                                                               Lee
                                                                              Vance

                                                                            Duplin
                                                                            Pender
    North Carolina        Duplin                 Sampson                    Wayne
                                                                           Sampson
                                                                          New Hanover

                                                                            Columbus
                                                                           Brunswick
                                                                             Bladen
                        Columbus                Columbus                   Cumberland
                                                                              Hoke
                                                                             Robeson
                                                                            Scotland

                                                                            Choctaw
                         Choctaw                 Choctaw
                                                                            McCurtain

                                                                            Cherokee
                                                                              Adair
      Oklahoma           Cherokee                Cherokee                   Sequoyah
                                                                            Muskogee
                                                                            Wagoner

                                                                               Grady
                          Grady                    Grady
                                                                               Caddo




USDA/OIG-A/50801-3-Hq                                                                   Page 52
EXHIBIT B - SITES VISITED
                                        County Where Service Center is   Counties Serviced by
         State          Target County
                                                 Located                   Servicing Center

                                                                           Orangeburg
                                                                            Calhoun
                        Orangeburg             Orangeburg
                                                                           Lexington
                                                                            Richland

                                                                           Clarendon
                         Clarendon              Clarendon
                                                                          Williamsburg
    South Carolina
                                                                            Anderson
                                                                           Greenville
                                                                             Oconee
                         Anderson                Anderson                    Pickens
                                                                            Abbeville
                                                                           Greenwood
                                                                           McCormick

                                                                            Guadalupe
                                                                             Atascosa
                                                                              Bexar
                                                                              Blanco
                         Guadalupe              Guadalupe
                                                                              Comel
                                                                              Hayes
                                                                              Travis
                                                                             Wilson

        Texas                                                             Nacogdoches
                                                                           Angelina
                        Nacogdoches           Nacogdoches                    Gregg
                                                                             Rush
                                                                            Trinity

                                                                             Hidalgo
                                                                             Cameron
                          Hidalgo                 Willacy
                                                                              Starr
                                                                             Willacy

                                                                             Franklin
                                                                              Patrick
                                                                               Henry
                         Franklin                Franklin
                                                                              Bedford
                                                                             Campbell
                                                                             Amherst
       Virginia
                                                                             Halifax
                          Halifax              Pittsylvania                Pittsylvania
                                                                            Charlotte

                                                                          Mecklenburg
                        Mecklenburg             Lunenburg                  Lunenburg
                                                                           Brunswick




USDA/OIG-A/50801-3-Hq                                                                   Page 53
EXHIBIT C - RACIAL MAKEUP OF COUNTY OFFICE EMPLOYEES AND AG CREDIT STAFF


                                                                 African                       Native
              State          County Office   Total    White     American Hispanic   Asian     American
         Alabama            Geneva               10           9          0      0           0         1

                            Madison              9            8        1       0            0        0

                            Montgomery           4         3           1       0            0        0
         Arkansas           Poinsett            12        11           1       0            0        0

                            Phillips            10            9        1       0            0        0

                            Lee                  9         5           4       0            0        0
         California         Fresno              16        11           1       2            2        0

                            Riverside            8            6        0       2            0        0

                            San Joaquin         12            9        1       1            1        0
         Georgia            Tattnall             8            7        1       0            0        0

                            Worth               12        10           2       0            0        0

                            Brooks              12        10           2       0            0        0
         Louisiana          Caddo                6         3           3       0            0        0

                            Richland            13        12           1       0            0        0

                            St. Landry          10        10           0       0            0        0
         Mississippi        Hinds                7         4           3       0            0        0

                            Marshall             8            7        1       0            0        0

                            Winston              6         6           0       0            0        0
         North Carolina     Columbus            16        14           1       0            0        1

                            Duplin              12        10           2       0            0        0

                            Granville           10            9        1       0            0        0
         Oklahoma           Cherokee             6            5        0       0            0        1

                            Grady                7            7        0       0            0        0

                            Choctaw              6            5        0       0            0        1




Source: FSA Office Staffs
USDA/OIG-A/50801-3-Hq                                                                                     Page 55
EXHIBIT C - RACIAL MAKEUP OF COUNTY OFFICE EMPLOYEES AND AG CREDIT STAFF


                                                                    African                       Native
              State          County Office   Total       White     American Hispanic   Asian     American
         South Carolina     Anderson                 5           5          0      0           0         0

                            Clarendon                9           5        4       0            0        0

                            Orangeburg           10              9        1       0            0        0
         Texas              Guadalupe             6              6        0       0            0        0

                            Hidalgo              14              5        0       9            0        0

                            Nacogdoches              7           7        0       0            0        0
         Virginia           Franklin                 7           6        1       0            0        0

                            Halifax              10              9        1       0            0        0

                            Mecklenburg          10           7           3       0            0        0
         Totals                                 307         249          37      14            3        4




Source: FSA Office Staffs
USDA/OIG-A/50801-3-Hq                                                                                        Page 56
EXHIBIT D - FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - STATES
                                                                                   African          Native
                        Decision        Average Days        Total   White         American         American         Asian             Hispanic
State of Alabama        Approved No. of Applications          136      120    88%         16   12%         0   0%           0   0%           0   0%
                                 Receipt to Completion                   25               26               0                0                0
                                 Completion to Approval                  19               13               0                0                0
                                 Approval to Loan Closing                21               16               0                0                0

                        Rejected   No. of Applications         24       21    88%         2    8%          1   4%           0   0%          0    0%
                                   Receipt to Completion                17               18                0                0               0
                                   Completion to Rejected                3                0                0                0               0

                        Withdrawn No. of Applications          38       29    76%         8    21%         1   3%           0   0%          0    0%
                                  Receipt to Completion                  3                5                0                0               0
                                  Completion to Withdrawn                6                0                0                0               0

State of Arkansas       Approved No. of Applications          593      514    87%        77    13%         2   0%           0   0%          0    0%
                                 Receipt to Completion                  17               27                0                0               0
                                 Completion to Approval                 11               12               12                0               0
                                 Approval to Loan Closing               20               18               14                0               0

                        Rejected   No. of Applications         56       40    71%        16    29%         0   0%           0   0%          0    0%
                                   Receipt to Completion                 9               25                0                0               0
                                   Completion to Rejected                7                3                0                0               0

                        Withdrawn No. of Applications         229      206    90%        23    10%         0   0%           0   0%          0    0%
                                  Receipt to Completion                 12               16                0                0               0
                                  Completion to Withdrawn               11                6                0                0               0

State of California     Approved No. of Applications          217      180    83%         1    0%          9   4%       18      8%          9    4%
                                 Receipt to Completion                  53               99               25            35                 83
                                 Completion to Approval                 30                0               50            37                 32
                                 Approval to Loan Closing               33               21               32            24                 47

                        Rejected   No. of Applications         32       29    91%         1    3%          0   0%        2      6%          0    0%
                                   Receipt to Completion                39               37                0            16                  0
                                   Completion to Rejected               31               97                0             0                  0

                        Withdrawn No. of Applications          74       60    81%         1    1%          0   0%       12      16%         1    1%
                                  Receipt to Completion                 11                0                0             0                  0
                                  Completion to Withdrawn               18                0                0             0                  0




Source: APPL Database
USDA/OIG-A/50801-3-Hq                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                       Page 56
EXHIBIT D - FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - STATES
                                                                                   African          Native
                        Decision        Average Days        Total   White         American         American          Asian            Hispanic
State of Georgia        Approved No. of Applications          234      199    85%         31   13%          4   2%           0   0%          0   0%
                                 Receipt to Completion                   21               24               48                0               0
                                 Completion to Approval                  22               36               24                0               0
                                 Approval to Loan Closing                27               38               26                0               0

                        Rejected   No. of Applications         64       44    69%        19    30%         1    2%           0   0%         0    0%
                                   Receipt to Completion                18               29                0                 0              0
                                   Completion to Rejected               27               23                0                 0              0

                        Withdrawn No. of Applications          68       52    76%        16    24%         0    0%           0   0%         0    0%
                                  Receipt to Completion                  9                2                0                 0              0
                                  Completion to Withdrawn               24                0                0                 0              0

State of Louisiana      Approved No. of Applications          362      313    86%        44    12%         2    1%           0   0%         3    1%
                                 Receipt to Completion                  22               21               19                 0             47
                                 Completion to Approval                 21               26               13                 0             14
                                 Approval to Loan Closing               29               30               25                 0             21

                        Rejected   No. of Applications        113       92    81%        21    19%         0    0%           0   0%         0    0%
                                   Receipt to Completion                19               26                0                 0              0
                                   Completion to Rejected               22               17                0                 0              0

                        Withdrawn No. of Applications         174      135    78%        35    20%         4    2%           0   0%         0    0%
                                  Receipt to Completion                  7                9                0                 0              0
                                  Completion to Withdrawn               19               12                0                 0              0

State of Mississippi    Approved No. of Applications          562      478    85%        82    15%         0    0%           0   0%         2    0%
                                 Receipt to Completion                  45               50                0                 0             13
                                 Completion to Approval                 14               20                0                 0              9
                                 Approval to Loan Closing               31               28                0                 0             15

                        Rejected   No. of Applications         38       29    76%         9    24%         0    0%           0   0%         0    0%
                                   Receipt to Completion                11               11                0                 0              0
                                   Completion to Rejected                9                6                0                 0              0

                        Withdrawn No. of Applications         111       82    74%        29    26%         0    0%           0   0%         0    0%
                                  Receipt to Completion                 18               20                0                 0              0
                                  Completion to Withdrawn               13               21                0                 0              0




Source: APPL Database
USDA/OIG-A/50801-3-Hq                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                       Page 57
EXHIBIT D - FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - STATES
                                                                                     African          Native
                          Decision        Average Days        Total   White         American         American          Asian            Hispanic
State of North Carolina   Approved No. of Applications          355      300    85%         50   14%          5   1%           0   0%          0   0%
                                   Receipt to Completion                   27               40               62                0               0
                                   Completion to Approval                  18               14               14                0               0
                                   Approval to Loan Closing                24               19               17                0               0

                          Rejected   No. of Applications         40       30    75%         7    18%         1    3%           0   0%         2    5%
                                     Receipt to Completion                35               34               85                 0             31
                                     Completion to Rejected               16                9                6                 0             25

                          Withdrawn No. of Applications          76       70    92%         4     5%         0    0%           0   0%         2    3%
                                    Receipt to Completion                 11                0                0                 0             44
                                    Completion to Withdrawn               19               31                0                 0              0

State of Oklahoma         Approved No. of Applications          499      455    91%         7     1%        35    7%           0   0%         2    0%
                                   Receipt to Completion                  45               10               33                 0             20
                                   Completion to Approval                 21               45               16                 0              0
                                   Approval to Loan Closing               39               21               56                 0             71

                          Rejected   No. of Applications         66       60    91%         6     9%         0    0%           0   0%         0    0%
                                     Receipt to Completion                16               12                0                 0              0
                                     Completion to Rejected               13                4                0                 0              0

                          Withdrawn No. of Applications         139      120    86%         7     5%        12    9%           0   0%         0    0%
                                    Receipt to Completion                 17                7               32                 0              0
                                    Completion to Withdrawn               23                1               20                 0              0

State of South Carolina   Approved No. of Applications          136      108    79%        26    19%         2    1%           0   0%         0    0%
                                   Receipt to Completion                  40               56                0                 0              0
                                   Completion to Approval                 20               11               26                 0              0
                                   Approval to Loan Closing               19               20               11                 0              0

                          Rejected   No. of Applications         35       31    89%         4    11%         0    0%           0   0%         0    0%
                                     Receipt to Completion                15               15                0                 0              0
                                     Completion to Rejected                8               11                0                 0              0

                          Withdrawn No. of Applications          54       35    65%        18    33%         1    2%           0   0%         0    0%
                                    Receipt to Completion                 24               27                0                 0              0
                                    Completion to Withdrawn               12                8                0                 0              0




Source: APPL Database
USDA/OIG-A/50801-3-Hq                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                       Page 58
EXHIBIT D - FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - STATES
                                                                                             African               Native
                        Decision        Average Days             Total     White            American              American                   Asian            Hispanic
State of Texas          Approved No. of Applications              1629       1449       89%         31         2%          3        0%            6      0%        140   9%
                                 Receipt to Completion                          26                  57                    25                     36                 23
                                 Completion to Approval                         46                  34                    27                     71                 41
                                 Approval to Loan Closing                       21                  20                    26                     34                 21

                        Rejected   No. of Applications              301        246      82%           11       4%             5     2%               0   0%        39    13%
                                   Receipt to Completion                        36                    34                      7                      0             29
                                   Completion to Rejected                       37                    41                     44                      0             63

                        Withdrawn No. of Applications               706        636      90%           19       3%             4     1%            3      0%        44    6%
                                  Receipt to Completion                         19                    14                     13                  51                21
                                  Completion to Withdrawn                       40                    15                     59                  80                46

State of Virginia       Approved No. of Applications                183        168      92%           15       8%             0     0%               0   0%         0    0%
                                 Receipt to Completion                          48                    48                      0                      0              0
                                 Completion to Approval                         21                    26                      0                      0              0
                                 Approval to Loan Closing                       40                    34                      0                      0              0

                        Rejected   No. of Applications               32         24      75%            8      25%             0     0%               0   0%         0    0%
                                   Receipt to Completion                        24                    15                      0                      0              0
                                   Completion to Rejected                       22                    17                      0                      0              0

                        Withdrawn No. of Applications                52         40      77%           12      23%             0     0%               0   0%         0    0%
                                  Receipt to Completion                         13                    39                      0                      0              0
                                  Completion to Withdrawn                       17                    16                      0                      0              0

11-State Averages       Approved No. of Applications              4906       4284       87%          380       8%            62     1%           24      0%       156    3%
                                 Receipt to Completion                         31                     38                     32                  35                27
                                 Completion to Approval                        28                     20                     22                  46                39
                                 Approval to Loan Closing                      26                     24                     42                  27                23
                                 Receipt to Loan Closing (a)                   85                     83                     96                 107                89

                        Rejected   No. of Applications              801        646      81%          104      13%             8     1%            2      0%        41    5%
                                   Receipt to Completion                        26                    24                     15                  16                29
                                   Completion to Rejected                       25                    16                     28                   0                61

                        Withdrawn No. of Applications             1721       1465       85%          172      10%            22     1%           15      1%        47    3%
                                  Receipt to Completion                        15                     15                     20                  10                22
                                  Completion to Withdrawn                      27                     11                     22                  16                43

                                   Total Applications             7428       6395       86%          656       9%            92     1%           41      1%       244    3%

                                   (a) Combined average number of days to process a minority loan from receipt to loan closing is 87 days.




Source: APPL Database
USDA/OIG-A/50801-3-Hq                                   THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                            Page 59
EXHIBIT D - FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
       County Where Service                                                               African          Native
 State   Office is Located    Decision        Average Days        Total    White         American         American         Asian            Hispanic
  AL ELMORE                   Approved No. of Applications            27        22   81%          5   19%         0   0%           0   0%          0   0%
                                       Receipt to Completion                    35                5               0                0               0
                                       Completion to Approval                   30                4               0                0               0
                                       Approval to Loan Closing                 22               17               0                0               0

                              Rejected   No. of Applications          3         2    67%         1    33%         0   0%           0   0%         0    0%
                                         Receipt to Completion                 53                0                0                0              0
                                         Completion to Rejected                 8                0                0                0              0

                              Withdrawn No. of Applications           9         5    56%         4    44%         0   0%           0   0%         0    0%
                                        Receipt to Completion                   0                0                0                0              0
                                        Completion to Withdrawn                 0                0                0                0              0

  AL   GENEVA                 Approved No. of Applications            5         3    60%         2    40%         0   0%           0   0%         0    0%
                                       Receipt to Completion                   19                7                0                0              0
                                       Completion to Approval                  14                2                0                0              0
                                       Approval to Loan Closing                12               17                0                0              0

                              Rejected   No. of Applications          6         6    100%        0    0%          0   0%           0   0%         0    0%
                                         Receipt to Completion                  0                0                0                0              0
                                         Completion to Rejected                 0                0                0                0              0

                              Withdrawn No. of Applications           5         5    100%        0    0%          0   0%           0   0%         0    0%
                                        Receipt to Completion                   0                0                0                0              0
                                        Completion to Withdrawn                 0                0                0                0              0

  AL   JACKSON                Approved No. of Applications           13        13    100%        0    0%          0   0%           0   0%         0    0%
                                       Receipt to Completion                   23                0                0                0              0
                                       Completion to Approval                  21                0                0                0              0
                                       Approval to Loan Closing                17                0                0                0              0

                              Rejected   No. of Applications          0         0     0%         0    0%          0   0%           0   0%         0    0%
                                         Receipt to Completion                  0                0                0                0              0
                                         Completion to Rejected                 0                0                0                0              0

                              Withdrawn No. of Applications           0         0     0%         0    0%          0   0%           0   0%         0    0%
                                        Receipt to Completion                   0                0                0                0              0
                                        Completion to Withdrawn                 0                0                0                0              0




Source: APPL Database
USDA/OIG-A/50801-3-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                       Page 60
EXHIBIT D - FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
       County Where Service                                                               African          Native
 State   Office is Located    Decision        Average Days        Total    White         American         American         Asian            Hispanic
  AR CROSS                    Approved No. of Applications            63        48   76%         15   24%         0   0%           0   0%          0   0%
                                       Receipt to Completion                    32               41               0                0               0
                                       Completion to Approval                   15                9               0                0               0
                                       Approval to Loan Closing                 14               23               0                0               0

                              Rejected   No. of Applications          2         1    50%         1    50%         0   0%           0   0%         0    0%
                                         Receipt to Completion                 14               64                0                0              0
                                         Completion to Rejected                 0               18                0                0              0

                              Withdrawn No. of Applications          32        26    81%         6    19%         0   0%           0   0%         0    0%
                                        Receipt to Completion                  24               13                0                0              0
                                        Completion to Withdrawn                14                0                0                0              0

  AR   PHILLIPS               Approved No. of Applications           44        24    55%        20    45%         0   0%           0   0%         0    0%
                                       Receipt to Completion                   31               29                0                0              0
                                       Completion to Approval                   7               10                0                0              0
                                       Approval to Loan Closing                17               14                0                0              0

                              Rejected   No. of Applications          5         1    20%         4    80%         0   0%           0   0%         0    0%
                                         Receipt to Completion                  0                0                0                0              0
                                         Completion to Rejected                28                0                0                0              0

                              Withdrawn No. of Applications          14         9    64%         5    36%         0   0%           0   0%         0    0%
                                        Receipt to Completion                  31               43                0                0              0
                                        Completion to Withdrawn                 6               20                0                0              0

  AR   POINSETT               Approved No. of Applications           66        55    83%        11    17%         0   0%           0   0%         0    0%
                                       Receipt to Completion                   20               21                0                0              0
                                       Completion to Approval                  13                5                0                0              0
                                       Approval to Loan Closing                18               16                0                0              0

                              Rejected   No. of Applications          1         1    100%        0    0%          0   0%           0   0%         0    0%
                                         Receipt to Completion                  0                0                0                0              0
                                         Completion to Rejected                 0                0                0                0              0

                              Withdrawn No. of Applications          37        33    89%         4    11%         0   0%           0   0%         0    0%
                                        Receipt to Completion                  11                7                0                0              0
                                        Completion to Withdrawn                10                5                0                0              0




Source: APPL Database
USDA/OIG-A/50801-3-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                       Page 61
EXHIBIT D - FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
       County Where Service                                                                       African               Native
 State   Office is Located    Decision        Average Days            Total     White            American              American                Asian             Hispanic
  CA FRESNO                   Approved No. of Applications                26         21      81%          1         4%         0         0%           3    12%          1      4%
                                       Receipt to Completion                         73                  99                    0                     22               143
                                       Completion to Approval                        50                   0                    0                     47                39
                                       Approval to Loan Closing                      36                  21                    0                     23               106

                              Rejected   No. of Applications               9          7      78%             0      0%            0      0%           2    22%           0     0%
                                         Receipt to Completion                       17                      0                    0                  16                  0
                                         Completion to Rejected                      23                      0                    0                   0                  0

                              Withdrawn No. of Applications               19         15      79%             0      0%            0      0%            4   21%           0     0%
                                        Receipt to Completion                        21                      0                    0                    0                 0
                                        Completion to Withdrawn                      39                      0                    0                    0                 0

  CA   RIVERSIDE              Approved No. of Applications                 5          4      80%             0      0%            0      0%            0    0%           1     20%
                                       Receipt to Completion                         91                      0                    0                    0                91
                                       Completion to Approval                        22                      0                    0                    0                 0
                                       Approval to Loan Closing                      18                      0                    0                    0                14

                              Rejected   No. of Applications               0          0       0%             0      0%            0      0%            0    0%           0     0%
                                         Receipt to Completion                        0                      0                    0                    0                 0
                                         Completion to Rejected                       0                      0                    0                    0                 0

                              Withdrawn No. of Applications                0          0       0%             0      0%            0      0%            0    0%           0     0%
                                        Receipt to Completion                         0                      0                    0                    0                 0
                                        Completion to Withdrawn                       0                      0                    0                    0                 0

                                         This county was not using FSA's automated application tracking system; therefore this data was not obtained from the APPL Database.
                                         Data obtained during fieldwork in servicing office.

  CA   SAN JOAQUIN            Approved No. of Applications                14         14     100%             0      0%            0      0%            0    0%           0     0%
                                       Receipt to Completion                         52                      0                    0                    0                 0
                                       Completion to Approval                        21                      0                    0                    0                 0
                                       Approval to Loan Closing                      27                      0                    0                    0                 0

                              Rejected   No. of Applications               5          5     100%             0      0%            0      0%            0    0%           0     0%
                                         Receipt to Completion                       32                      0                    0                    0                 0
                                         Completion to Rejected                       0                      0                    0                    0                 0

                              Withdrawn No. of Applications                5          4      80%             0      0%            0      0%            1   20%           0     0%
                                        Receipt to Completion                         0                      0                    0                    0                 0
                                        Completion to Withdrawn                       0                      0                    0                    0                 0




Source: APPL Database
USDA/OIG-A/50801-3-Hq                                      THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                               Page 62
EXHIBIT D - FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
       County Where Service                                                               African         Native
 State   Office is Located    Decision        Average Days        Total    White         American        American         Asian            Hispanic
  GA TERRELL                  Approved No. of Applications            46        44   96%          2   4%         0   0%           0   0%          0   0%
                                       Receipt to Completion                    23               42              0                0               0
                                       Completion to Approval                   24               89              0                0               0
                                       Approval to Loan Closing                 35               20              0                0               0

                              Rejected   No. of Applications         11         4    36%         7    64%        0   0%           0   0%         0    0%
                                         Receipt to Completion                 56               35               0                0              0
                                         Completion to Rejected                15               34               0                0              0

                              Withdrawn No. of Applications           1         1    100%        0    0%         0   0%           0   0%         0    0%
                                        Receipt to Completion                   0                0               0                0              0
                                        Completion to Withdrawn               259                0               0                0              0

 GA    COLQUITT               Approved No. of Applications           49        41    84%         8    16%        0   0%           0   0%         0    0%
                                       Receipt to Completion                   23               40               0                0              0
                                       Completion to Approval                  27               26               0                0              0
                                       Approval to Loan Closing                25               17               0                0              0

                              Rejected   No. of Applications          3         3    100%        0    0%         0   0%           0   0%         0    0%
                                         Receipt to Completion                  0                0               0                0              0
                                         Completion to Rejected                 0                0               0                0              0

                              Withdrawn No. of Applications          12         9    75%         3    25%        0   0%           0   0%         0    0%
                                        Receipt to Completion                  12                0               0                0              0
                                        Completion to Withdrawn                 7                0               0                0              0

 GA    BULLOCK                Approved No. of Applications           47        37    79%        10    21%        0   0%           0   0%         0    0%
                                       Receipt to Completion                   19               16               0                0              0
                                       Completion to Approval                  16               31               0                0              0
                                       Approval to Loan Closing                23               42               0                0              0

                              Rejected   No. of Applications         20        14    70%         6    30%        0   0%           0   0%         0    0%
                                         Receipt to Completion                 17               28               0                0              0
                                         Completion to Rejected                17               15               0                0              0

                              Withdrawn No. of Applications          18        13    72%         5    28%        0   0%           0   0%         0    0%
                                        Receipt to Completion                  13                0               0                0              0
                                        Completion to Withdrawn                25                0               0                0              0




Source: APPL Database
USDA/OIG-A/50801-3-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                      Page 63
EXHIBIT D - FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
       County Where Service                                                                     African         Native
 State   Office is Located    Decision        Average Days        Total       White            American        American         Asian            Hispanic
  LA CADDO                    Approved No. of Applications                9        9      100%          0   0%         0   0%           0   0%          0   0%
                                       Receipt to Completion                      17                    0              0                0               0
                                       Completion to Approval                     16                    0              0                0               0
                                       Approval to Loan Closing                   36                    0              0                0               0

                              Rejected   No. of Applications              0           0     0%         0    0%         0   0%           0   0%         0    0%
                                         Receipt to Completion                        0                0               0                0              0
                                         Completion to Rejected                       0                0               0                0              0

                              Withdrawn No. of Applications               0           0     0%         0    0%         0   0%           0   0%         0    0%
                                        Receipt to Completion                         0                0               0                0              0
                                        Completion to Withdrawn                       0                0               0                0              0

  LA   RICHLAND               Approved No. of Applications            60          59       98%         1    2%         0   0%           0   0%         0    0%
                                       Receipt to Completion                      17                   9               0                0              0
                                       Completion to Approval                     40                  21               0                0              0
                                       Approval to Loan Closing                   25                  19               0                0              0

                              Rejected   No. of Applications          14          10       71%         4    29%        0   0%           0   0%         0    0%
                                         Receipt to Completion                    22                  50               0                0              0
                                         Completion to Rejected                   68                  27               0                0              0

                              Withdrawn No. of Applications           40          33       83%         7    18%        0   0%           0   0%         0    0%
                                        Receipt to Completion                      9                   5               0                0              0
                                        Completion to Withdrawn                   37                  30               0                0              0

  LA   ST. LANDRY             Approved No. of Applications            11           9       82%         2    18%        0   0%           0   0%         0    0%
                                       Receipt to Completion                      26                   5               0                0              0
                                       Completion to Approval                      4                  38               0                0              0
                                       Approval to Loan Closing                   33                  15               0                0              0

                              Rejected   No. of Applications              1           1   100%         0    0%         0   0%           0   0%         0    0%
                                         Receipt to Completion                        0                0               0                0              0
                                         Completion to Rejected                       0                0               0                0              0

                              Withdrawn No. of Applications               3           2    67%         1    33%        0   0%           0   0%         0    0%
                                        Receipt to Completion                         0                0               0                0              0
                                        Completion to Withdrawn                       0                0               0                0              0




Source: APPL Database
USDA/OIG-A/50801-3-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                            Page 64
EXHIBIT D - FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
       County Where Service                                                                       African               Native
 State   Office is Located    Decision        Average Days            Total     White            American              American                Asian             Hispanic
  MS NOXUBEE                  Approved No. of Applications                32         30      94%          2         6%         0         0%            0    0%          0      0%
                                       Receipt to Completion                         46                  39                    0                       0                0
                                       Completion to Approval                        15                   2                    0                       0                0
                                       Approval to Loan Closing                      30                  25                    0                       0                0

                              Rejected   No. of Applications               0          0       0%             0      0%            0      0%            0    0%           0     0%
                                         Receipt to Completion                        0                      0                    0                    0                 0
                                         Completion to Rejected                       0                      0                    0                    0                 0

                              Withdrawn No. of Applications                4          3      75%             1    25%             0      0%            0    0%           0     0%
                                        Receipt to Completion                         0                      0                    0                    0                 0
                                        Completion to Withdrawn                       0                      0                    0                    0                 0

 MS    PANOLA                 Approved No. of Applications                 7          6      86%            1     14%             0      0%            0    0%           0     0%
                                       Receipt to Completion                          4                    22                     0                    0                 0
                                       Completion to Approval                        15                    25                     0                    0                 0
                                       Approval to Loan Closing                      26                    15                     0                    0                 0

                              Rejected   No. of Applications               0          0       0%             0      0%            0      0%            0    0%           0     0%
                                         Receipt to Completion                        0                      0                    0                    0                 0
                                         Completion to Rejected                       0                      0                    0                    0                 0

                              Withdrawn No. of Applications                2          2     100%             0      0%            0      0%            0    0%           0     0%
                                        Receipt to Completion                         0                      0                    0                    0                 0
                                        Completion to Withdrawn                       0                      0                    0                    0                 0

                                         This county was not using FSA's automated application tracking system; therefore this data was not obtained from the APPL Database.
                                         Data obtained during fieldwork in servicing office.

 MS    WARREN                 Approved No. of Applications                 3          3     100%             0      0%            0      0%            0    0%           0     0%
                                       Receipt to Completion                         47                      0                    0                    0                 0
                                       Completion to Approval                        12                      0                    0                    0                 0
                                       Approval to Loan Closing                      17                      0                    0                    0                 0

                              Rejected   No. of Applications               1          1     100%             0      0%            0      0%            0    0%           0     0%
                                         Receipt to Completion                        0                      0                    0                    0                 0
                                         Completion to Rejected                       0                      0                    0                    0                 0

                              Withdrawn No. of Applications                0          0       0%             0      0%            0      0%            0    0%           0     0%
                                        Receipt to Completion                         0                      0                    0                    0                 0
                                        Completion to Withdrawn                       0                      0                    0                    0                 0




Source: APPL Database
USDA/OIG-A/50801-3-Hq                                      THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                              Page 65
EXHIBIT D - FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
       County Where Service                                                               African          Native
 State   Office is Located    Decision        Average Days        Total    White         American         American           Asian            Hispanic
  NC COLUMBUS                 Approved No. of Applications            41        29   71%          7   17%          5   12%           0   0%          0   0%
                                       Receipt to Completion                    40               26               62                 0               0
                                       Completion to Approval                   37               19               14                 0               0
                                       Approval to Loan Closing                 14               16               17                 0               0

                              Rejected   No. of Applications          6         2    33%         3    50%         1    17%           0   0%         0    0%
                                         Receipt to Completion                111               68               85                  0              0
                                         Completion to Rejected                45               20                6                  0              0

                              Withdrawn No. of Applications           5         5    100%        0     0%         0    0%            0   0%         0    0%
                                        Receipt to Completion                  21                0                0                  0              0
                                        Completion to Withdrawn                20                0                0                  0              0

 NC    WAKE                   Approved No. of Applications           24        20    83%         4    17%         0    0%            0   0%         0    0%
                                       Receipt to Completion                   29               76                0                  0              0
                                       Completion to Approval                  29               11                0                  0              0
                                       Approval to Loan Closing                28               17                0                  0              0

                              Rejected   No. of Applications          1         1    100%        0     0%         0    0%            0   0%         0    0%
                                         Receipt to Completion                  0                0                0                  0              0
                                         Completion to Rejected                 0                0                0                  0              0

                              Withdrawn No. of Applications           5         4    80%         1    20%         0    0%            0   0%         0    0%
                                        Receipt to Completion                   0                0                0                  0              0
                                        Completion to Withdrawn                 0                0                0                  0              0

 NC    SAMPSON                Approved No. of Applications           27        22    81%         5    19%         0    0%            0   0%         0    0%
                                       Receipt to Completion                   20               10                0                  0              0
                                       Completion to Approval                  24                5                0                  0              0
                                       Approval to Loan Closing                17               31                0                  0              0

                              Rejected   No. of Applications          8         8    100%        0     0%         0    0%            0   0%         0    0%
                                         Receipt to Completion                 24                0                0                  0              0
                                         Completion to Rejected                21                0                0                  0              0

                              Withdrawn No. of Applications           5         5    100%        0     0%         0    0%            0   0%         0    0%
                                        Receipt to Completion                   1                0                0                  0              0
                                        Completion to Withdrawn                 6                0                0                  0              0




Source: APPL Database
USDA/OIG-A/50801-3-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                         Page 66
EXHIBIT D - FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
       County Where Service                                                               African         Native
 State   Office is Located    Decision        Average Days        Total    White         American        American           Asian            Hispanic
  OK CHEROKEE                 Approved No. of Applications            37        26   70%          0   0%         11   30%           0   0%          0   0%
                                       Receipt to Completion                    50                0              49                 0               0
                                       Completion to Approval                   23                0              13                 0               0
                                       Approval to Loan Closing                 17                0              25                 0               0

                              Rejected   No. of Applications          6         4    67%         2    33%         0   0%            0   0%         0    0%
                                         Receipt to Completion                 23               21                0                 0              0
                                         Completion to Rejected                 4                1                0                 0              0

                              Withdrawn No. of Applications           3         2    67%         1    33%         0   0%            0   0%         0    0%
                                        Receipt to Completion                  80               47                0                 0              0
                                        Completion to Withdrawn                32                0                0                 0              0

 OK    CHOCTAW                Approved No. of Applications            8         6    75%         0    0%         2    25%           0   0%         0    0%
                                       Receipt to Completion                   42                0              31                  0              0
                                       Completion to Approval                  13                0               5                  0              0
                                       Approval to Loan Closing                14                0              10                  0              0

                              Rejected   No. of Applications          1         1    100%        0    0%          0   0%            0   0%         0    0%
                                         Receipt to Completion                 32                0                0                 0              0
                                         Completion to Rejected                28                0                0                 0              0

                              Withdrawn No. of Applications           1         1    100%        0    0%          0   0%            0   0%         0    0%
                                        Receipt to Completion                   0                0                0                 0              0
                                        Completion to Withdrawn                 2                0                0                 0              0

 OK    GRADY                  Approved No. of Applications           12         9    75%         0    0%         3    25%           0   0%         0    0%
                                       Receipt to Completion                  119                0              65                  0              0
                                       Completion to Approval                  17                0              35                  0              0
                                       Approval to Loan Closing                39                0              14                  0              0

                              Rejected   No. of Applications          5         5    100%        0    0%          0   0%            0   0%         0    0%
                                         Receipt to Completion                 13                0                0                 0              0
                                         Completion to Rejected                 0                0                0                 0              0

                              Withdrawn No. of Applications           5         5    100%        0    0%          0   0%            0   0%         0    0%
                                        Receipt to Completion                   0                0                0                 0              0
                                        Completion to Withdrawn                 0                0                0                 0              0




Source: APPL Database
USDA/OIG-A/50801-3-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                        Page 67
EXHIBIT D - FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
       County Where Service                                                               African          Native
 State   Office is Located    Decision        Average Days        Total    White         American         American         Asian            Hispanic
  SC ANDERSON                 Approved No. of Applications            22        19   86%          3   14%         0   0%           0   0%          0   0%
                                       Receipt to Completion                    56               78               0                0               0
                                       Completion to Approval                   23                0               0                0               0
                                       Approval to Loan Closing                 30               42               0                0               0

                              Rejected   No. of Applications          6         6    100%        0    0%          0   0%           0   0%         0    0%
                                         Receipt to Completion                 27                0                0                0              0
                                         Completion to Rejected                 1                0                0                0              0

                              Withdrawn No. of Applications          10         8    80%         2    20%         0   0%           0   0%         0    0%
                                        Receipt to Completion                  66               31                0                0              0
                                        Completion to Withdrawn                11               38                0                0              0

  SC   CLARENDON              Approved No. of Applications           20        13    65%         7    35%         0   0%           0   0%         0    0%
                                       Receipt to Completion                   20               24                0                0              0
                                       Completion to Approval                   1                2                0                0              0
                                       Approval to Loan Closing                10               11                0                0              0

                              Rejected   No. of Applications          4         3    75%         1    25%         0   0%           0   0%         0    0%
                                         Receipt to Completion                  0                0                0                0              0
                                         Completion to Rejected                 0                0                0                0              0

                              Withdrawn No. of Applications          12         6    50%         6    50%         0   0%           0   0%         0    0%
                                        Receipt to Completion                   5                0                0                0              0
                                        Completion to Withdrawn                 3                0                0                0              0

  SC   ORANGEBURG             Approved No. of Applications           17        12    71%         5    29%         0   0%           0   0%         0    0%
                                       Receipt to Completion                   42              131                0                0              0
                                       Completion to Approval                  17               38                0                0              0
                                       Approval to Loan Closing                15               23                0                0              0

                              Rejected   No. of Applications          7         6    86%         1    14%         0   0%           0   0%         0    0%
                                         Receipt to Completion                  0               59                0                0              0
                                         Completion to Rejected                 0               11                0                0              0

                              Withdrawn No. of Applications           7         7    100%        0    0%          0   0%           0   0%         0    0%
                                        Receipt to Completion                   0                0                0                0              0
                                        Completion to Withdrawn                 0                0                0                0              0




Source: APPL Database
USDA/OIG-A/50801-3-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                       Page 68
EXHIBIT D - FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
       County Where Service                                                               African         Native
 State   Office is Located    Decision        Average Days        Total    White         American        American         Asian            Hispanic
  TX GUADALUPE                Approved No. of Applications            48        42   88%          1   2%         0   0%        1      2%          4    8%
                                       Receipt to Completion                    80               31              0           138                 57
                                       Completion to Approval                   55              235              0           133                  6
                                       Approval to Loan Closing                 15               44              0            13                 14

                              Rejected   No. of Applications         22        20    91%         1    5%         0   0%           0   0%         1     5%
                                         Receipt to Completion                 89               55               0                0             71
                                         Completion to Rejected                41               22               0                0              0

                              Withdrawn No. of Applications          12         9    75%         1    8%         0   0%        1      8%         1     8%
                                        Receipt to Completion                  16                0               0           140                 0
                                        Completion to Withdrawn                 2                0               0           168                 0

  TX   NACOGDOCHES            Approved No. of Applications            8         5    63%         3    38%        0   0%           0   0%         0     0%
                                       Receipt to Completion                   26               79               0                0              0
                                       Completion to Approval                  30                1               0                0              0
                                       Approval to Loan Closing                24               59               0                0              0

                              Rejected   No. of Applications          1         0     0%         0    0%         0   0%           0   0%         1    100%
                                         Receipt to Completion                  0                0               0                0             31
                                         Completion to Rejected                 0                0               0                0              4

                              Withdrawn No. of Applications           1         1    100%        0    0%         0   0%           0   0%         0     0%
                                        Receipt to Completion                   0                0               0                0              0
                                        Completion to Withdrawn                 0                0               0                0              0

  TX   WILLACY                Approved No. of Applications           72        34    47%         0    0%         0   0%           0   0%        38    53%
                                       Receipt to Completion                   40                0               0                0             32
                                       Completion to Approval                  69                0               0                0             43
                                       Approval to Loan Closing                42                0               0                0             28

                              Rejected   No. of Applications         27        18    67%         0    0%         0   0%           0   0%         9    33%
                                         Receipt to Completion                 45                0               0                0             28
                                         Completion to Rejected                62                0               0                0             45

                              Withdrawn No. of Applications          31        12    39%         0    0%         0   0%        1      3%        18    58%
                                        Receipt to Completion                  22                0               0             0                22
                                        Completion to Withdrawn                73                0               0            62                27




Source: APPL Database
USDA/OIG-A/50801-3-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                        Page 69
EXHIBIT D - FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
       County Where Service                                                               African         Native
 State   Office is Located    Decision        Average Days        Total    White         American        American         Asian            Hispanic
  VA PITTSYLVANIA             Approved No. of Applications            19        18   95%          1   5%         0   0%           0   0%          0   0%
                                       Receipt to Completion                    42                4              0                0               0
                                       Completion to Approval                   12               23              0                0               0
                                       Approval to Loan Closing                 37               21              0                0               0

                              Rejected   No. of Applications          0         0     0%         0    0%         0   0%           0   0%         0    0%
                                         Receipt to Completion                  0                0               0                0              0
                                         Completion to Rejected                 0                0               0                0              0

                              Withdrawn No. of Applications           0         0     0%         0    0%         0   0%           0   0%         0    0%
                                        Receipt to Completion                   0                0               0                0              0
                                        Completion to Withdrawn                 0                0               0                0              0

  VA   LUNENBURG              Approved No. of Applications           20        16    80%         4    20%        0   0%           0   0%         0    0%
                                       Receipt to Completion                   17               62               0                0              0
                                       Completion to Approval                  33               17               0                0              0
                                       Approval to Loan Closing                37               57               0                0              0

                              Rejected   No. of Applications          8         3    38%         5    63%        0   0%           0   0%         0    0%
                                         Receipt to Completion                 13                4               0                0              0
                                         Completion to Rejected                 1               18               0                0              0

                              Withdrawn No. of Applications           9         6    67%         3    33%        0   0%           0   0%         0    0%
                                        Receipt to Completion                  25                0               0                0              0
                                        Completion to Withdrawn                10                0               0                0              0

  VA   FRANKLIN               Approved No. of Applications           17        16    94%         1    6%         0   0%           0   0%         0    0%
                                       Receipt to Completion                   91              168               0                0              0
                                       Completion to Approval                  67                5               0                0              0
                                       Approval to Loan Closing                20               13               0                0              0

                              Rejected   No. of Applications          1         1    100%        0    0%         0   0%           0   0%         0    0%
                                         Receipt to Completion                  0                0               0                0              0
                                         Completion to Rejected                 0                0               0                0              0

                              Withdrawn No. of Applications           6         5    83%         1    17%        0   0%           0   0%         0    0%
                                        Receipt to Completion                   0               50               0                0              0
                                        Completion to Withdrawn                 0                0               0                0              0




Source: APPL Database
USDA/OIG-A/50801-3-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                      Page 70
EXHIBIT D - FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
       County Where Service                                                                  African          Native
 State    Office is Located   Decision        Average Days            Total   White         American         American          Asian         Hispanic
33 County Summary:            Approved No. of Applications              919      729    79%        121   13%         21   2%        4   0%         44   5%
                                       Receipt to Completion                       37               37               53            51              38
                                       Completion to Approval                      28               16               16            69              39
                                       Approval to Loan Closing                    24               23               20            21              28

                              Rejected   No. of Applications            184      134    73%        36    20%         1    1%        2   1%        11    6%
                                         Receipt to Completion                    33               29               85             16             32
                                         Completion to Rejected                   26               18                6              0             37

                              Withdrawn No. of Applications             313      236    75%        51    16%          0   0%        7   2%        19    6%
                                        Receipt to Completion                     15               10                 0            20             21
                                        Completion to Withdrawn                   19                8                 0            33             26

                                         Total Applications            1416     1099    78%       208    15%        22    2%       13   1%        74    5%




Source: APPL Database
USDA/OIG-A/50801-3-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                    Page 71
EXHIBIT E - 1951-S SERVICING ACTIONS IN THE COUNTIES REVIEWED
                       SERVICE        ACCOUNT                  UNIVERSE                       NO DECISION                         ONE DECISION                   2 PLUS DECISIONS
     STATE             CENTER          STATUS       WHITE      MINORITY TOTAL         WHITE    MINORITY TOTAL             WHITE     MINORITY TOTAL           WHITE MINORITY TOTAL

ALABAMA           GENEVA                 +180              5           0          5           2           0          2            3           0          3           0           0            0
                                         -180             44           7         51          31           6         37           12           1         13           1           0            1
                                         MRA               7           3         10           2           2          4            5           1          6           0           0            0
                                         OAH             137           7        144         120           6        126           16           1         17           1           0            1
                             TOTAL                       193          17        210         155          14        169           36           3         39           2           0            2

                  MADISON                +180              5           2          7           3           2          5            1           0          1           1           0            1
                                         -180             26           2         28          13           1         14            7           0          7           6           0            6
                                         MRA               8           1          9           4           1          5            3           0          3           1           0            1
                                         OAH             161           9        170         127           9        136           22           0         22          12           0           12
                             TOTAL                       200          14        214         147          13        160           33           0         33          20           0           20

                  MONTGOMERY             +180              2           0          2                       0          0            1           0          1           1           0            1
                                         -180              4           0          4           0           0          0            1           0          1           3           0            3
                                         MRA               0           1          1           0           0          0            0           1          1           0           0            0
                                         OAH             127          16        143         112          14        126           12           2         14           4           0            4
                             TOTAL                       133          17        150         112          14        126           14           3         17           8           0            8

ALABAMA STATE TOTAL                                      526          48        574         414          41        455           83           6         89          30           0           30

ARKANSAS          LEE/PHILLIPS           +180             20           2         22          10           0         10            6           1          7           4           1            5
                                         -180             20           5         25           9           2         11            7           0          7           4           3            7
                                         MRA              23          11         34          16           9         25            5           1          6           2           1            3
                                         OAH             105          35        140          63          15         78           28           9         37          14          11           25
                             TOTAL                       168          53        221          98          26        124           46          11         57          24          16           40

                  POINSETT               +180              1           0          1           0           0          0            0           0          0           1           0            1
                                         -180              7           0          7           4           0          4            2           0          2           1           0            1
                                         MRA               9           0          9           4           0          4            2           0          2           3           0            3
                                         OAH             126           4        130          76           1         77           27           0         27          23           3           26
                             TOTAL                       143           4        147          84           1         85           31           0         31          28           3           31

ARKANSAS STATE TOTAL                                     311          57        368         182          27        209           77          11         88          52          19           71

+90=90 days or more delinquent; -90=less than 90 days delinquent;+180=180 days or more delinquent;-180=less than 180 days delinquent;MRA=May Require Attention;OAH=On or Ahead of Schedule




Source: FSA 540 Report
USDA/OIG-A/50801-3-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                       Page 72
EXHIBIT E - 1951-S SERVICING ACTIONS IN THE COUNTIES REVIEWED
                       SERVICE        ACCOUNT                  UNIVERSE                       NO DECISION                         ONE DECISION                   2 PLUS DECISIONS
     STATE             CENTER          STATUS       WHITE      MINORITY TOTAL         WHITE    MINORITY TOTAL             WHITE     MINORITY TOTAL           WHITE MINORITY TOTAL

CALIFORNIA        FRESNO                 +180             11           0         11           7           0          7            3           0          3           1           0            1
                                         -180             20          10         30          11           5         16            4           4          8           5           1            6
                                         MRA              23           2         25          16           0         16            5           1          6           2           1            3
                                         OAH              90          15        105          66          13         79           16           2         18           8           0            8
                             TOTAL                       144          27        171         100          18        118           28           7         35          16           2           18

                  RIVERSIDE              +180             25          11         36          19           7         26            4           3          7           2           1            3
                                         -180              5           1          6           4           0          4            1           1          2           0           0            0
                                         MRA              25           4         29          20           2         22            4           2          6           1           0            1
                                         OAH              27           9         36          22           6         28            4           3          7           1           0            1
                             TOTAL                        82          25        107          65          15         80           13           9         22           4           1            5

                  SAN JOAQUIN            +180             16           3         19           9           3         12            7           0          7           0           0            0
                                         -180             24           2         26          13           2         15            6           0          6           5           0            5
                                         MRA              17           0         17          10           0         10            5           0          5           2           0            2
                                         OAH              69           4         73          46           3         49           17           0         17           6           1            7
                             TOTAL                       126           9        135          78           8         86           35           0         35          13           1           14

CALIFORNIA STATE TOTAL                                   352          61        413         243          41        284           76          16         92          33           4           37

GEORGIA           BROOKS                 +180             14           5         19           5           4          9            6           0          6           3           1            4
                                         -180             28           1         29          17           1         18            9           0          9           2           0            2
                                         MRA              22           3         25          13           3         16            6           0          6           3           0            3
                                         OAH             112          15        127          77           6         83           27           8         35           8           1            9
                             TOTAL                       176          24        200         112          14        126           48           8         56          16           2           18

                  TATTNALL               +180              1           0          1           0           0          0            1           0          1           0           0            0
                                         -180             25           6         31          11           4         15           10           1         11           4           1            5
                                         MRA              12           6         18           6           4         10            5           2          7           1           0            1
                                         OAH             146          18        164         104          11        115           28           6         34          14           1           15
                             TOTAL                       184          30        214         121          19        140           44           9         53          19           2           21

                  WORTH                  +180              3           9         12           2           4          6            1           2          3           0           3            3
                                         -180             15           9         24           4           5          9            5           1          6           6           3            9
                                         MRA              13           2         15          11           2         13            1           0          1           1           0            1
                                         OAH             123          19        142          88          12        100           29           6         35           6           1            7
                             TOTAL                       154          39        193         105          23        128           36           9         45          13           7           20

GEORGIA STATE TOTAL                                      514          93        607         338          56        394         128           26        154          48          11           59

+90=90 days or more delinquent; -90=less than 90 days delinquent;+180=180 days or more delinquent;-180=less than 180 days delinquent;MRA=May Require Attention;OAH=On or Ahead of Schedule




Source: FSA 540 Report
USDA/OIG-A/50801-3-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                       Page 73
EXHIBIT E - 1951-S SERVICING ACTIONS IN THE COUNTIES REVIEWED
                       SERVICE        ACCOUNT                  UNIVERSE                       NO DECISION                         ONE DECISION                   2 PLUS DECISIONS
     STATE             CENTER          STATUS       WHITE      MINORITY TOTAL         WHITE    MINORITY TOTAL             WHITE     MINORITY TOTAL           WHITE MINORITY TOTAL

LOUISIANA         CADDO                  +180              6           1          7           2           0          2            2           1          3           2           0            2
                                         -180              7           0          7           2           0          2            4           0          4           1           0            1
                                         MRA              17           2         19           9           1         10            7           1          8           1           0            1
                                         OHA              28           0         28           7           0          7           12           0         12           9           0            9
                             TOTAL                        58           3         61          20           1         21           25           2         27          13           0           13

                  RICHLAND               +180             32           4         36          13           4         17           14           0         14           5           0            5
                                         -180              6           1          7           5           0          5            1           1          2           0           0            0
                                         MRA              24           3         27          10           3         13           11           0         11           3           0            3
                                         OAH              86           2         88          43           1         44           21           0         21          22           1           23
                             TOTAL                       148          10        158          71           8         79           47           1         48          30           1           31

                  ST. LANDRY             +180             14           3         17           5           2          7            8           1          9           1           0            1
                                         -180              7           2          9           3           2          5            2           0          2           2           0            2
                                         MRA              14           4         18           7           2          9            6           2          8           1           0            1
                                         OAH              60          11         71          15           7         22           21           3         24          23           2           25
                             TOTAL                        95          20        115          30          13         43           37           6         43          27           2           29

LOUISIANA STATE TOTAL                                    301          33        334         121          22        143         109            9        118          70           3           73

MISSISSIPPI       HINDS                  +180             40          13         53          22           8         30            9           4         13           9           1           10
                                         -180             20           5         25          14           3         17            2           0          2           4           2            6
                                         MRA               8           0          8           6           0          6            2           0          2           0           0            0
                                         OAH              37           7         44          27           6         33            7           1          8           3           0            3
                             TOTAL                       105          25        130          69          17         86           20           5         25          16           3           19

                  MARSHALL               +180             10           5         15           6           4         10            2           0          2           2           1            3
                                         -180             12          10         22          10          10         20            2           0          2           0           0            0
                                         MRA              42           8         50          28           7         35            9           0          9           5           1            6
                                         OAH             123          30        153          94          30        124           25           0         25           4           0            4
                             TOTAL                       187          53        240         138          51        189           38           0         38          11           2           13

                  WINSTON                +180              7           4         11           5           0          5            0           4          4           2           0            2
                                         -180             43          13         56          34          13         47            9           0          9           0           0            0
                                         MRA               6           2          8           2           1          3            3           0          3           1           1            2
                                         OAH             136          32        168         121          32        153           12           0         12           3           0            3
                             TOTAL                       192          51        243         162          46        208           24           4         28           6           1            7

MISSISSIPPI STATE TOTAL                                  484         129        613         369         114        483           82           9         91          33           6           39

+90=90 days or more delinquent; -90=less than 90 days delinquent;+180=180 days or more delinquent;-180=less than 180 days delinquent;MRA=May Require Attention;OAH=On or Ahead of Schedule




Source: FSA 540 Report
USDA/OIG-A/50801-3-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                       Page 74
EXHIBIT E - 1951-S SERVICING ACTIONS IN THE COUNTIES REVIEWED
                       SERVICE        ACCOUNT                  UNIVERSE                       NO DECISION                         ONE DECISION                   2 PLUS DECISIONS
     STATE             CENTER          STATUS       WHITE      MINORITY TOTAL         WHITE    MINORITY TOTAL             WHITE     MINORITY TOTAL           WHITE MINORITY TOTAL

NORTH             COLUMBUS               +180              2           4          6           0           3          3            2           0          2           0           1            1
CAROLINA                                 -180             37          12         49          27          12         39            8           0          8           2           0            2
                                         MRA              13           1         14           7           1          8            4           0          4           2           0            2
                                         OAH             110          29        139          86          24        110           20           5         25           4           0            4
                             TOTAL                       162          46        208         120          40        160           34           5         39           8           1            9

                  DUPLIN                 +180              2           0          2           2           0          2            0           0          0           0           0            0
                                         -180             10           7         17           6           4         10            4           3          7           0           0            0
                                         MRA               3           2          5           1           1          2            2           1          3           0           0            0
                                         OAH              56           2         58          51           1         52            5           1          6           0           0            0
                             TOTAL                        71          11         82          60           6         66           11           5         16           0           0            0

                  GRANVILLE              +180              7           1          8           3           1          4            2           0          2           2           0            2
                                         -180             17           1         18          14           1         15            3           0          3           0           0            0
                                         MRA              10           3         13           4           2          6            4           1          5           2           0            2
                                         OAH              69           1         70          54           0         54           13           0         13           2           1            3
                             TOTAL                       103           6        109          75           4         79           22           1         23           6           1            7

NORTH CAROLINA STATE TOTAL                               336          63        399         255          50        305           67          11         78          14           2           16

OKLAHOMA          CHEROKEE               +180             24           9         33          14           8         22            9           1         10           1           0            1
                                         -180             14           5         19          10           5         15            3           0          3           1           0            1
                                         MRA              14           3         17           8           2         10            6           1          7           0           0            0
                                         OAH             160          63        223         131          53        184           22           9         31           7           1            8
                             TOTAL                       212          80        292         163          68        231           40          11         51           9           1           10

                  CHOCTAW                +180             27           5         32          17           5         22            9           0          9           1           0            1
                                         -180             31           4         35          19           2         21           10           2         12           2           0            2
                                         MRA              28           4         32          18           2         20           10           0         10           0           2            2
                                         OAH              92          11        103          66           8         74           19           2         21           7           1            8
                             TOTAL                       178          24        202         120          17        137           48           4         52          10           3           13

                  GRADY                  +180             27           1         28          10           1         11           14           0         14           3           0            3
                                         -180             26           0         26          16           0         16            7           0          7           3           0            3
                                         MRA              18           0         18           7           0          7            8           0          8           3           0            3
                                         OAH             133           3        136          88           2         90           26           1         27          19           0           19
                             TOTAL                       204           4        208         121           3        124           55           1         56          28           0           28

OKLAHOMA STATE TOTAL                                     594         108        702         404          88        492         143           16        159          47           4           51

+90=90 days or more delinquent; -90=less than 90 days delinquent;+180=180 days or more delinquent;-180=less than 180 days delinquent;MRA=May Require Attention;OAH=On or Ahead of Schedule




Source: FSA 540 Report
USDA/OIG-A/50801-3-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                       Page 75
EXHIBIT E - 1951-S SERVICING ACTIONS IN THE COUNTIES REVIEWED
                       SERVICE        ACCOUNT                  UNIVERSE                       NO DECISION                         ONE DECISION                   2 PLUS DECISIONS
     STATE             CENTER          STATUS       WHITE      MINORITY TOTAL         WHITE    MINORITY TOTAL             WHITE     MINORITY TOTAL           WHITE MINORITY TOTAL

SOUTH             ANDERSON               +180              5           1          6           3           1          4            1           0          1           1           0            1
CAROLINA                                 -180             20           0         20          16           0         16            4           0          4           0           0            0
                                         MRA               6           1          7           2           0          2            3           1          4           1           0            1
                                         OAH              85          10         95          59           9         68           18           1         19           8           0            8
                             TOTAL                       116          12        128          80          10         90           26           2         28          10           0           10

                  CLARENDON              +180             16           0         16           9           0          9            5           0          5           2           0            2
                                         -180             15          13         28           7           7         14            5           3          8           3           3            6
                                         MRA              17          16         33           6          11         17            9           5         14           2           0            2
                                         OAH              95          21        116          77          13         90           12           4         16           6           4           10
                             TOTAL                       143          50        193          99          31        130           31          12         43          13           7           20

                  ORANGEBURG             +180              6           1          7           4           0          4            1           1          2           1           0            1
                                         -180             18           8         26          10           6         16            3           2          5           5           0            5
                                         MRA               6           8         14           2           4          6            2           4          6           2           0            2
                                         OAH              77          14         91          54          10         64           16           3         19           7           1            8
                             TOTAL                       107          31        138          70          20         90           22          10         32          15           1           16

SOUTH CAROLINA STATE TOTAL                               366          93        459         249          61        310           79          24        103          38           8           46

TEXAS             GUADULUPE              +180             71           5         76          31           1         32           23           4         27          17           0           17
                                         -180              9           4         13           3           1          4            4           1          5           2           2            4
                                         MRA              14           0         14           8           0          8            3           0          3           3           0            3
                                         OAH              54           5         59          35           2         37           12           3         15           7           0            7
                             TOTAL                       148          14        162          77           4         81           42           8         50          29           2           31

                  HIDALGO                +90              28          51         79          25          36         61            2          13         15           1           2            3
                                          -90              9           9         18           6           4         10            3           5          8           0           0            0
                                         MRA               6           7         13           4           6         10            2           1          3           0           0            0
                                         OAH              47          40         87          45          34         79            2           6          8           0           0            0
                             TOTAL                        90         107        197          80          80        160            9          25         34           1           2            3

                  NACOGDOCHES            +90              71           2         73          37           0         37           31           1         32           3           1            4
                                          -90             22           1         23          16           0         16            5           0          5           1           1            2
                                         MRA              13           1         14           9           1         10            3           0          3           1           0            1
                                         OAH              87           2         89          58           0         58           17           1         18          12           1           13
                             TOTAL                       193           6        199         120           1        121           56           2         58          17           3           20

TEXAS STATE TOTAL                                        431         127        558         277          85        362         107           35        142          47           7           54

+90=90 days or more delinquent; -90=less than 90 days delinquent;+180=180 days or more delinquent;-180=less than 180 days delinquent;MRA=May Require Attention;OAH=On or Ahead of Schedule




Source: FSA 540 Report
USDA/OIG-A/50801-3-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                       Page 76
EXHIBIT E - 1951-S SERVICING ACTIONS IN THE COUNTIES REVIEWED
                       SERVICE        ACCOUNT                  UNIVERSE                       NO DECISION                         ONE DECISION                   2 PLUS DECISIONS
     STATE             CENTER          STATUS       WHITE      MINORITY TOTAL         WHITE    MINORITY TOTAL             WHITE     MINORITY TOTAL           WHITE MINORITY TOTAL

VIRGINIA          FRANKLIN               +180             17           4         21           4           2          6           10           1         11           3           1            4
                                         -180             17           4         21          13           3         16            4           1          5           0           0            0
                                         MRA              15           2         17           5           1          6            8           1          9           2           0            2
                                         OAH              65          11         76          52           9         61            7           1          8           6           1            7
                             TOTAL                       114          21        135          74          15         89           29           4         33          11           2           13

                  HALIFAX                +180              3           2          5           1           0          1            1           2          3           1           0            1
                                         -180             18          10         28           8           6         14            7           2          9           3           2            5
                                         MRA               6           2          8           1           0          1            4           1          5           1           1            2
                                         OAH              89          33        122          64          27         91           10           5         15          15           1           16
                             TOTAL                       116          47        163          74          33        107           22          10         32          20           4           24

                  MECKLENBURG            +180              4           3          7           1           1          2            2           1          3           1           1            2
                                         -180             15           5         20           8           3         11            6           0          6           1           2            3
                                         MRA               8           6         14           6           3          9            2           2          4           0           1            1
                                         OAH              80          19         99          57          12         69           19           4         23           4           3            7
                             TOTAL                       107          33        140          72          19         91           29           7         36           6           7           13

VIRGINIA STATE TOTAL                                     337         101        438         220          67        287           80          21        101          37          13           50

11-STATE TOTAL                                         4552          913       5465        3072         652       3724        1031         184       1215          449          77           526

+90=90 days or more delinquent; -90=less than 90 days delinquent;+180=180 days or more delinquent;-180=less than 180 days delinquent;MRA=May Require Attention;OAH=On or Ahead of Schedule




Source: FSA 540 Report
USDA/OIG-A/50801-3-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 77
EXHIBIT F - DEMOGRAPHICS OF SITES VISITED
                                                White             African American      Native American         Asian                Other             Hispanic
                               Total        Number      Percent     Number    Percent    Number    Percent   Number     Percent   Number   Percent   Number    Percent
Alabama
Geneva        Population        23,647        20,604     87%          2,817    12%            90      0%          13       0%          2      0%         121      1%
 County       Borrowers             75            74     99%              1     1%             0      0%           0       0%          0      0%           0      0%
              Farms                806           791     98%             12     1%             3      0%           0       0%          0      0%           0      0%
              Land-in-Farms    195,536       194,064     99%          1,103     1%           369      0%           0       0%          0      0%           0      0%

Geneva        Population       195,402       144,459     74%         47,008    24%           678      0%       1,213       1%         28      0%       2,016      1%
 Servicing    Borrowers            177           167     94%              9     5%             1      1%           0       0%          0      0%           0      0%
 Office       Farms              2,740         2,650     97%             80     3%             7      0%           3       0%          0      0%           0      0%
              Land-in-Farms    866,039       859,266     99%          6,404     1%           369      0%           0       0%          0      0%           0      0%

Madison       Population       238,912       182,334     76%         47,826    20%         1,564      1%       4,140       2%         64      0%       2,984      1%
 County       Borrowers             41            35     85%              6    15%             0      0%           0       0%          0      0%           0      0%
              Farms                871           813     93%             52     6%             3      0%           0       0%          0      0%           3      0%
              Land-in-Farms    224,370       218,909     98%          5,311     2%             0      0%           0       0%          0      0%         150      0%

Jackson       Population       411,675       342,451     83%         57,975    14%         2,943      1%       4,492       1%         72      0%       3,742      1%
  Servicing   Borrowers            220           207     94%             11     5%             0      0%           0       0%          1      0%           1      0%
  Office      Farms              4,284         4,166     97%             73     2%            32      1%           0       0%          0      0%          13      0%
              Land-in-Farms    778,956       760,151     98%         14,799     2%         2,869      0%           0       0%          0      0%       1,137      0%

Montgomery    Population       209,085       118,480     57%         87,050    42%           403      0%       1,477       1%         51      0%       1,624      1%
 County       Borrowers             37            31     84%              5    14%             0      0%           0       0%          1      3%           0      0%
              Farms                598           529     88%             63    11%             3      1%           0       0%          0      0%           3      1%
              Land-in-Farms    231,243       223,770     97%          7,420     3%            53      0%           0       0%          0      0%           0      0%

Elmore        Population       465,147       278,955     60%        178,870    38%           812      0%       3,378       1%         90      0%       3,042      1%
  Servicing   Borrowers            155           138     89%             16    10%             0      0%           0       0%          1      1%           0      0%
  Office      Farms              2,591         2,362     91%            220     8%             3      0%           0       0%          0      0%           6      0%
              Land-in-Farms    908,980       891,365     98%         17,096     2%            53      0%           0       0%          0      0%         466      0%

Arkansas
Poinsett      Population        24,664        22,700 92%              1,770      7%           43      0%          23       0%          4      0%         124      1%
 County       Borrowers             58            57 98%                  1      2%            0      0%           0       0%          0      0%           0      0%
              Farms                619           619 100%                 0      0%            0      0%           0       0%          0      0%           0      0%
              Land-in-Farms    404,585       404,585 100%                 0      0%            0      0%           0       0%          0      0%           0      0%

Poinsett      Population        151,072       107,033    71%         41,824    28%           350      0%         559       0%         35      0%       1,271      1%
 Servicing    Borrowers             181           161    89%             20    11%             0      0%           0       0%          0      0%           0      0%
 Office       Farms               1,905         1,852    97%             53     3%             0      0%           0       0%          0      0%           0      0%
              Land-in-Farms   1,584,113     1,575,236    99%          8,877     1%             0      0%           0       0%          0      0%           0      0%

Source: Ag Census/PLAS
USDA/OIG-A/50801-3-Hq                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 78
EXHIBIT F - DEMOGRAPHICS OF SITES VISITED
                                                  White             African American      Native American         Asian                Other              Hispanic
                                 Total        Number      Percent     Number    Percent    Number    Percent   Number     Percent   Number   Percent    Number     Percent
Phillips        Population        28,838        12,793     44%         15,705    54%            36      0%          65       0%          2      0%          237       1%
 County         Borrowers            112            50     45%             62    55%             0      0%           0       0%          0      0%            0       0%
 (Only county   Farms                352           304     86%             48    14%             0      0%           0       0%          0      0%            0       0%
  serviced)     Land-in-Farms    357,416       339,032     95%         18,384     5%             0      0%           0       0%          0      0%            0       0%

Lee             Population        13,053         5,375     41%          7,447    57%            11      0%          46       0%          0      0%          174       1%
 County         Borrowers            112            61     54%             51    46%             0      0%           0       0%          0      0%            0       0%
                Farms                313           263     84%             50    16%             0      0%           0       0%          0      0%            0       0%
                Land-in-Farms    298,547       289,608     97%          8,939     3%             0      0%           0       0%          0      0%            0       0%

Cross           Population         70,295        40,807    58%         28,660    41%           111      0%         206       0%          9      0%          502       1%
 Servicing      Borrowers             216           133    62%             83    38%             0      0%           0       0%          0      0%            0       0%
 Office         Farms               1,358         1,241    91%            117     9%             0      0%           0       0%          0      0%            0       0%
                Land-in-Farms   1,203,330     1,189,873    99%         13,457     1%             0      0%           0       0%          0      0%            0       0%

California
Riverside       Population      1,170,413      754,140     64%         59,966      5%        8,393     1%       38,349       3%      2,051      0%      307,514      26%
 County         Borrowers              40           31     78%              1      3%            1     3%            1       3%          0      0%            6      15%
                Farms               3,511        2,975     85%             19      1%           22     1%          140       4%        119      3%          236       7%
                Land-in-Farms     423,602      352,857     83%            236      0%       42,356    10%        7,026       2%      6,695      2%       14,432       3%

Riverside       Population      5,196,112     3,281,276    63%        321,298      6%       35,024      1%     280,512       5%      9,190      0%     1,268,812     24%
 Servicing      Borrowers             111            85    77%              1      1%            3      3%           8       7%          0      0%            14     13%
 Office         Farms              12,386        10,881    88%             45      0%           83      1%         377       3%        300      2%           700      6%
                Land-in-Farms   2,761,385     2,495,837    90%            523      0%      141,792      5%      17,414       1%     17,942      1%        87,877      3%

Fresno          Population        667,490       338,595    51%         31,311      5%        5,070      1%      54,110      8%       1,770      0%      236,634      35%
  County        Borrowers             124            98    79%              2      2%            1      1%          11      9%           0      0%           12      10%
                Farms               7,021         5,353    76%             25      0%           31      0%         749     11%         326      5%          537       8%
                Land-in-Farms   1,774,664     1,621,871    91%            797      0%        4,617      0%      76,981      4%      26,024      1%       44,374       3%

Fresno          Population        755,580       391,569    52%         33,605      4%        6,235      1%      55,194       7%      1,943      0%      267,034      35%
  Servicing     Borrowers             175           146    83%              2      1%            1      1%          12       7%          0      0%           14       8%
  Office        Farms               8,730         6,861    79%             39      0%           47      1%         827       9%        352      4%          604       7%
                Land-in-Farms   2,524,129     2,276,506    90%          3,207      0%        6,397      0%      83,425       3%     28,810      1%      125,784       5%

San Joaquin     Population       480,628       282,766     59%         24,791      5%        3,807      1%      55,774     12%         817      0%      112,673      23%
  County        Borrowers             55            49     89%              1      2%            2      4%           3      5%           0      0%            0       0%
                Farms              4,097         3,667     90%             13      0%           17      0%         174      4%          62      2%          164       4%
                Land-in-Farms    783,715       726,518     93%            376      0%        1,177      0%      32,134      4%       3,748      0%       19,762       3%


Source: Ag Census/PLAS
USDA/OIG-A/50801-3-Hq                       THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                      Page 79
EXHIBIT F - DEMOGRAPHICS OF SITES VISITED
                                                 White             African American      Native American         Asian                Other             Hispanic
                                Total        Number      Percent     Number    Percent    Number    Percent   Number     Percent   Number   Percent   Number    Percent
San Joaquin    Population      4,044,099     2,638,629    65%        418,021    10%        29,482      1%     413,483     10%       7,029      0%     537,455      13%
  Servicing    Borrowers             137           128    93%              1     1%             2      1%           5      4%           0      0%           1       1%
  Office       Farms               9,716         8,850    91%             33     0%            53      1%         323      3%         107      1%         350       4%
               Land-in-Farms   2,406,604     2,283,800    95%            576     0%         2,811      0%      55,536      2%       6,474      0%      57,407       2%

Georgia
Tattnall       Population        17,722        11,950     67%          5,155    29%            23      0%          45       0%          2      0%         547      3%
 County        Borrowers             64            51     80%             12    19%             0      0%           0       0%          0      0%           1      2%
               Farms                539           516     96%             23     4%             0      0%           0       0%          0      0%           0      0%
               Land-in-Farms    119,873       116,579     97%          3,294     3%             0      0%           0       0%          0      0%           0      0%

Bullock        Population       265,531       183,724     69%         73,252    28%           530      0%       1,783       1%        156      0%       6,086      2%
 Servicing     Borrowers            223           191     86%             30    13%             0      0%           0       0%          1      0%           1      0%
 Office        Farms              3,476         3,333     96%            140     4%             0      0%           0       0%          0      0%           3      0%
               Land-in-Farms    939,849       926,891     99%         12,958     1%             0      0%           0       0%          0      0%           0      0%

Worth          Population        19,745        13,404 68%              6,029    31%            53      0%          37       0%          0      0%         222      1%
 County        Borrowers             44            37 84%                  7    16%             0      0%           0       0%          0      0%           0      0%
               Farms                454           441 97%                 13     3%             0      0%           0       0%          0      0%           0      0%
               Land-in-Farms    200,061       200,061 100%                 0     0%             0      0%           0       0%          0      0%           0      0%

Terrell        Population        209,826       116,418    55%         89,646    43%           419      0%         746       0%         42      0%       2,555      1%
 Servicing     Borrowers             194           155    80%             37    19%             1      1%           0       0%          0      0%           1      1%
 Office        Farms               2,053         1,924    94%            129     6%             0      0%           0       0%          0      0%           0      0%
               Land-in-Farms   1,178,667     1,154,698    98%         23,969     2%             0      0%           0       0%          0      0%           0      0%

Brooks         Population        15,398         8,725     57%          6,365    41%            27      0%          27       0%          1      0%         253      2%
 County        Borrowers             27            15     56%             12    44%             0      0%           0       0%          0      0%           0      0%
               Farms                441           407     92%             30     7%             0      0%           0       0%          0      0%           4      1%
               Land-in-Farms    168,861       163,352     97%          3,760     2%             0      0%           0       0%          0      0%       1,749      1%

Colquitt       Population       124,760        78,189     63%         43,513    35%           269      0%         165       0%         17      0%       2,607      2%
 Servicing     Borrowers            194           173     89%             20    10%             1      1%           0       0%          0      0%           0      0%
 Office        Farms              2,328         2,249     97%             75     3%             0      0%           0       0%          0      0%           4      0%
               Land-in-Farms    819,274       813,581     99%          3,944     0%             0      0%           0       0%          0      0%       1,749      0%

Louisiana
St. Landry     Population        80,331        47,185     59%         32,183    40%            61      0%         174       0%         89      0%         639      1%
  Parish       Borrowers            116            93     80%             22    19%             0      0%           0       0%          1      1%           0      0%
(Only county   Farms              1,144         1,006     88%            121    11%             4      0%           0       0%          0      0%          13      1%
 serviced)     Land-in-Farms    283,135       270,890     96%          9,981     4%             0      0%           0       0%          0      0%       2,264      1%

Source: Ag Census/PLAS
USDA/OIG-A/50801-3-Hq                      THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 80
EXHIBIT F - DEMOGRAPHICS OF SITES VISITED
                                              White             African American      Native American         Asian                Other             Hispanic
                               Total       Number     Percent     Number    Percent    Number    Percent   Number     Percent   Number   Percent   Number    Percent
Richland       Population       20,629       12,910    63%          7,492    36%            14      0%          13       0%          1      0%         199      1%
 Parish        Borrowers           159          149    94%              9     6%             1      1%           0       0%          0      0%           0      0%
(Only county   Farms               570          545    96%             21     4%             0      0%           0       0%          0      0%           4      1%
  serviced)    Land-in-Farms   247,106      244,157    99%              0     0%             0      0%           0       0%          0      0%       2,949      1%

Caddo          Population      248,253      144,885 58%            99,101    40%           516      0%       1,095       0%         61      0%       2,595      1%
 Parish        Borrowers            21           18 86%                 3    14%             0      0%           0       0%          0      0%           0      0%
               Farms               472          417 88%                55    12%             0      0%           0       0%          0      0%           0      0%
               Land-in-Farms   170,353      170,353 100%                0     0%             0      0%           0       0%          0      0%           0      0%

Caddo          Population      376,330      239,086    64%        129,645    34%           866      0%       2,013       1%         97      0%       4,623      1%
 Servicing     Borrowers            62           59    95%              3     5%             0      0%           0       0%          0      0%           0      0%
 Office        Farms             1,229        1,135    92%             91     7%             3      0%           0       0%          0      0%           0      0%
               Land-in-Farms   339,780      336,372    99%          3,256     1%           152      0%           0       0%          0      0%           0      0%

Mississippi
Hinds          Population      254,441      122,614 48%           129,216    51%           212      0%       1,216       0%         35      0%       1,148      0%
 County        Borrowers            30           23 77%                 6    20%             0      0%           0       0%          0      0%           1      3%
               Farms               740          626 85%               111    15%             0      0%           0       0%          0      0%           3      0%
               Land-in-Farms   230,838      230,838 100%                0     0%             0      0%           0       0%          0      0%           0      0%

Warren         Population      311,296      154,527    50%        153,544    49%           264      0%       1,463       0%         42      0%       1,456      0%
 Servicing     Borrowers           140          109    78%             29    21%             0      0%           0       0%          1      1%           1      1%
 Office        Farms             1,167        1,005    86%            159    14%             0      0%           0       0%          0      0%           3      0%
               Land-in-Farms   640,601      635,175    99%          5,426     1%             0      0%           0       0%          0      0%           0      0%

Marshall       Population       30,361       14,797    49%         15,331    50%            59      0%          36       0%          5      0%         133      0%
 County        Borrowers            73           59    81%             14    19%             0      0%           0       0%          0      0%           0      0%
               Farms               527          419    80%            108    20%             0      0%           0       0%          0      0%           0      0%
               Land-in-Farms   182,009      166,584    92%         15,425     8%             0      0%           0       0%          0      0%           0      0%

Panola         Population       81,789       44,011    54%         37,144    45%           126      0%          95       0%          6      0%         407      0%
  Servicing    Borrowers           244          202    83%             42    17%             0      0%           0       0%          0      0%           0      0%
  Office       Farms             1,648        1,436    87%            212    13%             0      0%           0       0%          0      0%           0      0%
               Land-in-Farms   541,408      514,652    95%         26,756     5%             0      0%           0       0%          0      0%           0      0%

Winston        Population       19,433       11,121    57%          8,064    41%           162      1%          16       0%          0      0%          70      0%
 County        Borrowers           151          120    79%             30    20%             1      1%           0       0%          0      0%           0      0%
               Farms               486          444    91%             39     8%             0      0%           0       0%          0      0%           3      1%
               Land-in-Farms    83,445       79,414    95%          3,715     4%             0      0%           0       0%          0      0%         316      0%


Source: Ag Census/PLAS
USDA/OIG-A/50801-3-Hq                    THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                   Page 81
EXHIBIT F - DEMOGRAPHICS OF SITES VISITED
                                             White             African American      Native American         Asian                Other             Hispanic
                              Total       Number     Percent     Number    Percent    Number    Percent   Number     Percent   Number   Percent   Number    Percent
Noxubee       Population       32,037       15,073    47%         16,639    52%           206      1%          22       0%          0      0%          97      0%
 Servicing    Borrowers           236          184    78%             50    21%             2      1%           0       0%          0      0%           0      0%
 Office       Farms               912          823    90%             80     9%             0      0%           0       0%          0      0%           9      1%
              Land-in-Farms   285,204      279,105    98%          3,715     1%             0      0%           0       0%          0      0%       2,384      1%

North Carolina
Granville     Population       38,345       22,913    60%         14,872    39%            93      0%          99       0%         12      0%         356      1%
 County       Borrowers            24           23    96%              1     4%             0      0%           0       0%          0      0%           0      0%
              Farms               724          654    90%             70    10%             0      0%           0       0%          0      0%           0      0%
              Land-in-Farms   156,027      150,530    96%          5,497     4%             0      0%           0       0%          0      0%           0      0%

Wake          Population      729,878      540,985    74%        167,568    23%         2,324      0%       8,901       1%        292      0%       9,808      1%
 Servicing    Borrowers           195          172    88%             22    11%             0      0%           0       0%          1      1%           0      0%
 Office       Farms             5,233        5,043    96%            182     3%             0      0%           0       0%          0      0%           8      0%
              Land-in-Farms   847,460      835,414    99%         11,498     1%             0      0%           0       0%          0      0%         548      0%

Duplin        Population       39,995       25,635    64%         13,200    33%            97      0%          44       0%          4      0%       1,015      3%
 County       Borrowers            85           70    82%             14    16%             0      0%           0       0%          1      1%           0      0%
              Farms             1,359        1,232    91%            127     9%             0      0%           0       0%          0      0%           0      0%
              Land-in-Farms   248,518      240,836    97%          7,682     3%             0      0%           0       0%          0      0%           0      0%

Sampson       Population      341,097      238,191    70%         95,235    28%         1,685      0%       1,583       0%        108      0%       4,295      1%
  Servicing   Borrowers           287          234    82%             45    16%             3      1%           2       1%          3      1%           0      0%
  Office      Farms             4,002        3,662    92%            315     8%            17      0%           0       0%          0      0%           8      0%
              Land-in-Farms   762,761      742,768    97%         17,591     2%             0      0%           0       0%          0      0%       2,402      0%

Columbus      Population       49,587       32,816    66%         15,122    30%         1,350      3%          51       0%          6      0%         242      0%
 County       Borrowers            96           81    84%             12    13%             3      3%           0       0%          0      0%           0      0%
              Farms             1,109          980    88%             95     9%            30      3%           0       0%          0      0%           4      0%
              Land-in-Farms   162,634      154,164    95%          7,756     5%             0      0%           0       0%          0      0%         714      0%

Columbus      Population      565,590      322,126    57%        169,713    30%        52,051     9%        6,032       1%        362      0%      15,306      3%
 Servicing    Borrowers           325          213    66%             57    18%            41    13%            5       2%          1      0%           8      2%
 Office       Farms             3,869        3,044    79%            302     8%           514    13%            0       0%          0      0%           9      0%
              Land-in-Farms   831,127      743,085    89%         18,063     2%        67,818     8%            0       0%          0      0%       2,161      0%

Oklahoma
Choctaw       Population       15,302       10,837    71%          1,954    13%         2,286    15%           24       0%          6      0%         195      1%
 County       Borrowers           206          182    88%              5     2%            17     8%            1       0%          0      0%           1      0%
              Farms               833          761    91%             25     3%            41     5%            0       0%          0      0%           6      1%
              Land-in-Farms   300,829      285,246    95%              0     0%        11,518     4%            0       0%          0      0%       4,065      1%

Source: Ag Census/PLAS
USDA/OIG-A/50801-3-Hq                   THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                   Page 82
EXHIBIT F - DEMOGRAPHICS OF SITES VISITED
                                                White             African American      Native American         Asian                Other             Hispanic
                               Total        Number      Percent     Number    Percent    Number    Percent   Number     Percent   Number   Percent   Number    Percent
Choctaw       Population        48,735        35,496     73%          5,382    11%         7,084    15%          108       0%         11      0%         654      1%
 Servicing    Borrowers            393           351     89%             11     3%            29     7%            1       0%          0      0%           1      0%
 Office       Farms              2,147         1,991     93%             47     2%            96     4%            0       0%          0      0%          13      1%
              Land-in-Farms    615,816       583,313     95%          2,772     0%        23,007     4%            0       0%          0      0%       6,724      1%

Cherokee      Population        34,049        21,900     64%            377      1%       11,232    33%           66       0%          4      0%         470      1%
 County       Borrowers             77            65     84%              0      0%           12    16%            0       0%          0      0%           0      0%
              Farms                977           836     86%              6      1%          131    13%            0       0%          0      0%           4      0%
              Land-in-Farms    218,803       199,526     91%              0      0%       18,927     9%            0       0%          0      0%         350      0%

Cherokee      Population        202,259       147,033    73%         12,635      6%       39,443    20%          575       0%         48      0%       2,525      1%
 Servicing    Borrowers             297           218    73%             11      4%           66    22%            1       0%          0      0%           1      0%
 Office       Farms               4,984         4,376    88%            100      2%          474    10%            0       0%          6      0%          28      1%
              Land-in-Farms   1,205,476     1,113,486    92%          5,597      0%       80,666     7%            0       0%          0      0%       5,727      0%

Grady         Population        41,747        37,286     89%          1,524      4%        2,086      5%         117       0%          6      0%         728      2%
 County       Borrowers             98            96     98%              0      0%            2      2%           0       0%          0      0%           0      0%
              Farms              1,432         1,386     97%              0      0%           30      2%           0       0%          5      0%          11      1%
              Land-in-Farms    566,152       555,645     98%              0      0%        6,113      1%           0       0%        113      0%       4,281      1%

Grady         Population         71,297        58,317    82%          2,262      3%        8,360    12%          184       0%         16      0%       2,158      3%
 Servicing    Borrowers             207           205    99%              0      0%            2     1%            0       0%          0      0%           0      0%
 Office       Farms               2,873         2,774    97%              0      0%           68     2%            0       0%         10      0%          21      1%
              Land-in-Farms   1,292,633     1,258,602    97%              0      0%       27,557     2%            0       0%        113      0%       6,361      0%

South Carolina
Orangeburg    Population        84,803        34,830     41%         49,109    58%           210      0%         315       0%          8      0%         331      0%
 County       Borrowers             88            60     68%             28    32%             0      0%           0       0%          0      0%           0      0%
              Farms                910           771     85%            139    15%             0      0%           0       0%          0      0%           0      0%
              Land-in-Farms    262,093       248,337     95%         13,756     5%             0      0%           0       0%          0      0%           0      0%

Orangeburg    Population       550,887       345,468     63%        192,753    35%         1,200      0%       4,995       1%        152      0%       6,319      1%
 Servicing    Borrowers            137           103     75%             34    25%             0      0%           0       0%          0      0%           0      0%
 Office       Farms              2,228         2,007     90%            217    10%             0      0%           0       0%          0      0%           4      0%
              Land-in-Farms    502,077       487,742     97%         13,756     3%             0      0%           0       0%          0      0%         579      0%

Clarendon     Population        28,450        12,223 43%             16,021    56%            31      0%          27       0%          4      0%         144      1%
 County       Borrowers            109            77 71%                 31    28%             0      0%           0       0%          1      1%           0      0%
              Farms                372           265 71%                107    29%             0      0%           0       0%          0      0%           0      0%
              Land-in-Farms    135,766       135,766 100%                 0     0%             0      0%           0       0%          0      0%           0      0%


Source: Ag Census/PLAS
USDA/OIG-A/50801-3-Hq                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 83
EXHIBIT F - DEMOGRAPHICS OF SITES VISITED
                                                White             African American      Native American         Asian                Other             Hispanic
                               Total        Number      Percent     Number    Percent    Number    Percent   Number     Percent   Number   Percent   Number    Percent
Clarendon     Population        65,265        25,305     39%         39,581    61%            46      0%          52       0%          8      0%         273      0%
 Servicing    Borrowers            195           127     65%             67    34%             0      0%           0       0%          1      1%           0      0%
 Office       Farms              1,077           766     71%            307    29%             0      0%           0       0%          0      0%           4      0%
              Land-in-Farms    308,954       290,187     94%         18,767     6%             0      0%           0       0%          0      0%           0      0%

Anderson      Population       145,196       120,013     83%         24,097    17%           163      0%         334       0%         30      0%         559      0%
 County       Borrowers             36            33     92%              3     8%             0      0%           0       0%          0      0%           0      0%
              Farms              1,076         1,063     99%             13     1%             0      0%           0       0%          0      0%           0      0%
              Land-in-Farms    160,659       159,140     99%          1,519     1%             0      0%           0       0%          0      0%           0      0%

Anderson      Population       709,048       575,325     81%        123,993    17%           896      0%       3,634       1%        139      0%       5,061      1%
 Servicing    Borrowers            134           116     87%             13    10%             1      1%           0       0%          4      3%           0      0%
 Office       Farms              3,867         3,785     98%             76     2%             0      0%           0       0%          0      0%           6      0%
              Land-in-Farms    521,263       516,549     99%          4,217     1%             0      0%           0       0%          0      0%         497      0%

Texas
Guadalupe     Population        64,873        41,454     64%          3,451     5%           171      0%         403       1%        148      0%      19,246      30%
 County       Borrowers             20            16     80%              4    20%             0      0%           0       0%          0      0%           0       0%
              Farms              1,698         1,553     91%             68     4%             0      0%           0       0%         27      2%          50       3%
              Land-in-Farms    347,313       328,036     94%          6,383     2%             0      0%           0       0%      3,908      1%       8,986       3%

Guadalupe     Population      2,003,275     1,030,281    51%        148,716      7%        4,602      0%      30,753       2%      3,737      0%     785,186      39%
 Servicing    Borrowers             184           163    89%              5      3%            3      2%           2       1%          1      1%          10       5%
 Office       Farms               9,409         8,494    90%            140      1%            7      0%           6       0%        233      2%         529       6%
              Land-in-Farms   3,372,538     3,257,073    97%         10,552      0%          276      0%          87       0%     29,882      1%      74,668       2%

Nacogdoches   Population        54,753        42,575     78%          8,948    16%           125      0%         283       1%         34      0%       2,788      5%
 County       Borrowers            169           165     98%              4     2%             0      0%           0       0%          0      0%           0      0%
              Farms              1,132         1,080     95%             25     2%             3      0%           0       0%          4      0%          20      2%
              Land-in-Farms    220,355       213,606     97%          2,644     1%           586      0%           0       0%         98      0%       3,421      2%

Nacogdoches   Population       284,765       218,094     77%         49,900    18%           863      0%       1,092       0%        173      0%      14,643      5%
 Servicing    Borrowers            208           200     96%              8     4%             0      0%           0       0%          0      0%           0      0%
 Office       Farms              3,821         3,645     95%            124     3%             6      0%           0       0%          7      0%          39      1%
              Land-in-Farms    748,307       730,925     98%         10,357     1%           586      0%           0       0%        369      0%       6,070      1%

Hidalgo       Population       383,545        54,259     14%            518      0%          229      0%         847       0%        720      0%     326,972      85%
 County       Borrowers             51            27     53%              1      2%            2      4%           0       0%          0      0%          21      41%
              Farms              1,565           719     46%              0      0%            0      0%          12       1%        254     16%         580      37%
              Land-in-Farms    660,412       434,342     66%              0      0%            0      0%      11,655       2%     59,890      9%     154,525      23%


Source: Ag Census/PLAS
USDA/OIG-A/50801-3-Hq                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 84
EXHIBIT F - DEMOGRAPHICS OF SITES VISITED
                                                 White             African American      Native American         Asian                Other             Hispanic
                                Total        Number      Percent     Number    Percent    Number    Percent   Number     Percent   Number   Percent   Number    Percent
Willacy        Population        701,888       103,262    15%          1,167      0%          427      0%       1,473       0%      1,265      0%     594,294      85%
 Servicing     Borrowers             209            94    45%              1      0%            8      4%           2       1%          1      0%         103      49%
 Office        Farms               3,419         1,337    39%              0      0%            6      0%          25       1%        614     18%       1,437      42%
               Land-in-Farms   1,883,214     1,238,482    66%              0      0%            0      0%      16,753       1%     84,662      4%     543,317      29%

Virginia
Franklin       Population        39,549        35,057     89%          4,225    11%            39      0%          61       0%         30      0%         137      0%
 County        Borrowers             34            26     76%              8    24%             0      0%           0       0%          0      0%           0      0%
               Farms                935           891     95%             44     5%             0      0%           0       0%          0      0%           0      0%
               Land-in-Farms    166,477       162,038     97%          4,439     3%             0      0%           0       0%          0      0%           0      0%

Franklin       Population       235,770       198,954     84%         34,753    15%           339      0%         531       0%         56      0%       1,137      0%
 Servicing     Borrowers            135           119     88%             16    12%             0      0%           0       0%          0      0%           0      0%
 Office        Farms              4,035         3,907     97%            123     3%             0      0%           0       0%          0      0%           5      0%
               Land-in-Farms    720,171       707,890     98%         11,441     2%             0      0%           0       0%          0      0%         840      0%

Halifax        Population        29,033        17,440     60%         11,333    39%            71      0%          23       0%          2      0%         164      1%
 County        Borrowers             43            24     56%             19    44%             0      0%           0       0%          0      0%           0      0%
               Farms              1,042           862     83%            175    17%             0      0%           0       0%          0      0%           5      0%
               Land-in-Farms    232,852       214,848     92%         17,482     8%             0      0%           0       0%          0      0%         522      0%

Pittsylvania   Population        96,376        65,255     68%         30,458    32%           132      0%          89       0%          6      0%         436      0%
 Servicing     Borrowers            167           120     72%             47    28%             0      0%           0       0%          0      0%           0      0%
 Office        Farms              2,882         2,571     89%            297    10%             0      0%           0       0%          0      0%          14      0%
               Land-in-Farms    642,860       609,905     95%         28,395     4%             0      0%           0       0%          0      0%       4,560      1%

Mecklenburg    Population        29,241        17,873     61%         11,192    38%            20      0%          47       0%          1      0%         108      0%
 County        Borrowers             65            50     77%             15    23%             0      0%           0       0%          0      0%           0      0%
               Farms                645           585     91%             60     9%             0      0%           0       0%          0      0%           0      0%
               Land-in-Farms    167,858       157,168     94%         10,690     6%             0      0%           0       0%          0      0%           0      0%

Lunenburg      Population        56,647        31,507     56%         24,779    44%            40      0%          78       0%          5      0%         238      0%
 Servicing     Borrowers            144           111     77%             33    23%             0      0%           0       0%          0      0%           0      0%
 Office        Farms              1,345         1,194     89%            148    11%             0      0%           0       0%          0      0%           3      0%
               Land-in-Farms    338,135       323,492     96%         14,643     4%             0      0%           0       0%          0      0%           0      0%




Source: Ag Census/PLAS
USDA/OIG-A/50801-3-Hq                      THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 85
EXHIBIT F - DEMOGRAPHICS OF SITES VISITED
                                                      White             African American      Native American         Asian                Other               Hispanic
                                     Total         Number     Percent     Number    Percent    Number    Percent   Number     Percent   Number    Percent    Number     Percent
Totals
Target Counties Population     4,641,511          2,652,489    57%        763,562    16%        38,747      1%     159,397       3%       5,970      0%     1,021,346     22%
                Borrowers          2,540              2,046    81%            390    15%            42      2%          16       1%           4      0%            42      2%
                Farms             39,370             33,773    86%          1,757     4%           318      1%       1,075       3%         797      2%         1,650      4%
                Land-in-Farms 10,386,107          9,652,670    93%        156,589     2%        85,716      1%     127,796       1%     100,476      1%       262,860      3%

Service Centers Population      19,483,526 12,064,694 62% 2,824,919 14%                   197,918       1%     825,656      4%      25,226     0% 3,545,113          18%
                Borrowers             6,269          5,076 81%                817 13%          165      3%           38     1%          17     0%            156       2%
                Farms               113,780        101,219 89%             4,114   4%        1,420      1%        1,561     1%       1,629     1%          3,837       3%
                Land-in-Farms 33,258,768 31,285,500 94%                 340,977    1%     354,353       1%     173,215      1% 168,252         1%       936,471        3%
                Note: Phillips County, AR, St. Landry Parish, LA, and Richland Parish, LA, are in both the Target Counties totals and Service Center totals as these counties
                     are the only counties serviced by those service centers.




Source: Ag Census/PLAS
USDA/OIG-A/50801-3-Hq                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 86
EXHIBIT F - DEMOGRAPHICS OF SITES VISITED
                                                    White             African American       Native American         Asian                Other               Hispanic
                                   Total        Number      Percent     Number     Percent    Number    Percent   Number     Percent   Number    Percent    Number     Percent
Alabama          Population       4,040,587     2,960,167    73%       1,017,713    25%        16,221      0%      21,217       1%        640       0%       24,629       1%
                 Borrowers            2,041         1,799    88%             229    11%             4      0%           0       0%          7       0%            2       0%
                 Farms               37,905        36,349    96%           1,371     4%           105      0%           6       0%          0       0%           74       0%
                 Land-in-Farms    8,450,823     8,313,850    98%         118,971     1%         8,813      0%         202       0%          0       0%        8,987       0%

Arkansas         Population       2,350,725     1,933,082    82%        372,762     16%        12,393      1%      12,144       1%        468       0%       19,876       1%
                 Borrowers            4,231         3,876    92%            318      8%            14      0%           2       0%         13       0%            8       0%
                 Farms               43,937        43,116    98%            634      1%           106      0%           0       0%          0       0%           81       0%
                 Land-in-Farms   14,127,711    14,042,499    99%         66,825      0%         7,059      0%           0       0%          0       0%       11,328       0%

California       Population      29,760,021    17,029,126    57%       2,092,446      7%      184,065      1% 2,710,353         9%      56,093      0%     7,687,938     26%
                 Borrowers            1,937         1,679    87%              16      1%           27      1%        85         4%           5      0%           125      6%
                 Farms               77,669        68,058    88%             233      0%          470      1%     3,281         4%       1,751      2%         3,876      5%
                 Land-in-Farms   28,978,997    26,967,742    93%          10,985      0%      247,463      1%   400,850         1%     202,044      1%     1,149,913      4%

Georgia          Population       6,478,216     4,543,425    70%       1,737,165    27%        12,621      0%      73,725       1%       2,358      0%      108,922       2%
                 Borrowers            2,075         1,846    89%             218    11%             3      0%           0       0%           5      0%            3       0%
                 Farms               40,759        39,690    97%           1,038     3%             0      0%           0       0%           0      0%           31       0%
                 Land-in-Farms   10,025,581     9,925,343    99%          96,083     1%             0      0%           0       0%           0      0%        4,155       0%

Louisiana        Population       4,219,973     2,776,022    66%       1,291,470    31%        17,539      0%      39,302       1%       2,596      0%       93,044       2%
                 Borrowers            2,648         2,390    90%             236     9%             8      0%           0       0%           6      0%            8       0%
                 Farms               25,652        24,361    95%           1,085     4%            37      0%           5       0%           0      0%          164       1%
                 Land-in-Farms    7,837,545     7,712,313    98%          81,125     1%           651      0%           0       0%           0      0%       43,456       1%

Mississippi      Population       2,573,216     1,624,198    63%        911,891     35%         8,316      0%      12,543       0%        337       0%       15,931       1%
                 Borrowers            4,912         4,054    83%            826     17%             5      0%           1       0%         23       0%            3       0%
                 Farms               31,998        29,462    92%          2,474      8%            10      0%           0       0%          0       0%           52       0%
                 Land-in-Farms   10,188,362     9,983,743    98%        196,719      2%             0      0%           0       0%          0       0%        7,900       0%

North Carolina   Population       6,628,637     4,971,127    75%       1,449,142    22%        78,930      1%      50,593       1%       2,119      0%       76,726       1%
                 Borrowers            2,710         2,256    83%             379    14%            50      2%           8       0%           9      0%            8       0%
                 Farms               51,854        49,374    95%           1,846     4%           565      1%           0       0%           0      0%           69       0%
                 Land-in-Farms    8,936,015     8,729,117    98%         127,671     1%        69,731      1%           0       0%           0      0%        9,496       0%

Oklahoma         Population       3,145,585     2,547,588    81%        231,462       7%      246,631      8%      32,366       1%       1,378      0%       86,160       3%
                 Borrowers            5,787         5,222    90%             96       2%          428      7%           7       0%          11      0%           23       0%
                 Farms               66,937        63,652    95%            528       1%        2,485      4%           9       0%          36      0%          227       0%
                 Land-in-Farms   32,143,030    31,407,752    98%         62,099       0%      607,158      2%         295       0%       2,148      0%       63,578       0%




Source: Ag Census/PLAS
USDA/OIG-A/50801-3-Hq                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 87
EXHIBIT F - DEMOGRAPHICS OF SITES VISITED
                                                     White             African American       Native American         Asian                Other               Hispanic
                                    Total        Number      Percent     Number     Percent    Number    Percent   Number     Percent   Number    Percent    Number     Percent
South Carolina   Population        3,486,703     2,390,056    69%       1,035,947    30%         8,004      0%      21,304       1%        841       0%       30,551       1%
                 Borrowers             1,508         1,211    80%             286    19%             2      0%           0       0%          8       1%            1       0%
                 Farms                20,242        18,412    91%           1,765     9%            18      0%           5       0%          0       0%           42       0%
                 Land-in-Farms     4,472,569     4,363,711    98%         103,081     2%           664      0%         323       0%          0       0%        4,790       0%

Texas            Population       16,986,510 10,291,680       61%       1,976,360    12%        52,803      0%     303,825       2%      21,937      0%     4,339,905     26%
                 Borrowers             8,151       7,447      91%             175     2%            49      1%          14       0%          47      1%           419      5%
                 Farms               180,644     168,900      93%           2,802     2%           330      0%          77       0%       2,465      1%         6,070      3%
                 Land-in-Farms   129,728,731 125,614,210      97%         237,964     0%        36,512      0%      19,435       0%     535,515      0%     3,285,095      3%

Virginia         Population        6,187,358     4,701,650    76%       1,153,133    19%        14,347      0%     154,183       2%       3,757      0%      160,288       3%
                 Borrowers             1,388         1,182    85%             201    14%             1      0%           0       0%           4      0%            0       0%
                 Farms                42,222        40,840    97%           1,278     3%             0      0%           0       0%           0      0%          104       0%
                 Land-in-Farms     8,288,180     8,150,033    98%         124,404     2%             0      0%           0       0%           0      0%       13,743       0%

States Visited   Population       85,857,531 55,768,121       65% 13,269,491         15%       651,870      1% 3,431,555         4%      92,524      0% 12,643,970        15%
                 Borrowers            37,388      32,962      88%      2,980          8%           591      2%       117         0%         138      0%        600         2%
                 Farms               619,819     582,214      94%     15,054          2%         4,126      1%     3,383         1%       4,252      1%     10,790         2%
                 Land-in-Farms   263,177,544 255,210,313      97% 1,225,927           0%       978,051      0%   421,105         0%     739,707      0% 4,602,441          2%




Source: Ag Census/PLAS
USDA/OIG-A/50801-3-Hq                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 88
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                      Geneva County, Alabama                               Geneva Servicing Office
                                               Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
            Total              Borrowers              75                         24                        177                        62
                                   Loans             111                         36                        308                       123
                    Principal and Interest     5,399,408                    187,303                 12,938,056                   721,774

           White               Borrowers              74          99%            24        100%            167        94%             55         89%
                                   Loans             109          98%            36        100%            289        94%            110         89%
                    Principal and Interest     5,387,913         100%       187,303        100%     12,323,050        95%        637,323         88%

 African American              Borrowers                1           1%                0       0%             9          5%              7        11%
                                   Loans                2           2%                0       0%            18          6%             13        11%
                    Principal and Interest         11,495           0%                0       0%       536,236          4%         84,451        12%

 Native American               Borrowers                   0        0%                0       0%             1          1%                 0       0%
                                   Loans                   0        0%                0       0%             1          0%                 0       0%
                    Principal and Interest                 0        0%                0       0%        78,770          1%                 0       0%

           Asian               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%

           Other               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%

         Hispanic              Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 89
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                     Madison County, Alabama                               Jackson Servicing Office
                                               Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
            Total              Borrowers              41                          9                        220                        52
                                   Loans             109                         25                        474                       101
                    Principal and Interest     4,488,253                     65,472                 19,194,617                   716,748
           White               Borrowers              35          85%             7          78%           207        94%             48         92%
                                   Loans              91          83%            18          72%           448        95%             92         91%
                    Principal and Interest     4,224,607          94%        46,626          71%    18,260,431        95%        681,913         95%

 African American              Borrowers                6         15%             2          22%            11          5%              4          8%
                                   Loans               18         17%             7          28%            24          5%              9          9%
                    Principal and Interest        263,645          6%        18,845          29%       734,346          4%         34,834          5%
 Native American               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%
           Asian               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%

           Other               Borrowers                   0        0%                0       0%             1          0%                 0       0%
                                   Loans                   0        0%                0       0%             1          0%                 0       0%
                    Principal and Interest                 0        0%                0       0%        61,872          0%                 0       0%
         Hispanic              Borrowers                   0        0%                0       0%             1          0%                 0       0%
                                   Loans                   0        0%                0       0%             1          0%                 0       0%
                    Principal and Interest                 0        0%                0       0%       137,967          1%                 0       0%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 90
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                 Montgomery County, Alabama                                Elmore Servicing Office
                                               Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
            Total              Borrowers              37                          8                        155                        34
                                   Loans              57                         17                        279                        79
                    Principal and Interest     2,933,042                     53,046                 12,862,244                   947,308
           White               Borrowers              31          84%             6          75%           138        89%             28         82%
                                   Loans              47          82%            11          65%           253        91%             66         84%
                    Principal and Interest     2,716,939          93%        51,641          97%    12,300,927        96%        901,708         95%

 African American              Borrowers                5         14%              2         25%            16        10%               6        18%
                                   Loans                9         16%              6         35%            25         9%              13        16%
                    Principal and Interest        183,147          6%          1,405          3%       528,360         4%          45,600         5%
 Native American               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%
           Asian               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%

           Other               Borrowers                1           3%                0       0%             1          1%                 0       0%
                                   Loans                1           2%                0       0%             1          0%                 0       0%
                    Principal and Interest         32,955           1%                0       0%        32,955          0%                 0       0%
         Hispanic              Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 91
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                     Poinsett County, Arkansas                             Poinsett Servicing Office
                                               Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
            Total              Borrowers              58                          3                        181                        33
                                   Loans             126                          5                        418                        97
                    Principal and Interest     7,326,207                    421,246                 23,819,593                 3,191,598
           White               Borrowers              57          98%             3        100%            161        89%             26         79%
                                   Loans             124          98%             5        100%            356        85%             70         72%
                    Principal and Interest     7,049,422          96%       421,246        100%     21,225,823        89%      2,538,373         80%

 African American              Borrowers                1           2%                0       0%            20        11%              7         21%
                                   Loans                2           2%                0       0%            62        15%             27         28%
                    Principal and Interest        276,785           4%                0       0%     2,593,770        11%        653,225         20%
 Native American               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%
           Asian               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%

           Other               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%
         Hispanic              Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 92
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                      Phillips County, Arkansas                     (Only County Serviced by the Service Center.)
                                               Portfolio       Percent   Delinquent       Percent
            Total              Borrowers             112                         46
                                   Loans             400                        239
                    Principal and Interest    17,865,022                  7,075,861
           White               Borrowers              50          45%            14          30%
                                   Loans             154          39%            77          32%
                    Principal and Interest     8,904,037          50%     2,827,956          40%

 African American              Borrowers              62          55%            32          70%
                                   Loans             246          62%           162          68%
                    Principal and Interest     8,960,985          50%     4,247,905          60%
 Native American               Borrowers                   0        0%                0       0%
                                   Loans                   0        0%                0       0%
                    Principal and Interest                 0        0%                0       0%
           Asian               Borrowers                   0        0%                0       0%
                                   Loans                   0        0%                0       0%
                    Principal and Interest                 0        0%                0       0%

           Other               Borrowers                   0        0%                0       0%
                                   Loans                   0        0%                0       0%
                    Principal and Interest                 0        0%                0       0%
         Hispanic              Borrowers                   0        0%                0       0%
                                   Loans                   0        0%                0       0%
                    Principal and Interest                 0        0%                0       0%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                            Page 93
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                           Lee County, Arkansas                                  Cross Servicing Office
                                               Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
            Total              Borrowers             112                          55                        216                         91
                                   Loans             432                         257                        771                        445
                    Principal and Interest    18,580,764                   4,888,633                 36,661,768                 10,543,907
           White               Borrowers              61           54%            32          58%           133         62%             53         58%
                                   Loans             195           45%           118          46%           396         51%            217         49%
                    Principal and Interest    11,936,773           64%     2,580,016          53%    25,243,083         69%      6,406,300         61%

 African American              Borrowers              51           46%            23          42%            83         38%             38         42%
                                   Loans             237           55%           139          54%           375         49%            228         51%
                    Principal and Interest     6,643,991           36%     2,308,617          47%    11,418,686         31%      4,137,608         39%
 Native American               Borrowers                    0        0%                0       0%                 0       0%                 0       0%
                                   Loans                    0        0%                0       0%                 0       0%                 0       0%
                    Principal and Interest                  0        0%                0       0%                 0       0%                 0       0%
           Asian               Borrowers                    0        0%                0       0%                 0       0%                 0       0%
                                   Loans                    0        0%                0       0%                 0       0%                 0       0%
                    Principal and Interest                  0        0%                0       0%                 0       0%                 0       0%

           Other               Borrowers                    0        0%                0       0%                 0       0%                 0       0%
                                   Loans                    0        0%                0       0%                 0       0%                 0       0%
                    Principal and Interest                  0        0%                0       0%                 0       0%                 0       0%
         Hispanic              Borrowers                    0        0%                0       0%                 0       0%                 0       0%
                                   Loans                    0        0%                0       0%                 0       0%                 0       0%
                    Principal and Interest                  0        0%                0       0%                 0       0%                 0       0%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                   Page 94
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                   Riverside County, California                           Riverside Servicing Office
                                               Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
            Total              Borrowers              40                         29                        111                        78
                                   Loans              92                         75                        236                       182
                    Principal and Interest    40,758,449                 24,579,924                 72,424,470                41,052,907
           White               Borrowers              31          78%            23          79%            85        77%             60         77%
                                   Loans              73          79%            62          83%           189        80%            149         82%
                    Principal and Interest    38,783,687          95%    24,369,713          99%    64,410,710        89%     39,723,942         97%

 African American              Borrowers                1           3%            1           3%             1          1%              1          1%
                                   Loans                3           3%            3           4%             3          1%              3          2%
                    Principal and Interest        653,399           2%       48,256           0%       653,399          1%         48,256          0%
 Native American               Borrowers                1           3%             1          3%             3          3%              3          4%
                                   Loans                1           1%             1          1%             6          3%              4          2%
                    Principal and Interest         33,860           0%         3,532          0%       204,226          0%         95,411          0%
           Asian               Borrowers                1           3%                0       0%             8          7%             5           6%
                                   Loans                2           2%                0       0%            12          0%             7           0%
                    Principal and Interest        241,418           1%                0       0%     3,490,397          5%       501,512           1%

           Other               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%
         Hispanic              Borrowers               6          15%             4          14%            14        13%              9         12%
                                   Loans              13          14%             9          12%            26        11%             19         10%
                    Principal and Interest     1,046,086           3%       158,424           1%     3,665,739         5%        683,787          2%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 95
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                      Fresno County, California                             Fresno Servicing Office
                                               Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
            Total              Borrowers             124                         49                        175                        75
                                   Loans             239                        116                        394                       196
                    Principal and Interest    52,678,062                 17,491,374                 75,708,272                28,724,868
           White               Borrowers              98          79%            38          78%           146        83%             62         83%
                                   Loans             187          78%            91          78%           335        85%            167         85%
                    Principal and Interest    47,726,952          91%    16,702,030          95%    69,043,291        91%     27,098,640         94%

 African American              Borrowers                2           2%            1           2%             2          1%             1           1%
                                   Loans                8           3%            4           3%             8          2%             4           2%
                    Principal and Interest        350,435           1%      135,811           1%       350,435          0%       135,811           0%
 Native American               Borrowers                1           1%             1          2%             1          1%              1          1%
                                   Loans                2           1%             1          1%             2          1%              1          1%
                    Principal and Interest        242,257           0%         1,962          0%       242,257          0%          1,962          0%
           Asian               Borrowers              11            9%            4           8%            12          7%              4          5%
                                   Loans              15            6%            5           4%            17          0%              5          0%
                    Principal and Interest     1,828,322            3%       19,878           0%     2,173,319          3%         19,878          0%

           Other               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%
         Hispanic              Borrowers              12          10%             5          10%            14          8%             7          9%
                                   Loans              27          11%            15          13%            32          8%            19         10%
                    Principal and Interest     2,530,096           5%       631,692           4%     3,898,970          5%     1,468,576          5%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 96
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                 San Joaquin County, California                        San Joaquin Servicing Office
                                               Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
            Total              Borrowers              55                         19                        137                        62
                                   Loans             141                         47                        351                       162
                    Principal and Interest    18,755,063                  3,677,118                 42,311,216                 8,355,757
           White               Borrowers              49          89%            16          84%           128        93%             57         92%
                                   Loans             121          86%            36          77%           325        93%            148         91%
                    Principal and Interest    15,740,635          84%     3,179,916          86%    38,763,717        92%      7,851,966         94%

 African American              Borrowers               1            2%            1           5%             1          1%             1           2%
                                   Loans               7            5%            7          15%             7          2%             7           4%
                    Principal and Interest     1,683,052            9%      341,644           9%     1,683,052          4%       341,644           4%
 Native American               Borrowers                2           4%            1           5%             2          1%             1           2%
                                   Loans                6           4%            3           6%             6          2%             3           2%
                    Principal and Interest        608,322           3%      154,673           4%       608,322          1%       154,673           2%
           Asian               Borrowers                3           5%             1          5%             5          4%              3          5%
                                   Loans                7           5%             1          2%            12          0%              4          0%
                    Principal and Interest        723,054           4%           886          0%     1,235,942          3%          7,475          0%

           Other               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%
         Hispanic              Borrowers                   0        0%                0       0%             1          1%                 0       0%
                                   Loans                   0        0%                0       0%             1          0%                 0       0%
                    Principal and Interest                 0        0%                0       0%        20,182          0%                 0       0%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 97
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                      Tattnall County, Georgia                             Bullock Servicing Office
                                               Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
            Total              Borrowers              64                         17                        223                        63
                                   Loans             170                         71                        580                       235
                    Principal and Interest     9,118,091                  2,290,010                 30,287,764                 5,955,838
           White               Borrowers              51          80%            13          76%           191        86%             48         76%
                                   Loans             122          72%            39          55%           483        83%            174         74%
                    Principal and Interest     6,799,258          75%     1,251,864          55%    25,479,519        84%      4,072,160         68%

 African American              Borrowers              12          19%             4          24%            30        13%             14         22%
                                   Loans              47          28%            32          45%            95        16%             60         26%
                    Principal and Interest     2,275,299          25%     1,038,147          45%     4,760,900        16%      1,882,130         32%
 Native American               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%
           Asian               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%

           Other               Borrowers                   0        0%                0       0%              1         0%              1          2%
                                   Loans                   0        0%                0       0%              1         0%              1          0%
                    Principal and Interest                 0        0%                0       0%          3,809         0%          1,549          0%
         Hispanic              Borrowers                1           2%                0       0%             1          0%                 0       0%
                                   Loans                1           1%                0       0%             1          0%                 0       0%
                    Principal and Interest         43,534           0%                0       0%        43,534          0%                 0       0%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 98
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                           Worth County, Georgia                             Terrell Servicing Office
                                               Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
            Total              Borrowers              44                          15                        194                        70
                                   Loans             117                          42                        474                       213
                    Principal and Interest     8,081,110                   1,106,767                 30,230,328                 4,690,967
           White               Borrowers              37           84%            10          67%           155        80%             46         66%
                                   Loans              96           82%            27          64%           353        74%            133         62%
                    Principal and Interest     6,369,630           79%       418,559          38%    23,094,353        76%      2,849,505         61%

 African American              Borrowers               7           16%             5          33%            37        19%             23         33%
                                   Loans              21           18%            15          36%           118        25%             78         37%
                    Principal and Interest     1,711,481           21%       688,208          62%     6,725,939        22%      1,821,148         39%
 Native American               Borrowers                    0        0%                0       0%             1          1%                 0       0%
                                   Loans                    0        0%                0       0%             1          0%                 0       0%
                    Principal and Interest                  0        0%                0       0%        96,898          0%                 0       0%
           Asian               Borrowers                    0        0%                0       0%                0       0%                 0       0%
                                   Loans                    0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                  0        0%                0       0%                0       0%                 0       0%

           Other               Borrowers                    0        0%                0       0%                0       0%                 0       0%
                                   Loans                    0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                  0        0%                0       0%                0       0%                 0       0%
         Hispanic              Borrowers                    0        0%                0       0%             1          1%              1          1%
                                   Loans                    0        0%                0       0%             2          0%              2          1%
                    Principal and Interest                  0        0%                0       0%       313,137          1%         20,315          0%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 99
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                       Brooks County, Georgia                             Colquitt Servicing Office
                                               Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
            Total              Borrowers              27                         12                        194                        84
                                   Loans              82                         60                        541                       306
                    Principal and Interest     4,461,235                  1,560,493                 39,852,615                11,009,202
           White               Borrowers              15          56%             5          42%           173        89%             73         87%
                                   Loans              31          38%            16          27%           465        86%            254         83%
                    Principal and Interest     2,853,682          64%       784,588          50%    37,229,703        93%     10,180,666         92%

 African American              Borrowers              12          44%             7          58%            20        10%             10         12%
                                   Loans              51          62%            44          73%            75        14%             51         17%
                    Principal and Interest     1,607,553          36%       775,905          50%     2,547,800         6%        824,718          7%
 Native American               Borrowers                   0        0%                0       0%             1          1%              1          1%
                                   Loans                   0        0%                0       0%             1          0%              1          0%
                    Principal and Interest                 0        0%                0       0%        75,111          0%          3,818          0%
           Asian               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%

           Other               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%
         Hispanic              Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 100
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                   St. Landry Parish, Louisiana                     (Only County Serviced by the Service Center.)
                                               Portfolio       Percent   Delinquent       Percent
            Total              Borrowers             116                         54
                                   Loans             352                        213
                    Principal and Interest    16,918,382                  6,391,144
           White               Borrowers              93          80%            41          76%
                                   Loans             284          81%           156          73%
                    Principal and Interest    14,502,818          86%     4,886,927          76%

 African American              Borrowers              22          19%            12          22%
                                   Loans              66          19%            55          26%
                    Principal and Interest     2,413,562          20%     1,503,572          24%
 Native American               Borrowers                   0        0%                0       0%
                                   Loans                   0        0%                0       0%
                    Principal and Interest                 0        0%                0       0%
           Asian               Borrowers                   0        0%                0       0%
                                   Loans                   0        0%                0       0%
                    Principal and Interest                 0        0%                0       0%

           Other               Borrowers                 1          1%             1          2%
                                   Loans                 2          1%             2          1%
                    Principal and Interest           2,002          0%           646          0%
         Hispanic              Borrowers                   0        0%                0       0%
                                   Loans                   0        0%                0       0%
                    Principal and Interest                 0        0%                0       0%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                            Page 101
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                     Richland Parish, Louisiana                     (Only County Serviced by the Service Center.)
                                               Portfolio       Percent   Delinquent       Percent
            Total              Borrowers             159                         77
                                   Loans             580                        371
                    Principal and Interest    28,308,188                  8,289,125
           White               Borrowers             149          94%            70          91%
                                   Loans             551          95%           350          94%
                    Principal and Interest    26,930,233          95%     7,916,097          95%

 African American              Borrowers                9           6%            7           9%
                                   Loans               26           4%           21           6%
                    Principal and Interest        833,796           3%      373,028           5%
 Native American               Borrowers                1           1%                0       0%
                                   Loans                3           1%                0       0%
                    Principal and Interest        544,159           2%                0       0%
           Asian               Borrowers                   0        0%                0       0%
                                   Loans                   0        0%                0       0%
                    Principal and Interest                 0        0%                0       0%

           Other               Borrowers                   0        0%                0       0%
                                   Loans                   0        0%                0       0%
                    Principal and Interest                 0        0%                0       0%
         Hispanic              Borrowers                   0        0%                0       0%
                                   Loans                   0        0%                0       0%
                    Principal and Interest                 0        0%                0       0%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                            Page 102
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                       Caddo Parish, Louisiana                              Caddo Servicing Office
                                               Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
            Total              Borrowers              21                         10                         62                        35
                                   Loans              61                         36                        169                       111
                    Principal and Interest     4,196,479                  1,193,531                 10,588,367                 3,028,784
           White               Borrowers              18          86%             7          70%            59        95%             32         91%
                                   Loans              47          77%            22          61%           155        92%             97         87%
                    Principal and Interest     3,546,813          85%       893,471          75%     9,938,701        94%      2,728,724         90%

 African American              Borrowers                3         14%             3          30%             3          5%             3          9%
                                   Loans               14         23%            14          39%            14          8%            14         13%
                    Principal and Interest        649,667         15%       300,060          25%       649,667          6%       300,060         10%
 Native American               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%
           Asian               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%

           Other               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%
         Hispanic              Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 103
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                      Hinds County, Mississippi                            Warren Servicing Office
                                               Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
            Total              Borrowers              30                         22                        140                        94
                                   Loans             135                        119                        476                       381
                    Principal and Interest    14,600,712                  7,614,412                 43,650,057                18,956,268
           White               Borrowers              23          77%            16         73%            109        78%             73         78%
                                   Loans             125          93%           111         93%            378        79%            303         80%
                    Principal and Interest    14,201,394          97%     7,582,288        100%     39,865,209        91%     17,266,775         91%

 African American              Borrowers                6         20%             5          23%            29        21%             20         21%
                                   Loans                8          6%             7           6%            95        20%             77         20%
                    Principal and Interest        307,808          2%        29,824           0%     3,633,863         8%      1,687,193          9%
 Native American               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%
           Asian               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%

           Other               Borrowers                   0        0%                0       0%             1          1%                 0       0%
                                   Loans                   0        0%                0       0%             1          0%                 0       0%
                    Principal and Interest                 0        0%                0       0%        59,475          0%                 0       0%
         Hispanic              Borrowers                1           3%             1          5%             1          1%              1          1%
                                   Loans                2           1%             1          1%             2          0%              1          0%
                    Principal and Interest         91,510           1%         2,300          0%        91,510          0%          2,300          0%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 104
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                   Marshall County, Mississippi                             Panola Servicing Office
                                               Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
            Total              Borrowers              73                         35                        244                       103
                                   Loans             189                        129                        619                       411
                    Principal and Interest    16,463,064                  9,020,733                 44,914,687                26,835,193
           White               Borrowers              59          81%            24          69%           202        83%             80         78%
                                   Loans             152          80%           100          78%           500        81%            337         82%
                    Principal and Interest    15,268,674          93%     8,453,660          94%    42,607,991        95%     25,598,702         95%

 African American              Borrowers              14          19%            11          31%            42        17%             23         22%
                                   Loans              37          20%            29          22%           119        19%             74         18%
                    Principal and Interest     1,194,390           7%       567,073           6%     2,306,696         5%      1,236,490          5%
 Native American               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%
           Asian               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%

           Other               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%
         Hispanic              Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 105
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                   Winston County, Mississippi                            Noxubee Servicing Office
                                               Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
            Total              Borrowers             151                         51                        236                        86
                                   Loans             314                         94                        508                       176
                    Principal and Interest     3,306,680                    168,546                 11,811,019                 1,198,570
           White               Borrowers             120          79%            34          67%           184        78%             62         72%
                                   Loans             249          79%            58          62%           400        79%            122         69%
                    Principal and Interest     2,868,084          87%        79,562          47%    10,577,319        90%        977,744         82%

 African American              Borrowers               30         20%            17          33%            50        21%             24         28%
                                   Loans               64         20%            36          38%           106        21%             54         31%
                    Principal and Interest        437,922         13%        88,984          53%     1,136,767        10%        220,827         18%
 Native American               Borrowers                 1          1%                0       0%             2          1%                 0       0%
                                   Loans                 1          0%                0       0%             2          0%                 0       0%
                    Principal and Interest             674          0%                0       0%        96,932          1%                 0       0%
           Asian               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%

           Other               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%
         Hispanic              Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 106
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                               Granville County, North Carolina                                 Wake Servicing Office
                                               Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
            Total              Borrowers              24                         11                        195                         82
                                   Loans              44                         26                        403                        184
                    Principal and Interest     4,456,522                  1,230,181                 26,674,712                  5,142,060
           White               Borrowers              23          96%            10          91%           172         88%             69         84%
                                   Loans              38          86%            20          77%           358         89%            159         86%
                    Principal and Interest     3,277,388          74%       513,805          42%    24,098,488         90%      4,282,937         83%

 African American              Borrowers               1           4%             1           9%            22         11%             12         15%
                                   Loans               6          14%             6          23%            44         11%             24         13%
                    Principal and Interest     1,179,134          26%       716,376          58%     2,540,646         10%        856,798         17%
 Native American               Borrowers                   0        0%                0       0%                 0       0%                 0       0%
                                   Loans                   0        0%                0       0%                 0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                 0       0%                 0       0%
           Asian               Borrowers                   0        0%                0       0%                 0       0%                 0       0%
                                   Loans                   0        0%                0       0%                 0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                 0       0%                 0       0%

           Other               Borrowers                   0        0%                0       0%             1           1%              1          1%
                                   Loans                   0        0%                0       0%             1           0%              1          1%
                    Principal and Interest                 0        0%                0       0%        35,578           0%          2,326          0%
         Hispanic              Borrowers                   0        0%                0       0%                 0       0%                 0       0%
                                   Loans                   0        0%                0       0%                 0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                 0       0%                 0       0%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 107
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                 Duplin County, North Carolina                            Sampson Servicing Office
                                               Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
            Total              Borrowers              85                         29                        287                       135
                                   Loans             175                         72                        657                       308
                    Principal and Interest     6,817,032                    889,527                 31,474,636                 7,082,826
           White               Borrowers              70          82%            20          69%           234        82%            102         76%
                                   Loans             132          75%            46          64%           507        77%            233         76%
                    Principal and Interest     5,468,941          80%       789,794          89%    27,467,633        87%      6,355,341         90%

 African American              Borrowers              14          16%             9          31%            45        16%             27         20%
                                   Loans              42          24%            26          36%           133        20%             62         20%
                    Principal and Interest     1,111,824          16%        99,734          11%     2,790,347         9%        530,380          7%
 Native American               Borrowers                   0        0%                0       0%             3          1%              3          2%
                                   Loans                   0        0%                0       0%             4          1%              4          1%
                    Principal and Interest                 0        0%                0       0%       185,844          1%         66,092          1%
           Asian               Borrowers                   0        0%                0       0%             2          1%             2           1%
                                   Loans                   0        0%                0       0%             9          0%             8           0%
                    Principal and Interest                 0        0%                0       0%       550,549          2%       118,269           2%

           Other               Borrowers                1           1%                0       0%             3          1%              1          1%
                                   Loans                1           1%                0       0%             4          1%              1          0%
                    Principal and Interest        236,266           3%                0       0%       480,260          2%         12,745          0%
         Hispanic              Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 108
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                               Columbus County, North Carolina                           Columbus Servicing Office
                                               Portfolio       Percent   Delinquent       Percent   Portfolio    Percent   Delinquent       Percent
            Total              Borrowers              96                         44                        325                    162
                                   Loans             198                         93                        788                    382
                    Principal and Interest     9,136,046                    936,285                 27,783,519              4,629,458
           White               Borrowers              81          84%            36          82%           213     66%             97         60%
                                   Loans             171          86%            82          88%           490     62%            215         56%
                    Principal and Interest     8,697,406          95%       906,199          97%    20,448,339     74%      2,793,120         60%

 African American              Borrowers               12         13%             7          16%            57     18%             35         22%
                                   Loans               24         12%            10          11%           170     22%             98         26%
                    Principal and Interest        402,826          4%        29,202           3%     3,146,067     11%        876,944         19%
 Native American               Borrowers                3           3%             1          2%            41     13%             24         15%
                                   Loans                3           2%             1          1%            97     12%             57         15%
                    Principal and Interest         35,814           0%           884          0%     3,014,998     11%        851,146         18%
           Asian               Borrowers                   0        0%                0       0%             5       2%              1          1%
                                   Loans                   0        0%                0       0%            11       0%              1          0%
                    Principal and Interest                 0        0%                0       0%       506,575       2%         76,059          2%

           Other               Borrowers                   0        0%                0       0%             1       0%                 0       0%
                                   Loans                   0        0%                0       0%             2       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%        56,202       0%                 0       0%
         Hispanic              Borrowers                   0        0%                0       0%             8       2%              5          3%
                                   Loans                   0        0%                0       0%            18       2%             11          3%
                    Principal and Interest                 0        0%                0       0%       611,337       2%         32,191          1%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 109
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                    Choctaw County, Oklahoma                              Choctaw Servicing Office
                                               Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
            Total              Borrowers             206                        111                        393                       193
                                   Loans             534                        306                        871                       482
                    Principal and Interest    48,169,867                 20,972,673                 63,746,239                26,275,193
           White               Borrowers             182          88%            97          87%           351        89%            167         87%
                                   Loans             448          84%           257          84%           760        87%            419         87%
                    Principal and Interest    43,697,259          91%    19,949,880          95%    58,424,287        92%     25,125,766         96%

 African American              Borrowers                5           2%            4           4%            11          3%             8           4%
                                   Loans               17           3%           10           3%            26          3%            15           3%
                    Principal and Interest        400,365           1%       57,219           0%       871,055          1%       166,889           1%
 Native American               Borrowers              17           8%             9           8%            29          7%            17          9%
                                   Loans              66          12%            38          12%            82          9%            47         10%
                    Principal and Interest     3,851,116           8%       895,393           4%     4,229,770          7%       912,356          3%
           Asian               Borrowers                1           0%            1           1%             1          0%              1          1%
                                   Loans                2           0%            1           0%             2          0%              1          0%
                    Principal and Interest        140,862           0%       70,181           0%       140,862          0%         70,181          0%

           Other               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%
         Hispanic              Borrowers                1           0%                0       0%             1          0%                 0       0%
                                   Loans                1           0%                0       0%             1          0%                 0       0%
                    Principal and Interest         80,265           0%                0       0%        80,265          0%                 0       0%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 110
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                   Cherokee County, Oklahoma                             Cherokee Servicing Office
                                               Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
            Total              Borrowers              77                         20                        297                        90
                                   Loans             152                         47                        549                       215
                    Principal and Interest     8,580,327                    783,664                 28,893,345                 4,070,368
           White               Borrowers              65          84%            19         95%            218        73%             70         78%
                                   Loans             128          84%            46         98%            422        77%            173         80%
                    Principal and Interest     6,655,515          78%       780,062        100%     21,088,619        73%      3,386,202         83%

 African American              Borrowers                   0        0%                0       0%            11          4%              5          6%
                                   Loans                   0        0%                0       0%            24          4%             16          7%
                    Principal and Interest                 0        0%                0       0%       615,988          2%         99,399          2%
 Native American               Borrowers              12          16%              1          5%            66        22%             14         16%
                                   Loans              24          16%              1          2%            98        18%             22         10%
                    Principal and Interest     1,924,812          22%          3,602          0%     6,737,071        23%        350,090          9%
           Asian               Borrowers                   0        0%                0       0%             1          0%             1           1%
                                   Loans                   0        0%                0       0%             4          0%             4           0%
                    Principal and Interest                 0        0%                0       0%       423,958          1%       234,677           6%

           Other               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%
         Hispanic              Borrowers                   0        0%                0       0%             1          0%                 0       0%
                                   Loans                   0        0%                0       0%             1          0%                 0       0%
                    Principal and Interest                 0        0%                0       0%        27,709          0%                 0       0%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 111
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                      Grady County, Oklahoma                                Grady Servicing Office
                                               Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
            Total              Borrowers              98                         31                        207                        75
                                   Loans             241                         81                        527                       209
                    Principal and Interest    13,827,630                  1,148,444                 35,722,421                 5,302,850
           White               Borrowers              96          98%            30          97%           205        99%             74         99%
                                   Loans             238          99%            79          98%           524        99%            207         99%
                    Principal and Interest    13,523,893          98%     1,128,671          98%    35,418,684        99%      5,283,077        100%

 African American              Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%
 Native American               Borrowers                2           2%            1           3%             2          1%              1          1%
                                   Loans                3           1%            2           2%             3          1%              2          1%
                    Principal and Interest        303,736           2%       19,773           2%       303,736          1%         19,773          0%
           Asian               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%

           Other               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%
         Hispanic              Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 112
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                              Orangeburg County, South Carolina                        Orangeburg Servicing Office
                                               Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
            Total              Borrowers              88                         41                        137                        60
                                   Loans             250                        138                        392                       214
                    Principal and Interest    12,464,017                  2,662,612                 33,148,576                 6,883,788
           White               Borrowers              60          68%            23          56%           103        75%             40         67%
                                   Loans             154          62%            75          54%           285        73%            149         70%
                    Principal and Interest     9,668,882          78%     1,867,746          70%    29,508,716        89%      6,011,336         87%

 African American              Borrowers              28          32%            18          44%            34        25%             20         33%
                                   Loans              96          38%            63          46%           107        27%             65         30%
                    Principal and Interest     2,795,135          22%       794,865          30%     3,639,860        11%        872,451         13%
 Native American               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%
           Asian               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%

           Other               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%
         Hispanic              Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 113
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                              Clarendon County, South Carolina                           Clarendon Servicing Office
                                               Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
            Total              Borrowers             109                         44                        195                        94
                                   Loans             223                         99                        537                       327
                    Principal and Interest    13,009,345                  1,063,462                 27,005,340                 6,101,086
           White               Borrowers              77          71%            28          64%           127        65%             57         61%
                                   Loans             155          70%            61          62%           313        58%            180         55%
                    Principal and Interest    10,141,702          78%       483,592          45%    20,374,619        75%      3,804,385         62%

 African American              Borrowers              31          28%            16          36%            67        34%             37         39%
                                   Loans              67          30%            38          38%           223        42%            147         45%
                    Principal and Interest     2,847,434          22%       579,870          55%     6,610,512        24%      2,296,701         38%
 Native American               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%
           Asian               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%

           Other               Borrowers                1           1%                0       0%             1          1%                 0       0%
                                   Loans                1           0%                0       0%             1          0%                 0       0%
                    Principal and Interest         20,208           0%                0       0%        20,208          0%                 0       0%
         Hispanic              Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 114
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                               Anderson County, South Carolina                           Anderson Servicing Office
                                               Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
            Total              Borrowers              36                         12                        134                        44
                                   Loans              63                         22                        278                        90
                    Principal and Interest     2,570,989                    265,169                 16,033,366                 2,121,148
           White               Borrowers              33          92%            11         92%            116        87%             38         86%
                                   Loans              58          92%            21         95%            243        87%             76         84%
                    Principal and Interest     2,479,119          96%       265,166        100%     14,568,044        91%      2,028,965         96%

 African American              Borrowers                3           8%                1       8%            13        10%               6        14%
                                   Loans                5           8%                1       5%            29        10%              14        16%
                    Principal and Interest         91,870           4%                3       0%     1,135,576         7%          92,182         4%
 Native American               Borrowers                   0        0%                0       0%             1          1%                 0       0%
                                   Loans                   0        0%                0       0%             1          0%                 0       0%
                    Principal and Interest                 0        0%                0       0%        47,894          0%                 0       0%
           Asian               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%

           Other               Borrowers                   0        0%                0       0%             4          3%                 0       0%
                                   Loans                   0        0%                0       0%             5          2%                 0       0%
                    Principal and Interest                 0        0%                0       0%       281,852          2%                 0       0%
         Hispanic              Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 115
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                      Guadalupe County, Texas                           Guadalupe Servicing Office
                                               Portfolio       Percent   Delinquent       Percent   Portfolio    Percent   Delinquent       Percent
            Total              Borrowers              20                         15                        184                    123
                                   Loans              34                         21                        567                    390
                    Principal and Interest     2,180,230                    383,606                 38,035,497             10,541,923
           White               Borrowers              16          80%            13          87%           163     89%            111         90%
                                   Loans              29          85%            19          90%           495     87%            341         87%
                    Principal and Interest     2,129,464          98%       381,038          99%    33,814,160     89%      9,635,410         91%

 African American              Borrowers                4         20%              2         13%             5       3%              3          2%
                                   Loans                5         15%              2         10%             9       2%              6          2%
                    Principal and Interest         50,766          2%          2,568          1%       160,088       0%         45,978          0%
 Native American               Borrowers                   0        0%                0       0%             3       2%             1           1%
                                   Loans                   0        0%                0       0%            13       2%             9           2%
                    Principal and Interest                 0        0%                0       0%       781,598       2%       242,759           2%
           Asian               Borrowers                   0        0%                0       0%             2       1%              2          2%
                                   Loans                   0        0%                0       0%            11       0%              7          0%
                    Principal and Interest                 0        0%                0       0%       588,152       2%         89,940          1%

           Other               Borrowers                   0        0%                0       0%             1       1%                 0       0%
                                   Loans                   0        0%                0       0%             1       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%       190,814       1%                 0       0%
         Hispanic              Borrowers                   0        0%                0       0%            10       5%             6           5%
                                   Loans                   0        0%                0       0%            38       7%            27           7%
                    Principal and Interest                 0        0%                0       0%     2,500,684       7%       527,836           5%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 116
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                    Nacogdoches County, Texas                          Nacogdoches Servicing Office
                                               Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
            Total              Borrowers             169                         97                        208                       121
                                   Loans             462                        292                        551                       352
                    Principal and Interest    32,485,056                  6,180,490                 38,802,264                 7,395,330
           White               Borrowers             165          98%            95          98%           200        96%            116         96%
                                   Loans             452          98%           287          98%           531        96%            340         97%
                    Principal and Interest    31,487,285          97%     6,123,017          99%    37,225,970        96%      7,245,775         98%

 African American              Borrowers                4           2%            2           2%             8          4%             5           4%
                                   Loans               10           2%            5           2%            20          4%            12           3%
                    Principal and Interest        997,771           3%       57,472           1%     1,576,294          4%       149,554           2%
 Native American               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%
           Asian               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%

           Other               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%
         Hispanic              Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 117
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                           Hidalgo County, Texas                            Willacy Servicing Office
                                               Portfolio        Percent   Delinquent       Percent   Portfolio    Percent   Delinquent       Percent
            Total              Borrowers              51                          27                        209                    124
                                   Loans             101                          72                        369                    251
                    Principal and Interest     9,660,520                   3,138,004                 27,800,756              8,820,208
           White               Borrowers              27           53%            17          63%            94     45%             55         44%
                                   Loans              48           48%            36          50%           178     48%            122         49%
                    Principal and Interest     6,376,844           66%     2,517,683          80%    18,144,151     65%      6,826,763         77%

 African American              Borrowers                1            2%                0       0%             1       0%                 0       0%
                                   Loans                1            1%                0       0%             1       0%                 0       0%
                    Principal and Interest         96,705            1%                0       0%        96,705       0%                 0       0%
 Native American               Borrowers                2            4%            3          11%             8       4%             8           6%
                                   Loans                7            7%            7          10%            20       5%            19           8%
                    Principal and Interest        517,860            5%      225,667           7%     1,655,047       6%       799,606           9%
           Asian               Borrowers                    0        0%                0       0%             2       1%              2          2%
                                   Loans                    0        0%                0       0%             2       0%              2          0%
                    Principal and Interest                  0        0%                0       0%       150,576       1%          6,815          0%

           Other               Borrowers                    0        0%                0       0%             1       0%              1          1%
                                   Loans                    0        0%                0       0%             1       0%              1          0%
                    Principal and Interest                  0        0%                0       0%        66,869       0%         28,043          0%
         Hispanic              Borrowers              21           41%             8          30%           103     49%             58         47%
                                   Loans              45           45%            29          40%           167     45%            107         43%
                    Principal and Interest     2,669,111           28%       394,653          13%     7,687,408     28%      1,158,980         13%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 118
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                      Franklin County, Virginia                           Franklin Servicing Office
                                               Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
            Total              Borrowers              34                         19                        135                        62
                                   Loans              81                         41                        324                       144
                    Principal and Interest     5,835,585                  1,394,707                 16,660,111                 2,639,360
           White               Borrowers              26          76%            15          79%           119        88%             53         85%
                                   Loans              51          63%            31          76%           278        86%            123         85%
                    Principal and Interest     4,852,607          83%     1,362,347          98%    14,926,752        90%      2,502,736         95%

 African American              Borrowers                8         24%             4          21%            16        12%              9         15%
                                   Loans               30         37%            10          24%            46        14%             21         15%
                    Principal and Interest        982,978         17%        32,360           2%     1,733,359        10%        136,624          5%
 Native American               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%
           Asian               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%
           Other               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%
         Hispanic              Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 119
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                       Halifax County, Virginia                         Pittsylvania Servicing Office
                                               Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
            Total              Borrowers              43                         18                        167                        41
                                   Loans              85                         40                        428                        96
                    Principal and Interest     4,790,894                    579,826                 17,039,281                   802,971
           White               Borrowers              24          56%            10          56%           120        72%             25         61%
                                   Loans              51          60%            29          73%           319        75%             65         68%
                    Principal and Interest     3,579,275          75%       551,802          95%    14,575,593        86%        713,844         89%
 African American              Borrowers              19          44%             8          44%            47        28%              16        39%
                                   Loans              34          40%            11          28%           109        25%              31        32%
                    Principal and Interest     1,211,619          25%        28,024           5%     2,463,689        14%          89,128        11%
 Native American               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%
           Asian               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%
           Other               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0
                                                                                      0       0%                0       0%                 0       0%
         Hispanic              Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 120
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                  Mecklenburg County, Virginia                          Lunenburg Servicing Office
                                               Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
            Total              Borrowers              65                         21                        144                        44
                                   Loans             165                         62                        391                       173
                    Principal and Interest     6,534,999                    634,631                 19,645,839                 4,923,306
           White               Borrowers              50          77%            13          62%           111        77%             30         68%
                                   Loans             119          72%            36          58%           298        76%            126         73%
                    Principal and Interest     5,300,472          81%       535,514          84%    16,859,838        86%      4,573,190         93%
 African American              Borrowers              15          23%             8          38%            33        23%             14         32%
                                   Loans              46          28%            26          42%            93        24%             47         27%
                    Principal and Interest     1,234,527          19%        99,117          16%     2,786,001        14%        350,115          7%
 Native American               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%
           Asian               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%
           Other               Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%
         Hispanic              Borrowers                   0        0%                0       0%                0       0%                 0       0%
                                   Loans                   0        0%                0       0%                0       0%                 0       0%
                    Principal and Interest                 0        0%                0       0%                0       0%                 0       0%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 121
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                            Target County Subtotals                                                 Servicing Center Subtotals
                                                    Portfolio          Percent          Delinquent         Percent             Portfolio           Percent   Delinquent    Percent
            Total                 Borrowers            2,540                                1,075                                 6,269                            2,649
                                      Loans            6,515                                3,364                                15,562                            7,858
                       Principal and Interest    454,757,270                          138,338,019                         1,018,812,567                      290,417,694

           White                  Borrowers            2,046                81%               820                76%              5,076              81%           2,032     77%
                                      Loans            5,030                77%             2,458                73%             12,315              79%           5,950     76%
                       Principal and Interest    393,147,603                86%       120,789,779                87%        887,644,808              87%     255,714,268     88%

 African American                 Borrowers               390               15%               213                20%                 817             13%             430     16%
                                      Loans             1,249               19%               789                23%               2,516             16%           1,508     19%
                       Principal and Interest      43,861,366               10%        14,964,094                11%          82,634,446              8%      26,141,643      9%
 Native American                  Borrowers                 42               2%                 18               2%                  165               3%             74       3%
                                      Loans                116               2%                 54               2%                  340               2%            169       2%
                       Principal and Interest        8,062,610               2%          1,305,486               1%           18,902,633               2%      3,497,686       1%

           Asian                  Borrowers                 16               1%                   6              1%                   38               1%             21       1%
                                      Loans                 26               0%                   7              0%                   80               1%             39       0%
                       Principal and Interest        2,933,656               1%              90,945              0%            9,260,330               1%      1,124,806       0%

           Other                  Borrowers                  4               0%                    1             0%                   17               0%              5       0%
                                      Loans                  5               0%                    2             0%                   21               0%              6       0%
                       Principal and Interest          291,431               0%                  646             0%            1,291,896               0%         45,309       0%

         Hispanic                 Borrowers                 42               2%                 18               2%                  156               2%             87       3%
                                      Loans                 89               1%                 54               2%                  290               2%            186       2%
                       Principal and Interest        6,460,602               1%          1,187,069               1%           19,078,442               2%      3,893,985       1%
                    Note: Phillips County, AR, St. Landry Parish, LA, and Richland Parish, LA, are in both Target County Subtotals and Servicing
                          Center Subtotals since these are the only counties serviced by the Servicing Center.




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 122
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                               State of Alabama                                     State of Arkansas
                                               Portfolio         Percent   Delinquent        Percent    Portfolio       Percent   Delinquent       Percent
            Total              Borrowers           2,041                          519                        4,231                     1,184
                                   Loans           3,807                          995                        9,872                     3,392
                    Principal and Interest   133,887,592                    6,722,409                  455,207,241                63,279,791
           White               Borrowers             1,799          88%            432          83%           3,876       92%           1,030        87%
                                   Loans           3,421            90%           862           87%          8,628        87%          2,700         80%
                    Principal and Interest   126,025,940            94%     6,076,197           90%    409,987,929        90%     49,483,848         78%

 African American              Borrowers             229            11%            85           16%            318         8%            147         12%
                                   Loans             358             9%           131           13%          1,176        12%            683         20%
                    Principal and Interest     6,845,649             5%       643,160           10%     41,396,328         9%     13,753,433         22%
 Native American               Borrowers                4             0%             2           0%             14          0%              1          0%
                                   Loans               12             0%             2           0%             27          0%              1          0%
                    Principal and Interest        403,396             0%         3,050           0%      1,747,004          0%          3,859          0%
           Asian               Borrowers                   0          0%                0        0%               2         0%              1          0%
                                   Loans                   0          0%                0        0%               2         0%              1          0%
                    Principal and Interest                 0          0%                00       0%           7,769         0%            300          0%
           Other               Borrowers                7             0%                0        0%             13          0%              1          0%
                                   Loans                9             0%                0        0%             26          0%              1          0%
                    Principal and Interest        325,989             0%                0
                                                                                        0        0%      1,328,129          0%          3,380          0%
         Hispanic              Borrowers                   2          0%                0        0%                 8       0%                 4       0%
                                   Loans                7             0%                0        0%             13          0%              6          0%
                    Principal and Interest        286,620             0%                0        0%        740,084          0%         34,970          0%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 123
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                            State of California                                        State of Georgia
                                               Portfolio        Percent    Delinquent       Percent    Portfolio         Percent   Delinquent       Percent
            Total              Borrowers           1,937                          801                       2,075                         725
                                   Loans           4,611                        2,226                       5,398                       2,446
                    Principal and Interest   826,301,722                  289,599,859                 367,155,403                  81,551,629
           White               Borrowers           1,679           87%            688          86%          1,846          89%            609         84%
                                   Loans           4,063           88%          1,969          88%          4,618          86%          1,947         80%
                    Principal and Interest   758,169,907           92%    275,801,356          95%    324,337,507          88%     67,027,755         82%
 African American              Borrowers              16             1%            12           1%            218          11%            112         15%
                                   Loans              47             1%            38           2%            756          14%            486         20%
                    Principal and Interest     4,187,420             1%       967,464           0%     41,305,014          11%     14,330,247         18%
 Native American               Borrowers                   27        1%             12          1%                 3         0%                 1       0%
                                   Loans                   60        1%             21          1%                 4         0%                 1       0%
                    Principal and Interest     4,910,602             1%       595,403           0%        357,492            0%           3,818         0%
           Asian               Borrowers              85             4%            33           4%                 0         0%                 0       0%
                                   Loans             179             0%            75           0%                 0         0%                 0       0%
                    Principal and Interest    24,806,667             3%     3,071,519           1%                 0         0%                 0       0%
           Other               Borrowers                5            0%                 0       0%              5            0%               1         0%
                                   Loans                6            0%                 0       0%              8            0%               1         0%
                    Principal and Interest        323,502            0%                 0       0%        469,389            0%           1,549         0%
         Hispanic              Borrowers               125           6%             56          7%                 3         0%                 2       0%
                                   Loans             256             6%           123           6%             12            0%            11           0%
                    Principal and Interest    33,903,622             4%     9,164,117           3%        685,998            0%       188,264           0%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                      Page 124
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                           State of Louisiana                                      State of Mississippi
                                               Portfolio       Percent    Delinquent       Percent    Portfolio         Percent   Delinquent    Percent
            Total              Borrowers           2,648                       1,249                       4,912                        2,337
                                   Loans           7,905                       4,992                      14,227                        8,721
                    Principal and Interest   399,906,688                 135,514,746                 794,921,456                  302,496,259
           White               Borrowers           2,390          90%          1,093          88%          4,054          83%           1,807     77%
                                   Loans           6,877          87%          4,222          85%         11,725          82%           7,084     81%
                    Principal and Interest   360,708,803          90%    119,037,983          88%    728,899,318          92%     280,750,255     93%
 African American              Borrowers               236          9%            147         12%                 826     17%             520     22%
                                   Loans             972          12%            741          15%          2,425          17%           1,611     18%
                    Principal and Interest    35,093,635           9%     15,058,131          11%     63,022,416           8%      21,573,398      7%
 Native American               Borrowers               8            0%             2           0%              5            0%              2       0%
                                   Loans              13            0%             4           0%             18            0%             12       0%
                    Principal and Interest     1,033,859            0%        32,999           0%        789,099            0%         46,799       0%
           Asian               Borrowers                   0        0%                 0       0%              1            0%              1       0%
                                   Loans                   0        0%                 0       0%              1            0%              1       0%
                    Principal and Interest                 0        0%                 0       0%         82,759            0%         12,633       0%
           Other               Borrowers                6           0%             3           0%             23            0%              5       0%
                                   Loans               11           0%             8           0%             53            0%             11       0%
                    Principal and Interest        312,294           0%        23,751           0%      1,839,922            0%         61,793       0%

         Hispanic              Borrowers               8            0%             4           0%              3            0%              2       0%
                                   Loans              32            0%            17           0%              5            0%              2       0%
                    Principal and Interest     2,758,102            1%     1,361,884           1%        287,939            0%         51,373       0%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 125
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                           State of North Carolina                            State of Oklahoma
                                               Portfolio        Percent   Delinquent   Percent    Portfolio      Percent   Delinquent    Percent
            Total              Borrowers           2,710                       1,040                   5,787                     2,235
                                   Loans           6,406                       2,690                  13,537                     6,036
                    Principal and Interest   318,110,124                  60,067,702             804,263,590               149,178,752
           White               Borrowers           2,256           83%           801      77%          5,222       90%           2,043     91%
                                   Loans           5,218           81%         2,106      78%         12,426       92%           5,581     92%
                    Principal and Interest   280,862,529           88%    50,919,148      85%    744,242,949       93%     140,717,087     94%
 African American              Borrowers             379           14%           201      19%             96         2%             59       3%
                                   Loans           1,020           16%           500      19%            275         2%            170       3%
                    Principal and Interest    30,492,553           10%     7,985,311      13%     10,751,640         1%      2,862,148       2%
 Native American               Borrowers              50             2%           28       3%            428         7%            117       5%
                                   Loans             116             2%           62       2%            749         6%            250       4%
                    Principal and Interest     3,935,487             1%      921,653       2%     41,189,502         5%      4,187,356       3%
           Asian               Borrowers               8             0%            3       0%              7         0%             5        0%
                                   Loans              22             0%            9       0%             12         0%             8        0%
                    Principal and Interest     1,347,537             0%      194,328       0%        725,464         0%       375,740        0%
           Other               Borrowers                9            0%            2       0%             11         0%             4        0%
                                   Loans               12            0%            2       0%             17         0%             6        0%
                    Principal and Interest        860,680            0%       15,071       0%      4,419,477         1%       803,652        1%
         Hispanic              Borrowers                8            0%            5       0%             23         0%             7        0%
                                   Loans               18            0%           11       0%             58         0%            21        0%
                    Principal and Interest        611,337            0%       32,191       0%      2,934,552         0%       232,768        0%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                           Page 126
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                           State of South Carolina                                        State of Texas
                                               Portfolio        Percent   Delinquent       Percent      Portfolio          Percent   Delinquent       Percent
            Total              Borrowers           1,508                         575                         8,151                         4,011
                                   Loans           4,109                       1,864                        24,321                        13,273
                    Principal and Interest   223,823,740                  51,566,134                 1,496,394,708                   425,620,532
           White               Borrowers           1,211           80%           429          75%            7,447           91%           3,615        90%
                                   Loans           3,246           79%         1,372          74%           22,381           92%          12,063        91%
                    Principal and Interest   197,431,631           88%    42,477,246          82%    1,397,487,076           93%     400,671,174        94%
 African American              Borrowers               286         19%            145         25%                   175        2%            115          3%
                                   Loans             847           21%           491          26%             486              2%            353          3%
                    Principal and Interest    25,235,724           11%     9,086,261          18%      21,099,649              1%      6,666,554          2%
 Native American               Borrowers                2            0%                0       0%              49              1%             33          1%
                                   Loans                5            0%                0       0%             154              1%            111          1%
                    Principal and Interest        130,087            0%                0       0%       8,922,885              1%      2,793,446          1%
           Asian               Borrowers                    0        0%                0       0%              14              0%             13          0%
                                   Loans                    0        0%                0       0%              84              0%             77          1%
                    Principal and Interest                  0        0%                0       0%       4,734,676              0%      1,817,306          0%
           Other               Borrowers                    8        1%                1       0%                   47         1%                 8       0%
                                   Loans                   10        0%                1       0%                   65         0%                 9       0%
                    Principal and Interest        718,225            0%         2,623          0%       3,859,697              0%          82,495         0%
         Hispanic              Borrowers                1            0%                0       0%             419              5%            227          6%
                                   Loans                1            0%                0       0%           1,151              5%            660          5%
                    Principal and Interest        308,072            0%                0       0%      60,290,715              4%     13,589,556          3%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                        Page 127
EXHIBIT G - FSA'S LOAN PORTFOLIO OF SITES VISITED
                                                               State of Virginia                                           States Visited
                                               Portfolio         Percent   Delinquent       Percent      Portfolio          Percent     Delinquent    Percent
            Total              Borrowers           1,388                          503                        37,388                          15,179
                                   Loans           3,459                        1,456                        97,652                          48,091
                    Principal and Interest   190,950,298                   34,901,783                 6,010,922,562                   1,600,499,596
           White               Borrowers           1,182            85%           396          79%           32,962           88%        12,943         85%
                                   Loans           2,801            81%         1,082          74%           85,404           87%        40,988         85%
                    Principal and Interest   166,801,702            87%    27,581,095          79%    5,494,955,291           91% 1,460,543,144         91%
 African American              Borrowers               201          14%            106         21%             2,980            8%            1,649     11%
                                   Loans             648            19%           373          26%           9,010              9%           5,577      12%
                    Principal and Interest    23,636,575            12%     7,319,292          21%     303,066,603              5%     100,245,399       6%
 Native American               Borrowers                   1          0%                0       0%                   591        2%              198       1%
                                   Loans                3             0%                0       0%           1,161              1%             464        1%
                    Principal and Interest        298,784             0%                0       0%      63,718,197              1%       8,588,383        1%
           Asian               Borrowers                   0          0%                0       0%             117              0%              56        0%
                                   Loans                   0          0%                0       0%             300              0%             171        0%
                    Principal and Interest                 0          0%                0       0%      31,704,872              1%       5,471,826        0%
           Other               Borrowers                4             0%             1          0%             138              0%              26        0%
                                   Loans                7             0%             1          0%             224              0%              40        0%
                    Principal and Interest        213,239             0%         1,397          0%      14,670,543              0%         995,711        0%

         Hispanic              Borrowers                   0          0%                0       0%               600            2%              307       2%
                                   Loans                   0          0%                0       0%             1,553            2%              851       2%
                    Principal and Interest                 0          0%                0       0%     102,807,041              2%      24,655,123        2%




Source: PLAS Database
USDA/OIG-A/50801-3-Hq                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                        Page 128
       OIG’s CORE CIVIL RIGHTS AUDIT TEAM




An additional 40 auditors and managers assisted the core audit team in the review of 11 States and 33 counties.
